<html>
<title> - FUNDING FOR IMMIGRATION IN THE PRESIDENT'S 2005 BUDGET</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                        FUNDING FOR IMMIGRATION 
                     IN THE PRESIDENT'S 2005 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                     FEBRUARY 25 AND MARCH 11, 2004

                               __________

                             Serial No. 68

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary










                        U.S. GOVERNMENT PRINTING OFFICE

92-120                         WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001





                         COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

JEFF FLAKE, Arizona                  SHEILA JACKSON LEE, Texas
MARSHA BLACKBURN, Tennessee          LINDA T. SANCHEZ, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           HOWARD L. BERMAN, California
CHRIS CANNON, Utah                   JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa
MELISSA A. HART, Pennsylvania

                     George Fishman, Chief Counsel

                   Art Arthur, Full Committee Counsel

                        Luke Bellocchi, Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel




                            C O N T E N T S

                              ----------                              

                             HEARING DATES

                                                                   Page
February 25, 2004................................................     1
March 11, 2004...................................................    55

                           OPENING STATEMENT
               February 25, 2004<greek-l>first date deg.

The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     3
The Honorable Elton Gallegly, a Representative in Congress From 
  the State of California........................................     6
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................     7
The Honorable Linda T. Sanchez, a Representative in Congress From 
  the State of California........................................     9

                March 11, 2004<greek-l>second date deg.

The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................    55
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    81

                               WITNESSES
               February 25, 2004<greek-l>first date deg.

The Honorable Eduardo Aguirre, Jr., Director, U.S. Citizenship 
  and Immigration Services, U.S. Department of Homeland Security
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
Mr. Michael T. Dougherty, Director of Operations, U.S. 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security
  Oral Testimony.................................................    17
  Prepared Statement.............................................    19
Mr. Daniel B. Smith, Principal Deputy Assistant Secretary of 
  State for Consular Affairs, U.S. Department of State
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24
Mr. Seth M. M. Stodder, Counsel and Senior Policy Advisor, U.S. 
  Customs and Border Protection, U.S. Department of Homeland 
  Security
  Oral Testimony.................................................    27
  Prepared Statement.............................................    30

                March 11, 2004<greek-l>second date deg.

Mr. T.J. Bonner, National President, National Border Patrol 
  Council, American Federation of Government Employees, AFL-CIO
  Oral Testimony.................................................    57
  Prepared Statement.............................................    59
Mr. Timothy J. Danahey, National President, Federal Law 
  Enforcement Officers Association
  Oral Testimony.................................................    60
  Prepared Statement.............................................    62
Mr. Michael W. Cutler, former INS Special Agent
  Oral Testimony.................................................    65
  Prepared Statement.............................................    68
Dr. Demetrios G. Papademetriou, President, Migration Policy 
  Institute
  Oral Testimony.................................................    70
  Prepared Statement.............................................    73

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING
               February 25, 2004<greek-l>first date deg.

Prepared statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................     5
Prepared statement of the Honorable Elton Gallegly, a 
  Representative in Congress From the State of California........     7
Prepared statement of the Honorable Zoe Lofgren, a Representative 
  in Congress From the State of California.......................     8
Prepared statement of the Honorable Linda T. Sanchez, a 
  Representative in Congress From the State of California........     9

                March 11, 2004<greek-l>second date deg.

Prepared statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    81
Prepared statement of the Honorable Linda T. Sanchez, a 
  Representative in Congress From the State of California........    94

                                APPENDIX
               Material Submitted for the Hearing Record
               February 25, 2004<greek-l>first date deg.

Response to questions submitted by Rep. Jackson Lee to Mr. 
  Michael T. Dougherty, Director of Operations, U.S. Immigration 
  and Customs Enforcement, U.S. Department of Homeland Security..   106
Response to questions submitted by Rep. Jackson Lee to Mr. Daniel 
  B. Smith, Principal Deputy Assistant Secretary of State for 
  Consular Affairs, U.S. Department of State.....................   108


                        FUNDING FOR IMMIGRATION 
                     IN THE PRESIDENT'S 2005 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2004

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:09 p.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order. Today, 
the Subcommittee on Immigration, Border Security, and Claims 
will examine the funding for immigration-related programs in 
the President's FY 2005 budget.
    In the last session, the Subcommittee rigorously 
investigated the operations of the agencies charged with 
carrying out our nation's immigration laws. In the course of 
this oversight, the Subcommittee heard from critics who 
complained that our country is in an immigration crisis because 
our laws governing aliens are not being enforced. Experts 
complained that worksite enforcement had been abandoned, 
allowing unscrupulous employers free to employ illegal aliens.
    In addition, complaints were raised that the Government was 
not doing enough to identify convicted criminal aliens before 
they were released to continue to prey on the American public. 
Further, critics noted that many aliens who were not detained 
would not appear for removal proceedings and that many non-
detained aliens who had appeared and were ordered removed would 
ignore the orders and abscond.
    Commentators also asserted that the United States had not 
done enough to protect itself along its borders and at its 
ports. In an August 2003 report, for example, the General 
Accounting Office identified vulnerabilities and inefficiencies 
in the inspections process at the land ports. Those 
vulnerabilities could be exploited by terrorists, who have 
abused our immigration laws in the past to harm the American 
people.
    Finally, the Subcommittee has heard complaints from 
citizens and aliens about staggering backlogs in the 
adjudications process. According to the GAO, those backlogs 
reached an unacceptable level of 6.2 million pending 
applications by the end of FY 2003, making aliens who played by 
the rules wait years for their cases to be adjudicated.
    I am pleased to note that in his FY 2005 budget, the 
President has addressed many of the deficiencies in the 
Government's implementation of the immigration laws that were 
uncovered by the Subcommittee. Specifically, the President's FY 
2005 budget requests an additional $281 million for U.S. 
Immigration and Customs Enforcement. Of that increase, $23 
million will go to worksite enforcement, more than doubling the 
resources devoted to this priority.
    The President further requests an additional $30 million 
for the Institutional Removal Program, to ensure that aliens 
convicted of crimes in the U.S. are identified and processed 
before they are released back into society. The President also 
requests an increase of $50 million to apprehend alien 
absconders and $5 million for additional detention bed space to 
ensure that aliens appear for their immigration proceedings and 
that aliens ordered removed actually leave.
    In addition to these increases, the President requests an 
additional $257 million for U.S. Customs and Border Protection, 
which enforces the laws along the border and at the ports. Of 
this $257 million, the President requests more than $20 million 
to identify high-risk travelers and goods for inspection. This 
will allow law-abiding travelers to enter the United States and 
continue to their destinations without delay.
    In addition, the President's FY 2005 budget contains a $64 
million increase for Border Patrol surveillance and sensors 
technology. Such technology is a force multiplier which frees 
Border Patrol agents to enforce the law more vigilantly.
    The FY 2005 budget also contains an additional $58 million 
for U.S. Citizenship and Immigration Services. This includes 
additional funding to reduce the backlog of applications and to 
enable the agency to meet the goal of the 6-month standard for 
processing all applications by FY 2006.
    Finally, the President's FY 2005 budget requests an 
increase of $120 million for consular relations. Consular 
officers are our nation's first line of defense in keeping out 
aliens intending to do us harm. This includes $52 million to 
assist implementation of fingerprint capture capability at all 
visa-issuing posts and $37 million to help develop a new 
biometric passport with embedded chips. The ability to capture 
fingerprints during the visa issuance process will allow 
inspectors to ensure that a bearer of a visa is the person to 
whom it was issued. Similarly, the issuance of biometric 
passports will make it easier for inspectors to verify that a 
passport is valid and held by the U.S. citizen it was issued 
to.
    Further, additional funds are devoted to 60 new consular-
related positions to handle the increased workload related to 
the important new requirement that all visa applicants be 
individually interviewed.
    The Subcommittee will examine these proposed funding 
increases and assess to what degree the increases assist the 
U.S. Government in responding to the main immigration 
challenges facing the United States today: reducing the large 
illegal alien population, protecting the American people from 
alien criminals and terrorists, and ensuring that applications 
for immigration benefits are adjudicated correctly and in a 
timely manner.
    Before I turn it over to the Ranking Member, the chair 
observes that as the nature of our Committee makeup, there are 
many times when witnesses requested by the majority and 
witnesses requested by the minority may not hold the same 
viewpoint and that those viewpoints may diverge. But I would 
like to personally thank Ms. Jackson Lee as well as other 
Members of the minority on the Subcommittee for allowing us to 
have this panel with all Administration witnesses to talk about 
the very important issues that are before us.
    With that, I turn to the Ranking Member, Ms. Jackson Lee, 
for an opening statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and I 
thank the Members of this Committee who are present and I thank 
the minority side in particular for their cooperation. We are, 
in fact, in partnership with this effort that is a challenge 
for all of us, so I would indicate to the witnesses I 
appreciate your presence here, as well, and be reminded that 
any comments that we make, it's because we are in a partnership 
trying to achieve both a degree, a high degree of national 
security but also respecting the responsibilities we have as we 
interface with people who are seeking to come into this country 
legally.
    Let me also note and compliment the presence of Director 
Aguirre for some of the work that I have seen him engage in on 
this question of immigration reform and the tone that he has 
exhibited. I think we are a long way away from solution, but I 
do appreciate the effort that you've made in explaining the 
importance of recognizing that there are immigrants that come 
to this country who come for economic reasons or come for 
opportunities of improvement of their lives.
    And I think, Mr. Chairman, that's where I'm going on this 
particular Committee, and I know that there's a bell about to 
ring. Might I just say to the panelists, forgive me for my 
departure. There is a crisis brewing in Haiti and we are to be 
engaged in a meeting at the White House on this question and so 
I may not be able to complete this hearing, and that goes to my 
point, as well, are we prepared for what might be a pending 
flood of refugees into this country.
    My concern today in looking at the budget is that we have a 
large sum of money for enforcement, and that is good, but we 
are certainly less than complete with the funding that we have 
for immigration services and benefits and citizenship and that 
is my concern. We are backlogged with valid applications of 
individuals who seek to come into this country legally. We are 
speaking about or debating the question of immigration reform 
and I intend to introduce a comprehensive Immigration Fairness 
Act of 2004. But in doing so, I am frightened of the burden and 
responsibility that will be put upon certain segments of 
homeland security and the fact that we will not have the 
resources.
    Several years ago, we debated the desirability of dividing 
the former Immigration and Naturalization Service into two 
bureaus, an enforcement bureau and a benefits bureau. I 
expressed concern about the possibility that the enforcement 
bureau would become the focus of most of our resources to the 
detriment of our benefits bureau.
    We no longer debate whether INS should be divided into 
different bureaus for enforcement and benefit purposes. The 
establishment of the Department of Homeland Security has made 
that separation a reality. On the enforcement side, we have the 
Bureaus of Customs and Border Protection and the Bureau of 
Immigration and Customs Enforcement, ICE, and on the benefits 
side, we have the Bureau of U.S. Citizenship and Immigration 
Services.
    I wish I could say that I was wrong, that my fears were 
unfounded, but my fears were not unfounded. The enforcement 
bureaus are receiving most of our resources to the detriment of 
the benefits bureau. The FY 2005 request for the two 
enforcement bureaus is $10 million-plus, whereas the FY 2005 
request for the benefits bureau is only, I'm sorry, is this, 
$1.711 million. In other words, the Administration is proposing 
to spend six times more on enforcement than on benefits.
    The real disparity, however, can be seen more clearly in 
the increases that these amounts represent. The Administration 
is requesting an increase of $538 million for the enforcement 
bureaus, but only is requesting a $58 million increase for the 
benefits bureau. In other words, for every additional dollar 
the Administration is requesting for the benefits bureau, it is 
requesting $9 for the enforcement bureaus.
    I am not opposed to providing sufficient funding for the 
enforcement bureaus. My concern is that the Administration is 
not requesting adequate resources for the benefits operations. 
The Citizenship Bureau has not been able to keep up with its 
work. The U.S. CIS has a backlog of more than six million 
benefit applications. The Texas service center presently is 
working on visa petitions that U.S. citizens and lawful 
permanent residents filed for unmarried sons and daughters on 
October 30, 1998. These applications sit for more than 5 years 
before anyone begins to work on them.
    Such delays do not just affect the people in other 
countries who are the subjects of the petitions, the 
petitioners are also individuals in this nation. The 
petitioners who file family-based and employment-based visa 
petitions are lawful permanent residents and citizens of the 
United States and American employers. In fact, when such a 
petition is denied, the foreign person who is the subject of 
the petition does not have standing to file an appeal. The 
right to the immigration benefit lies with the American 
petitioner. We are hurting our own who are within these 
borders, not just the alien who is the subject of the petition.
    Despite this crisis, the Administration's budget for U.S. 
CIS only allocates $140 million for backlog reduction. Even 
with the addition of the $20 million U.S. CIS expects to 
receive from increased processing fees, this is not sufficient 
to eliminate the backlog. The magnitude of the backlog problem 
can be seen in the fact that during the 3-year period of fiscal 
years 2001 to 2003, U.S. CIS reported operating costs exceeded 
available fees by almost $460 million.
    Since the beginning of fiscal year 2001, the number of 
pending applications increased by more than 2.3 million, about 
59 percent, to 6.2 million at the end of fiscal year 2003. This 
increase occurred despite additional appropriations beginning 
in fiscal year 2002 of $80 million annually to address the 
backlog.
    Meanwhile, $340 million is allocated for the U.S. VISIT 
program, which may turn out to be a waste of resources that 
could have been used elsewhere, such as for reducing the 
benefits application backlog. The stated objective for U.S. 
VISIT is to enhance the nation's security while facilitating 
legitimate travel and trade through our borders. According to a 
September 2003 report from the General Accounting Office, U.S. 
VISIT is a very risky endeavor. The potential cost of the 
program is enormous and may not be able to measurably and 
appreciably achieve its goals.
    I am not sure that U.S. VISIT will increase the security of 
our borders, although I want it to do so. Even if it is fully 
and successfully implemented, U.S. VISIT only screens foreign 
visitors seeking admission on the basis of non-immigrant visas. 
It does not screen non-immigrant visitors from 27 countries 
participating in the visa waiver program, and if we know what 
is happening in Europe, we know that Europe is without borders. 
That means that those who don't come under the visa waiver 
program have the ability to send their individuals or 
constituents into countries who are subject to the visa waiver 
program and who knows what will happen. Twenty-seven countries 
participate in a visa waiver program or anyone who presents a 
green card, and it will be years before the system is fully 
operational at all of the land borders.
    I conclude, Mr. Chairman, by simply saying this, that we 
are in a partnership to do better. I believe, however, we are 
failing if we do not provide the resources for individuals 
seeking legal access to this country.
    And lastly, I would say to Mr. Dougherty, just in a comment 
to you, I am concerned in our airports across the country and I 
will cite the Houston airport, in that we are not training our 
officials sufficiently to protect the civil liberties and 
rights of individuals who come into this country and should be 
bound by those laws. We are finding that people are being 
detained inappropriately. Questions are being asked 
inappropriately. These people are not being--not threatening, 
they are not terrorists, and we are doing a disservice to the 
international reputation of this nation. We can be secure 
without violating the secure needs and the civil rights needs 
of our citizens and others. Thank you.
    Mr. Hostettler. I thank the gentlelady.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas
    Several years ago, we debated the desirability of dividing the 
former Immigration and Naturalization Service (INS) into two bureaus, 
an enforcement bureau and a benefits bureau. I expressed concern about 
the possibility that the enforcement bureau would become the focus of 
most of our resources to the detriment of the benefits bureau. We no 
longer debate whether INS should be divided into different bureaus for 
enforcement and benefits purposes. The establishment of the Department 
of Homeland Security has made that separation a reality. On the 
enforcement side, we have the Bureau of Customs and Border Protection 
(CBP) and the Bureau of Immigration and Customs Enforcement (ICE), and, 
on the benefits side, we have the Bureau of U.S. Citizenship and 
Immigrant Services (USCIS).
    I wish I could say that I was wrong, that my fears were unfounded, 
but my fears were not unfounded. The enforcement bureaus are receiving 
most of our resources to the detriment of the benefits bureau. The FY 
2005 request for the two enforcement bureaus is $10,214 million, 
whereas the FY2005 request for the benefits bureau is only $1,711 
million. In other words, the Administration is proposing to spend 6 
times more on enforcement than on benefits. The real disparity, 
however, can be seen more clearly in the increases that these amounts 
represent. The Administration is requesting an increase of $538 million 
for the enforcement bureaus but only is requesting a $58 million 
increase for the benefits bureau. In other words, for every additional 
dollar the Administration is requesting for the benefits bureau, it is 
requesting 9 dollars for the enforcement bureaus.
    I am not opposed to providing sufficient funding for the 
enforcement bureaus. My concern is that the Administration is not 
requesting adequate resources for the benefits operations. The Bureau 
of U.S. Citizenship and Immigrant Services (USCIS) has not been able to 
keep up with its work load. USCIS has a backlog of more than 6 million 
benefits applications.
    The Texas Service Center presently is working on visa petitions 
that U.S. citizens and lawful permanent residents filed for unmarried 
sons and daughters on October 30, 1998. These applications sit for more 
than 5 years before anyone begins to work on them. Such delays do not 
just affect the people in other countries who are the subjects of the 
petitions. The petitioners who file family-based and employment-based 
visa petitions are lawful permanent residents and citizens of the 
United States and American employers. In fact, when such a petition is 
denied, the foreign person who is the subject of the petition does not 
have standing to file an appeal. The right to the immigration benefit 
lies with the American petitioner, not with the alien who is the 
subject of the petition.
    Despite this crisis, the Administration's proposed FY 2005 budget 
for USCIS only allocates $140 million for backlog reduction. Even with 
the addition of the $20 million USCIS expects to receive from increased 
processing fees, this is not sufficient to eliminate the backlog. The 
magnitude of the backlog problem can be seen in the fact that during 
the 3-year period from fiscal year 2001 through 2003, USCIS's reported 
operating costs exceeded available fees by almost $460 million. Since 
the beginning of fiscal year 2001, the number of pending applications 
increased by more than 2.3 million (about 59%) to 6.2 million at the 
end of fiscal year 2003. This increase occurred despite additional 
appropriations beginning in fiscal year 2002 of $80 million annually to 
address the backlog.
    Meanwhile, $340 million is allocated for the US-VISIT program, 
which may turn out to be a waste of resources that could have been used 
elsewhere, such as for reducing the benefits applications backlog. The 
stated objective for US-VISIT is to enhance the nation's security while 
facilitating legitimate travel and trade through our borders. According 
to a September 2003 report (GAO-03-1083) from the General Accounting 
Office (GAO), US-VISIT is a very risky endeavor, the potential cost of 
the program is enormous, and it may not be able to measurably and 
appreciably achieve its goals.
    I am not sure that US-VISIT will increase the security of our 
borders even if it is fully and successfully implemented. US-VISIT only 
screens foreign visitors seeking admission on the basis of nonimmigrant 
visas. It does not screen nonimmigrant visitors from the 27 countries 
participating in the Visa Waiver Program or anyone who presents a green 
card, and it will be years before the system is fully operational at 
all of the land borders.
    I believe that we need to pay more attention to benefits operations 
and that we much use our resources more wisely.
    Thank you.

    Mr. Hostettler. The chair recognizes the gentleman from 
California, Mr. Gallegly, for an opening statement that he may 
have.
    Mr. Gallegly. Thank you very much, Mr. Chairman. In view of 
the fact that we have a limited time and we have a vote, in 
consideration for the Ranking Member having to go to another 
meeting, I wouldn't want to deprive her from the opportunity to 
express herself on any of these issues. I would just ask 
unanimous consent that my opening statement be made a part of 
the record.
    I would just like to add that while I understand the 
statements the Ranking Member made relative to many people 
being detained that shouldn't be detained at the airports, I'd 
like to add that we have about 12 million people in this nation 
that should have been detained that haven't been detained, and 
I would yield the balance of my time.
    Mr. Hostettler. I thank the gentleman.
    [The prepared statement of Mr. Gallegly follows:]
Prepared Statement of the Honorable Elton Gallegly, a Representative in 
                 Congress From the State of California
    Thank you, Mr. Chairman, for holding this very important hearing on 
funding for immigration in the President's 2005 budget. I am pleased to 
see that there are funding increases proposed for several programs that 
I believe are very effective at improving our ability to enforce 
immigration laws and secure the border, but I am primarily concerned 
with results. Monies appropriated by Congress should yield tangible 
results, and I don't mean just flow charts.
    Among the funding increase proposals is the request for an 
additional $30 million in funding for the Institutional Removal 
Program, more particularly the subset of this program that screens 
inmates at city and county jails for immigration violations. This jail 
screening program, which was pioneered in my District and authorized 
nationwide by legislation I authored, is integral to removing criminal 
illegal immigrants because it screens prisoners at the point of entry 
into the criminal justice system, not only those who later receive 
prison sentences. This program has proven effective in my District, 
despite a lack of funding, and has never been expanded nationwide as 
intended. I have concerns with amount of resources that are currently 
being dedicated to this program, and it is my wish that a large portion 
of the $30 million increase for all Institutional Removal Programs goes 
to the portion of that program that services the nation's points of 
entry into the criminal justice system--city and county jails.
    Additionally, I was pleased to see that additional monies have been 
requested for interior and border enforcement efforts. Statistics 
abound that tell us we are not doing an adequate job of policing our 
borders and enforcing immigration laws within the United States. 
However, I question whether a 50% increase in employer enforcement 
measures is enough.
    Further, I am pleased to see that additional monies have been 
requested to institute a program to add biometric identifiers to 
American passports. Biometric identifiers are integral to the ability 
of this country to ascertain the true identity of individuals. I am 
interested in hearing more about the progress of this effort and what 
the Department of State plans to accomplish with these funds.
    I would like to thank the Chairman for holding this hearing and 
giving us an opportunity to hear about these and other programs and ask 
questions about what monies requested will yield.

    Mr. Hostettler. The chair recognizes the gentlewoman from 
California, Ms. Lofgren, for an opening statement she may make.
    Ms. Lofgren. Thank you, Mr. Chairman. I will ask that my 
written statement be made a part of the record and will simply 
say that, first, I am concerned at the short time frame that 
the Committee and Subcommittee has been provided to actually 
review this budget and I think that is a disservice to the 
whole Committee, both the majority and minority. I think if we 
had more time, we could do a more substantive job.
    So I would ask that the--I have certainly complained and I 
hope that the Chairman can also complain on behalf of his 
Members that we get more time next year and that we have an 
opportunity to, with additional time, to provide the kind of 
oversight that I know we all want to do.
    I have a number of questions that I will be raising, but 
the one statement I would like to make just at the outset is 
that I continue to be enormously frustrated at the backlogs 
that continue in this Department. I guess this is immigration 
day for me. This morning, we had Asa Hutchinson at the Science 
Committee talking about student visas and then here today, this 
afternoon, Mr. Aguirre. I reminded Asa of a meeting that we 
were invited to attend as Members of the Judiciary Committee 
with the Attorney General at breakfast.
    Obviously, the Committee is ideologically quite diverse, 
but the Members that were invited to meet with the Attorney 
General only talked about one thing. We complained about the 
Immigration Service to the Attorney General and it was all 
about processing. Eighty percent of the cases that come into my 
district office relate to immigration matters and it's almost 
always American citizens with spouses and family members. I 
know we have a 6-month goal. We're really, I think, 2 years 
into the 6-month goal, 5-year plan and I would say the bulk of 
the cases in my office are a year, year and a half old and it's 
just not acceptable.
    I am concerned about the deployment of technology, what 
kind of planning we have. I understand that there is a request 
for additional fees. I don't per se oppose fee increases, but 
until I see how they're going to be spent and that there will 
actually be benefit, I'm not prepared to say that that's 
acceptable. So I'm hoping that we will--we are going to have to 
vote in a minute, but in the affirmative testimony, perhaps we 
can get some insight into the technology planning and the 
backlog reduction plans that are being envisioned, because I'm 
sure you don't enjoy being the object of complaints and we 
don't enjoy the complaining. We all would like to get this 
really moving more quickly than it has.
    I, in view of the time, will yield back to the chair.
    Mr. Hostettler. I thank the gentlelady.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
                 Congress From the State of California
    Chairman Hostettler and Ranking Member Jackson Lee, thank you for 
holding this very important hearing to discuss the immigration 
provisions in the fiscal year 2005 budget. I would also like to thank 
the witnesses for taking the time to be here today to let us know how 
we can help them improve our immigration programs across the country. I 
believe this is an essential oversight responsibility we have as 
members of this subcommittee. Unfortunately, not everyone agrees.
    It appears the majority in the Judiciary Committee was anxious to 
move forward on finalizing the Committee's official views and estimates 
on the 2005 budget request without giving, not only the minority, but 
also the majority in this Subcommittee a substantive opportunity to 
contribute to those views. The majority in the Judiciary Committee 
wanted those view and estimates finalized this week.
    However, I would have had to submit my opinion on the official 
views and estimates before we even held this hearing. What is the point 
of having this hearing if we have no way of officially responding to 
what we learn today about the immigration provisions in the budget 
request?
    In the very limited time I was given to review the views and 
estimates, I found glaring problems that I would like to address at 
this hearing before we must officially submit our views of the budget 
request. The most glaring problem was the fact that while three and 
half pages were dedicated to enforcement functions, by far the largest 
sections only one small paragraph was written about service functions. 
While I agree there are many problems with enforcement, there are 
equally as many problems, if not more, with services, especially with 
the backlog of immigration applications. I would like to address some 
of those issues today and learn more about what types of funds and 
plans are needed to correct this tremendous problem that currently 
effects more than 6 million petitioners.
    Although we do not come together on many issues as a subcommittee, 
I hope we can agree on this one--our oversight responsibilities should 
never be bypassed. We have a duty to ensure that our immigration 
programs are receiving appropriate funding and functioning properly. 
This is why I am very glad that we are here today for this hearing and 
hope we will agree that the full Committee's views and estimates on the 
budget should not be finalized until we have had enough time for this 
hearing and an analysis to follow this hearing.

    Mr. Hostettler. The chair now recognizes the gentlelady 
from California, Ms. Sanchez, for an opening statement.
    Ms. Sanchez. Thank you, Mr. Chairman. I want to thank the 
Chairman and our Ranking Member Jackson Lee for convening this 
hearing today to discuss how the funds in President Bush's 
budget will be used for our admittedly broken immigration 
system.
    As the only Latina that sits on the Judiciary Committee, 
and representing a district that is 60 percent Latino, 
immigration reform is important to me both personally and as a 
Member of Congress. I'm a little disappointed and very 
concerned that President Bush's immigration principles and now 
his budget are causing more confusion and harm than good in our 
efforts at immigration reform.
    In fact, the system is so confusing that this weekend, I 
will be convening an immigration forum in my district to try to 
educate my constituents on what is election year rhetoric and 
what is reality in the immigration system. Unfortunately, 
unsuspecting immigrants in California and nationwide are 
already being taken for hundreds of dollars in scams, promising 
to sign them up for the nonexistent temporary worker program 
that Bush talks about.
    Simply put, these immigration principles are not going to 
work and they're not going to help the existing backlog. My 
colleague from California, Zoe Lofgren, mentioned that 80 
percent of her casework is immigration related, and I would 
venture to guess that mine is about the same. And with no 
earned legalization opportunities for the eight million hard-
working undocumented immigrants in this country, a program like 
a temporary guest worker program opens the door to continued 
unfair treatment of workers and offers them no hope for the 
future.
    In the interest of time, I am going to stop there and I 
will submit the remainder of my comments for the record. But I 
just want to underscore the fact that we can't continue to make 
budget decisions and put the bulk of our resources at 
enforcement, an enforcement that we don't really know what 
we're getting for our money, and not try to tackle the issue of 
the backlog. That is a huge issue that keeps families apart. It 
is a huge issue that continues to create problems with 
immigration, and it is in our national security interest to try 
to get that backlog dealt with so that we know who is in this 
country and so that our national security is not at risk.
    With that, I will yield back the balance of my time.
    Mr. Hostettler. The chair states that all opening 
statements will be made a part of the record.
    [The prepared statement of Ms. Sanchez follows:]
Prepared Statement of the Honorable Linda T. Sanchez, a Representative 
                in Congress From the State of California
    Thank you Chairman Hostettler and Ranking Member Jackson Lee for 
convening this hearing today to discuss how funds in President Bush's 
budget will be used for our broken immigration system.
    As the only Latino on the Judiciary Committee and representing a 
district that is 60% Latino, immigration reform is important to me 
personally and as a Member of Congress. I am very concerned that 
President Bush's immigration principles, and now his budget, are 
causing more confusion and harm than good in our efforts at immigration 
reform.
    In fact, I am trying to clear up a lot of the confusion caused by 
President Bush's immigration principles in my district by holding an 
immigration forum this weekend to educate my constituents on what is 
election-year rhetoric and what is reality. Unsuspecting immigrants in 
California and nationwide are already being taken for hundreds of 
dollars in scams promising to sign them up for Bush's non-existent 
temporary worker program.
    Simply put, President Bush's immigration principles will not work.
    It is obvious that the President's broad temporary worker program 
is not going to solve the problem of illegal immigration since it does 
not solve the family reunification problem. With no earned legalization 
opportunities for the 8 million hard-working undocumented immigrants in 
this country, the temporary worker program opens the door to unfair 
treatment of workers and offers them no hope for the future.
    There is a better course of action for the President and for 
immigrants in this country. If the President is serious about 
immigration reform he will support the DREAM Act and the AgJOBS bill. 
These bills will make meaningful reforms to our immigration system. 
However, the President has refused to support these bills. Instead, he 
has proposed a budget that will continue to pump hundreds of millions 
of dollars into a system that does not work.
    We all agree that our immigration system needs to be reformed. 
Illegal immigration is still a problem. Families still have to wait 
years, sometimes decades to be reunited. And, our borders are still not 
secure enough. We agree that it will take a major investment of federal 
funds to fix all of these problems. But if we are going to invest 
hundreds of millions of dollars, we need to be absolutely sure that the 
money is going into a system that will be effective. We need to put our 
money into a system that makes our country safer, and is fair and 
efficient for the immigrants already in this country and those that are 
waiting to get in.
    President Bush's budget does not do that. The President's budget 
continues his pattern of giving hundred of millions of dollars to so-
called enforcement programs while neglecting immigration services 
programs. In his budget the President seeks $281 million more for DHS's 
Bureau of Immigration and Customs Enforcement in FY '05 than he did in 
FY '04. This is the largest funding increase for a Bureau of DHS that 
the President seeks in his budget. My concern is what kinds of 
enforcement measures does the President have in mind for this 
additional $281 million?
    I hope it is not ill-advised enforcement plans like the CLEAR Act 
which cuts funding to states and localities, burdens local law 
enforcement agents, undermines the NCIC database, and diverts scarce 
DHS resources away from apprehending terrorists. The CLEAR Act will not 
work, will not make us safer, and will be a complete waste of federal 
money. We should not be spending $281 million in additional dollars on 
enforcement programs like the CLEAR Act that make our country less 
secure.
    A much better use of our funds are on programs that make our 
immigration system fairer, more efficient, and reduce the incentives 
for illegal immigration--such as reducing the visa backlog and 
promoting citizenship.
    President Bush has proposed an additional $60 million for $500 
million initiative to reduce the visa backlog by 2006. I am glad that 
the President is spending funds to reduce the visa backlog but $60 
million is inadequate to make the necessary changes to a visa 
processing system that needs significant reform.
    The President's visa reduction program is now several years old and 
we still have a backlog of over 6 million visas. Plus, the Bush 
administration is trying to increase the fees for visa applications 
with no indication of the reason for the increase or if the additional 
funds will help to reduce the visa backlog. I cannot support raising 
the fees for visa applications if the money will not help families 
reunite quicker.
    I look forward to the testimony of the witnesses today and I hope 
that they can tell this Subcommittee exactly how President Bush's 
budget will repair our immigration system and not waste precious 
taxpayer dollars.

    Ms. Jackson Lee. Mr. Chairman?
    Mr. Hostettler. Yes?
    Ms. Jackson Lee. I ask unanimous consent to submit----
    Mr. Hostettler. I recognize the gentlelady from Texas.
    Ms. Jackson Lee.--to submit my questions for the record for 
this panel, and I thank you.\1\
---------------------------------------------------------------------------
    \1\ The replies to post-hearing questions from Ms. Jackson Lee to 
the Honorable Eduardo Aguirre, Jr., and Mr. Seth M. M. Stodder were not 
available at the time this hearing was printed.
---------------------------------------------------------------------------
    Mr. Hostettler. Without objection.
    The chair will have the Subcommittee recess until these 
votes are over. I believe there are two votes. We may be down 
there 20 to 25 minutes, and I appreciate the indulgence of the 
witnesses. We will return as soon as possible. We are recessed.
    [Recess.]
    Mr. Hostettler. The Subcommittee will come to order. Once 
again, I thank the panel for your patience.
    Now to introduce the members of the panel. Mr. Eduardo 
Aguirre, Jr., is the Director of U.S. Citizenship and 
Immigration Services. In this position, he is charged with the 
overseeing of the administrative adjudication of applications 
for immigration benefits. He came to CIS from the Export-Import 
Bank, where he served as Vice Chairman and COO.
    Prior to joining the Government, Mr. Aguirre was the 
President of International Private Banking at Bank of America, 
culminating a 24-year career with that institution. He has also 
served as Chairman of the Board of Regents of the University of 
Houston system and as a non-attorney director for the Texas 
State Bar. He has a Bachelor of Science degree from Louisiana 
State University. Thank you, Director Aguirre, for being here.

STATEMENT OF THE HONORABLE EDUARDO AGUIRRE, JR., DIRECTOR, U.S. 
   CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Aguirre. Thank you, Mr. Chairman, and Ranking Member 
Jackson Lee, I recognize that you have to go to a pressing 
matter, and other Members of the Subcommittee. My name is 
Eduardo Aguirre and I have the honor of serving as the first 
Director of the U.S. Citizenship and Immigration Services 
within the Department of Homeland Security.
    On the occasion of my confirmation hearing before the 
Senate when my dear friend, the Ranking Member, Sheila Jackson 
Lee, introduced me to the Judiciary Committee, I shared with 
them my story of having arrived in the United States as a 15-
year-old unaccompanied minor from Cuba. My parents sent me here 
to escape a repressive regime and to experience freedoms and 
opportunities found only in America. That, of course, was the 
legal immigration track, the very system that I am now charged 
with fundamentally transforming.
    We are a welcoming nation and the hard work and patriotism 
of our immigrants has made our nation prosperous. We seek to 
continue to improve the administration of immigration benefits 
for the more than six million applicants who petition CIS every 
year.
    Upon creation of CIS, my team of 15,000 people and I 
embrace a simple but imperative mission, making certain that 
the right applicant receives the right benefit in the right 
amount of time while preventing the wrong individuals from 
obtaining our benefits.
    We established three priorities that guide the aspects of 
our work: Eliminating the immigration benefit application 
backlog while improving customer service and enhancing national 
security. As we approach our institutional 1-year anniversary, 
I'm particularly pleased with the progress we have made and the 
professionalism exhibited by our employees day in and day out, 
while mitigating security threats that we know to be real and 
relentless.
    To date, Mr. Chairman, we have initiated online options for 
application filings and case status updates. We've established 
the Office of Citizenship. We've eliminated lines at some of 
our highest volume offices. We've introduced a toll-free 
customer service help line. We streamlined the certificate of 
citizenship process for internationally adopted children. We've 
developed a more secure travel document for permanent residents 
and we fleshed out our leadership team while we were standing 
up our bureau.
    CIS is one of the largest fee-funded agencies in the 
Federal Government, charging fees for a variety of benefits 
from individuals seeking to enter, reside, or work in the 
United States. Therefore, the actual cash flow for our business 
operations vary from year to year with the number of 
immigration benefit applications received. In any typical day, 
my team of 15,000 will process 140,000 national security 
background checks every day, receive 100,000 web hits, take 
50,000 calls in our customer service centers, adjudicate 30,000 
applications for immigration benefits, see 25,000 visitors at 
92 field offices, issue 20,000 green cards, and capture 8,000 
sets of fingerprints and digital photos at 130 application 
support centers. That was every day.
    Backlogs of immigration benefit applications began to grow 
during the 1990's, seeing an overall 77 percent increase from 
FY '93 to FY '01. The primary factors included a dramatic 
increase in the number of applications and petitions received, 
delays in securing funding and positions to process these 
applications, the lengthy amount of time it takes to recruit, 
hire, and train adjudicators, and the lack of comprehensive 
approach to monitoring, supporting, and maintaining timely 
processing. That was, of course, in the past.
    Beginning in the year 2002, the President pledged and the 
Congress supported a multi-year $500 million initiative to 
obtain a universal 6-month processing time standard by FY 2006 
for all immigration benefit applications while providing 
quality service to all customers. We developed a comprehensive 
backlog elimination plan prior to September 11, 2001, to 
achieve this goal. The plan called for improvements to 
processes and expanded quality assurance efforts designed to 
achieve a high level of performance.
    We initially realized significant improvements. In FY 2002, 
processing times for applications averaged by type between 
three and 72 months. By the end of the year, these same 
averages were reduced to between one and 26 months.
    However, September 11, 2001, profoundly affected our 
business operation, employees, and stakeholders. New guidance 
was issued, security background checks were enhanced, and new 
processes were implemented. Already, many applications were 
subject to fingerprint and background checks. The enhanced 
check instituted in July 2002 represents an additional set of 
name checks against a variety of lookout databases housed in 
the Interagency Border Inspection System, also called IBIS. 
Approximately 35 million security checks were performed last 
year.
    This change in the way we process immigration benefit 
applications has meant higher processing costs for CIS. We make 
no apologies for our commitment to the integrity of the 
immigration system and we will not try to save a quarter if it 
means compromising security to process an application more 
quickly. We will continue to coordinate and identify suspected 
benefit fraud cases and refer them to ICE for enforcement 
action. We're making America safer against security and 
criminal threats one background check at a time.
    I believe that the President's FY 2005 budget will set us 
on the right path toward improving immigration services. The 
budget includes a total for CIS of $1.711 billion, $140 million 
in discretionary appropriated funds and $1.571 billion in fees, 
and seeks an additional $60 million to boost the total 
dedicated to backlog reduction efforts to $160 million.
    To ensure that our backlog does not increase any further, 
we are currently seeking to adjust our fee schedule through the 
regulatory process by recovering the cost associated with 
comprehensive security enhancements that were instituted after 
September 11, 2001. The cost of these security enhancements are 
about $140 million annually, or $21 per application. The fee 
adjustments will also support new activities such as 
establishing a refugee corps and establishing the new Office of 
Citizenship.
    In addition, CIS will develop study materials and teaching 
guides to ensure that the process of preparing for 
naturalization is meaningful, so that immigrants who choose to 
become U.S. citizens, as I did, have a real understanding of 
the commitment they are making when they take the oath of 
allegiance of the United States.
    We are also developing standardized testing procedures so 
that applicants can be assured that they are experiencing an 
equitable testing process. We do not want to make the test more 
difficult. We do not want to make it less difficult. We want to 
make it more meaningful in a way that it does not have an 
adverse impact on any particular group of applicants. We are 
committed to improving the current process and doing it right.
    We fully realize that increased funding alone will not 
enable us to realize our goals. We're taking a hard look at the 
way we currently conduct our business. We're aggressively 
working to modernize our system and increase our capacity 
through the engineering of processes, the development and 
implementation of new information technology systems, and the 
development of mechanisms to interact with customers in a more 
forward-reaching manner. We are now in the process of 
finalizing a new backlog elimination plan that will outline 
changes to our business processes and will set forth our 
revitalized vision of delivering immigration services in the 
future.
    This, Mr. Chairman, concludes my prepared remarks. I thank 
you for the invitation to testify before this Committee. I 
apologize for the lengthy statement and I look forward to the 
questions.
    Mr. Hostettler. Thank you, Director Aguirre.
    [The prepared statement of Mr. Aguirre follows:]
               Prepared Statement of Eduardo Aguirre, Jr.
    Good afternoon Chairman Hostettler, Ranking Member Jackson Lee and 
Members of the Subcommittee. My name is Eduardo Aguirre and I have the 
honor of serving as the first Director of U.S. Citizenship and 
Immigration Services, within the Department of Homeland Security.
    We are a welcoming nation, and the hard work and patriotism of our 
immigrants has made our Nation prosperous. We seek to continue to 
improve the administration of immigration benefits for the more than 
six million applicants who petition USCIS on an annual basis.
    We continue to commit ourselves to building and maintaining an 
immigration services system that provides information and benefits in a 
timely, accurate, consistent, courteous, and professional manner; while 
preventing ineligible individuals from receiving benefits. Put more 
simply, it is our job to make certain that the right applicant receives 
the right benefit in the right amount of time, while preventing the 
wrong individuals from obtaining our benefits.
    USCIS is one of the largest fee-funded agencies in the Federal 
government--charging fees for a variety of benefits from individuals 
seeking to enter, reside, or work in the United States. Therefore, the 
actual cash flow for our business operations, including a network of 
250 local offices, Application Support Centers, Service Centers, Asylum 
Offices, National Customer Service Call (NCSC) Centers, Forms Centers, 
and Internet portals, varies from year to year with the number of 
immigration benefit applications received.
    In any typical work day, our workforce of 15,500 (one-third of whom 
are contractors) will:

        <bullet>  Process 140,000 national security background checks;

        <bullet>  Receive 100,000 web hits;

        <bullet>  Take 50,000 calls at our Customer Service Centers;

        <bullet>  Adjudicate 30,000 applications for immigration 
        benefits;

        <bullet>  See 25,000 visitors at 92 field offices;

        <bullet>  Issue 20,000 green cards; and

        <bullet>  Capture 8,000 sets of fingerprints and digital photos 
        at 130 Application Support Centers.

    USCIS has established three priorities: (1) eliminating the 
immigration benefit application backlog, (2) improving customer 
service, while (3) enhancing national security. In our first year of 
operation we have: initiated on-line options for a few application 
filings and case status updates; established the Office of Citizenship; 
eliminated lines at some of our highest volume offices; introduced a 
toll-free customer service help line; streamlined the Certificate of 
Citizenship process for internationally adopted children; developed a 
more secure travel document for permanent residents; and fleshed out 
our leadership team.
    Backlogs of immigration benefit applications began to grow during 
the 1990s. Overall, there was a 77% increase from FY 1993 to FY 2001. 
The primary factors contributing to the backlogs were a dramatic 
increase in the number of applications and petitions received, delays 
in securing funding and positions to process this increasing number of 
applications, the lengthy amount of time it takes to recruit, hire and 
train adjudicators, and the lack of a comprehensive approach to 
monitoring, supporting and maintaining timely processing.
    Beginning in FY 2002, the President pledged, and the Congress 
supported, a multi-year $500 million initiative to attain a universal 
six-month processing time standard by FY 2006 for all immigration 
benefit applications while providing quality service to all customers. 
We developed a comprehensive Backlog Elimination Plan prior to 
September 11, 2001 to achieve this goal. The Plan called for 
improvements to processes and expanded quality assurance efforts 
designed to achieve a high level of performance. We initially realized 
significant improvements. In FY 2002, processing times for applications 
averaged, by type, between three and seventy-two months. By the end of 
the year, these same averages were reduced to between one and twenty-
six months.
    However, September 11, 2001 profoundly affected our business 
operations, employees, and stakeholders. New guidance was issued, 
security background checks were enhanced, and new processes were 
implemented, including conducting interviews for the National Security 
Entry Exit Registration System (NSEERS) Program.\1\ Additionally, since 
July 2002, we formally enhanced our security background checks on the 
processing of all immigration benefit applications to ensure that those 
who receive immigration benefits have come to join the people of the 
United States in building a better society and not to do us harm.
---------------------------------------------------------------------------
    \1\ Program transferred to BTS in November of 2003.
---------------------------------------------------------------------------
    The process of performing enhanced security checks has been 
designed to compare information on applicants, petitioners, 
beneficiaries, spouses and children and other household members who 
apply for an immigration benefit against various Federal lookout 
systems. Already, many applications were subject to fingerprint and 
background checks. The enhanced check instituted in July 2002 
represents an additional set of name checks against a variety of 
lookout databases housed in the Interagency Border Inspection System 
(IBIS).
    The purpose of conducting security checks is to help law 
enforcement agencies identify risks to the community and/or to national 
security and to prevent ineligible individuals from obtaining 
immigration benefits. On the vast majority of applications, we perform 
two checks; one when the application is initially received, and one at 
the time of adjudication. Approximately 35 million security checks are 
performed annually.
    In most of these cases (some 97%), the checks take only a few 
minutes. In the event of a ``hit'', however, we must hold that 
application without resolution until the security issue at hand is 
resolved. Last fiscal year, we processed a little over six million 
immigration benefit applications. Approximately 7% of the applications 
processed resulted in an initial security hit, and after further 
scrutiny, 2% resulted in confirmed security or criminal threat matches.
    This change in the way we process immigration benefit applications 
has meant higher processing costs for USCIS because the costs of 
performing these checks were not factored into the existing fee 
schedule. As a result, existing resources have been diverted to perform 
the additional security checks until the fees could be adjusted to 
cover these costs. Although the security enhancements have meant longer 
processing times in some categories and a significant growth in the 
application backlog, USCIS has taken the position that security 
absolutely will not be sacrificed in our search for increased 
efficiency. USCIS will continue to coordinate and identify suspected 
benefit fraud cases and refer them to ICE for enforcement action.
    Our intra-government coordination demonstrates that our approach 
realizes the intended results. By way of example, within the last month 
our background check procedures identified individuals wanted for 
murder in Portland and sexual assault in Miami. We are making America 
safer against security and criminal threats, one background check at a 
time.
    I believe that the President's FY 2005 budget will set us on the 
right path toward enhancing immigration services. The budget includes a 
total for USCIS of $1.711 billion, $140 million in discretionary 
appropriated funds and $1.571 billion in fees, and seeks an additional 
$60 million to boost the total dedicated to backlog reduction efforts 
to $160 million. Our overall goal is to achieve a six-month processing 
time standard for all immigration benefit applications by FY 2006.
    To ensure that our backlog does not increase further, we are 
currently seeking to adjust our fee schedule through the regulatory 
process by recovering costs associated with comprehensive security 
enhancements instituted after September 11, 2001. The annual cost of 
these security enhancements are about $140 million or about $21 per 
application.
    The fee adjustments will also support new activities such as 
establishing a refugee corps to improve the quality of refugee 
adjudications and establishing the new Office of Citizenship \2\ to 
promote instruction and training on citizenship responsibilities to 
both immigrants and U.S. citizens. The Office of Citizenship is 
developing initiatives to target immigrants at two critical points on 
their journey toward citizenship: when they obtain permanent resident 
status and as they begin the formal naturalization process. In the 
past, the Federal government provided few orientation materials for new 
immigrants. In contrast, CIS will reach out to new immigrants at the 
earliest opportunity to provide them with information and tools they 
need to begin the process of civic integration. In addition, CIS will 
develop study materials and teaching guides to ensure that the process 
of preparing for naturalization is meaningful, so that immigrants who 
choose to become U.S. citizens have a real understanding of the 
commitment they are making when they take the Oath of Allegiance to the 
United States. The establishment of a Refugee Corps, with an expanded 
management support structure, will provide a strong and effective 
overseas refugee processing program that will more efficiently identify 
inadmissible persons and those who are of national security interest 
without compromising the U.S. Refugee Program's humanitarian 
objectives.
---------------------------------------------------------------------------
    \2\ As required by the Homeland Security Act of 2002.
---------------------------------------------------------------------------
    We fully realize that increased funding alone will not enable us to 
realize our goals. We are taking a hard look at the way we currently 
conduct our business. We are aggressively working to modernize our 
systems and increase our capacity through the reengineering of 
processes, the development and implementation of new information 
technology systems, and the development of mechanisms to interact with 
customers in a more forward-reaching manner. For example, USCIS has 
recently eliminated the backlog of applications for the Certificate of 
Citizenship on Behalf of an Adopted Child with a program that 
proactively provides parents the certificate.
    We are now in the process of finalizing a new Backlog Elimination 
Plan that will outline changes to our business processes, and which 
will set forth our revitalized vision of delivering immigration 
services in the future.
    Additionally, we are examining the standard of knowledge in the 
current citizenship test to ensure that prospective and new citizens 
know not only the facts of our nation's history, but also the ideals 
that have shaped that history.
    The project management team for this initiative recently met with 
over a dozen historians, civics experts, and adult educators to discuss 
the redesign of the U.S. history portion of the naturalization test 
with the goal of making the test more meaningful, substantive, and 
fair. This group is examining the meaning of significant events that 
occurred in our nation's history, and is exploring ways in which 
naturalization candidates may better retain the significance of these 
events. Recognizing that many Americans have strong beliefs about what 
our new citizens should know about our country, we plan to publish the 
proposed test content in the Federal Register and ask for public 
comment. We believe that many Americans would like to have a say in 
what we are asking our new citizens to learn, and we are eager to hear 
from them. We look forward to briefing you and other Members of 
Congress on our proposed new citizenship test content and receiving 
your feedback, as well.
    In a related effort, this same team is working to redesign the 
current citizenship testing methodology in an effort to ensure more 
uniform results. Currently, a candidate in Los Angeles is, in all 
likelihood, not tested the same way or asked the same questions as a 
candidate taking the same exam on the same day in Boston. Therefore, we 
are developing standardized testing procedures so that applicants can 
be assured that they are experiencing an equitable testing process.
    We do not want to make the test more difficult. We do not want to 
make it less difficult. We want to make it more meaningful in a way 
that does not have an adverse impact on any particular group of 
applicants. Therefore, we will carefully pilot test the revised 
English, history, and government tests before implementing them. And, 
we will continue to consult with our stakeholders to solicit their 
input. Our newly created Office of Citizenship will be responsible for 
coordinating the development of educational materials designed to 
complement this important initiative.
    Our plan is to implement the new test and testing process in 2006. 
Given the importance of the ultimate benefit for those tested--U.S. 
citizenship--this process is not one that can or should be rushed. We 
are committed to improving the current process and to improving it in 
the right way.
    As we approach our institutional one-year anniversary, USCIS has 
stood up an organization of which we are very proud. We have 
established a leadership team, improved many of our operational 
processes, and continue to strive to make further improvements. The 
funding requested in the President's FY 2005 budget request is an 
important factor in continuing to improve the service we can offer our 
customers.
    This concludes my prepared remarks. I thank you for the invitation 
to testify before this committee and I would be happy to answer any 
questions.

    Mr. Hostettler. Michael Dougherty is the Director of 
Operations for U.S. Immigration and Customs Enforcement, or 
ICE. As Director of Operations, he is responsible for the 
overall management and coordination of ICE's operations and 
serves as Assistant Secretary Michael Garcia's principal 
representative to DHS and to the law enforcement and 
intelligence communities.
    Prior to this appointment, Mr. Dougherty was a partner in 
KPMG, LLP. He began his law enforcement career as an INS 
special agent in New York and was among one of the first agents 
assigned to the FBI Joint Terrorist Attack Force, or is that 
Task Force? Task Force. That should be Task Force, the FBI 
Joint Terrorist. You were attacking the terrorist problem, but 
that was actually a task force.
    Mr. Dougherty graduated from Ohio State University with a 
bachelor's degree in political science. Mr. Dougherty, thank 
you for being here today. You are recognized.

STATEMENT OF MICHAEL T. DOUGHERTY, DIRECTOR OF OPERATIONS, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Dougherty. Thank you, Mr. Chairman. It's my profound 
pleasure to appear before you today and the distinguished 
Members of the Subcommittee, as well. It's also my privilege to 
discuss the President's budget request for fiscal year 2005 for 
U.S. Immigration and Customs Enforcement.
    As you know, ICE was created on March 1, 2003, and has 
grown to become the largest investigative arm in the Department 
of Homeland Security and also is today the largest Federal 
investigative agency. ICE now also has the broadest 
investigative mandate in the Federal Government and is 
executing its new homeland security mission by building upon 
the traditional missions, resources, authorities, and 
capabilities of the agencies it inherited.
    Today, one of ICE's primary missions is to detect 
vulnerabilities and prevent violations that threaten national 
security. In other words, ICE investigates homeland security 
crimes. Today, I will discuss how the President's 2005 budget 
will continue to strengthen ICE's immigration enforcement 
mandate, which is only one of the mandates it currently has 
today.
    The 2005 budget seeks $4 billion in appropriated funds for 
ICE, $302 million more than in fiscal 2004, representing an 
approximately 10 percent increase. The requested increases 
include $186 million for ICE to fund improvements in 
immigration enforcement, both domestically and overseas, 
including more than doubling worksite enforcement efforts, 
increased efforts to combat benefits fraud and investigate 
violations of the SEVIS and U.S. VISIT systems, and 
approximately $100 million increase for detention and removal 
of illegal aliens.
    Critical to the removal process is ICE's ability to 
effectively litigate cases before the Immigration Court. The 
budget request includes a $6 million enhancement to provide 
additional attorneys to keep pace with our increasing caseload.
    Our budget also seeks $14 million to support our 
international enforcement efforts related to immigration. Ten 
million dollars of these funds will be used to implement ICE's 
visa security program to fulfill its obligations under section 
248 of the Homeland Security Act related to visa security.
    I'd like to briefly highlight and further explain some of 
the enforcement initiatives represented in the 2005 budget 
today. First, worksite enforcement. The 2005 budget includes an 
additional $23 million for worksite enforcement. This 
represents nearly 400 agents and support staff and more than 
doubles existing funds dedicated to worksite enforcement. With 
these resources, we will be able to continue our commitment to 
traditional worksite enforcement.
    However, worksite enforcement is also a useful tool in 
securing the nation's critical infrastructure. Since September 
11, ICE has screened 260,000 employee records pertaining to 
3,600 critical infrastructure employers and has identified in 
excess of 5,000 unauthorized workers who obtained employment, 
principally by presenting counterfeit documents to their 
employers or providing false information to security officials.
    Pursuant to these enforcement operations targeting critical 
infrastructures, such as airports, military installations, 
defense contractors, and Federal buildings, ICE has arrested 
over 1,000 individuals and secured the criminal indictment of 
774.
    Another key priority as reflected in the budget is benefits 
fraud. Recent history has shown that immigration fraud poses a 
significant threat to national security and public safety 
because it enables terrorists, criminals, and illegal aliens to 
gain entry and remain in the United States. ICE's goal, working 
in conjunction with CIS, is to detect, combat, and deter 
immigration fraud through aggressive, focused, and 
comprehensive investigations and prosecutions.
    The $25 million requested in the '05 budget will enable ICE 
to continue and increase high-impact fraud investigations and 
prosecutions, providing increased national security and 
ensuring the integrity of the immigration application process. 
To ensure the most effective application of the resources, ICE 
has collocated benefit fraud units with CIS service centers to 
focus on the criminal organizations that engage in large-scale 
immigration fraud and that seek to undermine the system of 
legal immigration.
    We also have significant initiatives reflected in our 
budget in the detention and removal program. Detention and 
removal of illegal aliens present in the United States is 
critical to the enforcement of our immigration laws. ICE today 
has a daily detention population of approximately 21,000. In 
'03, ICE removed more than 140,000 individuals from the United 
States, including 76,000 criminal aliens. An increase of $108 
million in fiscal 2005 would expand ongoing fugitive 
apprehension efforts, facilitate the removal of jailed aliens 
from the United States, and create effective methods to control 
non-detained cases and support additional detention and removal 
capacity.
    Specifically, $50 million are requested to continue the 
implementation of the ICE National Fugitive Operations Program. 
ICE today has 18 fugitive operations teams deployed throughout 
the country, and since March 1 has apprehended approximately 
6,000 fugitives. A large number of these were convicted of 
serious crimes and were subsequently ordered deported. Thus, 
the program has a significant public safety impact in 
communities across the nation. The '05 budget request would 
fund an additional 30 teams to locate these potential threats 
to public safety.
    We also seek funding for the Institutional Removal Program, 
which is designed to ensure that aliens convicted of crimes in 
the United States are identified, processed, and where 
possible, removed. The $30 million request would transfer the 
Institutional Removal Program from the responsibility of the 
Office of Investigation to the Office of Detention and Removal, 
freeing up special agents to work on more complex crimes 
directly related to national security. It would also make 
management of the program consolidated under a single 
operational division, as recommended by both the General 
Accounting Office and the Department of the Inspector General.
    Concluding, $11 million has been requested in the '05 
budget, which would more than double the capacity of the 
Intensive Supervision Program. Pilot projects have demonstrated 
that effective control of lower-risk persons who are released 
in the communities during immigration proceedings or while 
awaiting approval can stem the growth of the fugitive 
population. This year, we plan to have eight supervision sites 
that will be able to monitor 200 individuals per site using 
methods such as electronic monitoring, halfway houses, and 
voice recognition technology. Increases in '05 would double the 
capacity for each site and provide for an additional site.
    In conclusion, Mr. Chairman, deterring illegal migration 
and combating immigration-related crime have never been more 
critical to the national security. The men and women of ICE are 
tackling this challenging mission with remarkable dedication. I 
believe the President's '05 budget request for ICE will provide 
significant resources to further the mission of ICE on behalf 
of the American people. We're eager to work with you and the 
Members of Congress to provide the American people with the 
level of security they demand and deserve.
    I thank you and look forward to taking your questions.
    [The prepared statement of Mr. Dougherty follows:]
                Prepared Statement of Michael Dougherty
    Good morning, Mr. Chairman, Congresswoman Jackson Lee, and 
distinguished Members of the Subcommittee. It is a privilege to appear 
before your committee today to discuss the President's Budget Request 
for Fiscal Year (FY) 2005 for US Immigration and Customs Enforcement.
    In March of 2003, when the Department was created, a new federal 
investigative agency was also formed: U.S. Immigration and Customs 
Enforcement--or ICE, as it is better known. As the largest 
investigative arm of Homeland Security, ICE's primary mission is to 
detect vulnerabilities and prevent violations that threaten national 
security. In other words, ICE investigates homeland security crimes. In 
particular, border security, air security, and economic security.
    ICE pursues its homeland security mission by building upon the 
traditional missions, resources, authorities and expertise of the 
legacy agencies it inherited. The investigative and intelligence 
resources of the former Immigration and Naturalization Service, U.S. 
Customs Service, Federal Protective Service and Federal Air Marshal 
Service have been fused together to allow us to go after the criminal 
enterprises in new ways. ICE is bringing new approaches to traditional 
areas of law enforcement and creating enforcement programs in response 
to its homeland security mission.
    Today, I will discuss how the President's FY 2005 Budget will 
continue to strengthen ICE's immigration enforcement mandate.
             ice fy 2005 budget for immigration enforcement
    ICE is committed to enhancing immigration security and enforcement, 
as the FY 2005 budget illustrates. The FY 2005 budget seeks $4.0 
billion for ICE, $302 million more than FY 2004, representing an 
increase of 8 percent.
    The requested increases include $186 million for ICE to fund 
improvements in immigration enforcement both domestically and overseas, 
including a more than doubling of current worksite enforcement efforts; 
increased resources to combat benefits fraud and investigate violations 
of the SEVIS and US-VISIT systems; and approximately $100 million 
increase for the detention and removal of illegal aliens. Detention and 
removal of illegal aliens present in the United States is critical to 
the enforcement of our immigration laws and the requested funding will 
expand ongoing fugitive apprehension efforts, the removal from the 
United States of jailed illegal aliens, and additional detention and 
removal capacity. Critical to the removal process is ICE's ability to 
effectively litigate cases before the Immigration Court. The budget 
request includes a $6 million enhancement to provide additional 
attorneys to keep pace with an increasing caseload. Our budget also 
seeks $14 million to support our international enforcement efforts 
related to immigration, including enabling ICE to provide visa security 
by working cooperatively with U.S. consular offices to review select 
visa applications.
                       investigations initiatives
    As a result of the President's proposed new temporary worker 
program to match willing foreign workers with willing U.S. employers, 
enforcement actions against companies that break the law and hire 
illegal workers will increase. The FY 2005 President's Budget includes 
an additional $23 million for enhanced worksite enforcement. This more 
than doubles existing funds devoted to worksite enforcement and allows 
ICE to assign more Special Agents devoted to this effort. With these 
resources, ICE will facilitate the implementation of the President's 
temporary worker program initiative by enhancing our traditional 
worksite enforcement program that offers credible deterrence to the 
hiring of unauthorized workers. Without such a deterrent, employers 
will have no incentive to maintain a legal workforce.
    Since 9/11, ICE has screened 259,037 employee records pertaining to 
3,640 critical infrastructure employers and identified over 5,000 
unauthorized workers who obtained employment by presenting counterfeit 
documents to their employer and providing false information to security 
officials. ICE enforcement operations targeting unauthorized workers in 
critical infrastructure facilities such as airports, military 
installations, defense contractors, and federal buildings have resulted 
in the arrest of over 1,000 workers and the criminal indictment of 774 
individuals. ICE's challenge is to enhance public safety by ensuring 
that individuals intending to do us harm do not gain insider access to 
critical facilities by taking advantage of vulnerabilities in hiring 
and screening processes that enable undocumented workers to go 
undetected by employers and security officials.
Benefits Fraud
    Immigration fraud poses a severe threat to national security and 
public safety because it enables terrorists, criminals, and illegal 
aliens to gain entry and remain in the United States. ICE's goal, in 
conjunction with U. S. Citizenship and Immigration Services (USCIS), is 
to detect, combat, and deter immigration fraud through aggressive, 
focused, and comprehensive investigations and prosecutions. ICE focuses 
on identifying and targeting the most significant, prolific and 
egregious violators for prosecutions, such as organizations and 
facilitators responsible for multiple benefit applications and 
individuals that pose a risk to national security or public safety. In 
September 2003, ICE created Benefit Fraud Units in Vermont, Texas and 
California as a means of identifying and targeting fraud, at the 
earliest possible point--when an application is received at a USCIS 
Service Center.
    The $25 million FY 2005 budget request will provide stable funding 
to ICE's benefits fraud and will enable ICE to continue and increase, 
high-impact fraud investigations and prosecutions, providing increased 
national security and insuring integrity in the immigration application 
process.
Special Agents Dedicated to Compliance Enforcement
    As part of its overall immigration enforcement strategy, ICE will 
continue to analyze data generated through the Student and Exchange 
Visitor Information System (SEVIS) and US-VISIT program to detect 
individuals who are in violation of the Nation's immigration laws and 
pose a threat to homeland security. ICE's Compliance Enforcement Unit 
has investigated and resolved over 21,000 National Security Entry Exit 
Registration System (NSEERS) and SEVIS violator leads. This represents 
less than half of all violator leads generated under the programs. With 
an estimated FY 2004 enrollment of nearly 700,000 foreign students and 
exchange visitors and 7,000 schools and programs, estimates suggests 
that more than 30,000 leads may be generated by the SEVIS program this 
year.
    The FY 2005 budget's request of $16 million will increase the 
funding for ICE's SEVIS and US-VISIT compliance efforts by over 150 
percent through the addition of 130 Special Agents to investigate and 
resolve violator leads. The funding will also allow continued and 
expanded data mining technology, as well as targeting software, to 
increase the efficiency of identification and tracking efforts towards 
non-immigrant aliens who may pose the most significant national 
security threats. The increased funding will allow ICE to double the 
overall violator resolution rate from the forecasted FY 2004 rate of 
30% to 60% in FY 2005.
International Affairs
    ICE's Office of International Affairs is the largest consolidated 
Attache unit within DHS with over 50 foreign offices in over 42 
countries. ICE Attaches and subordinate foreign offices work closely 
with Embassy staff and counterpart host government departments to 
execute international initiatives and extend the U.S. borders. Pursuant 
to section 428 of the Homeland Security Act and the Memorandum of 
Understanding between the Departments of Homeland Security and State, 
ICE's FY 2005 budget request of $14 million includes an increase of $10 
million to support a new Visa Security Unit (VSU). The VSU and DHS 
staff stationed at overseas posts, including Saudi Arabia, will work 
cooperatively with U.S. consular officials to promote homeland security 
in the visa process.
                   detention and removal initiatives
    Detention and Removal of illegal aliens present in the United 
States is critical to the enforcement of our immigration laws. ICE has 
a daily detention population of approximately 21,000 and in FY 2003, 
ICE removed more than 140,000 individuals including 76,000 criminal 
aliens. An increase of $108 million in FY 2005 will expand ongoing 
fugitive apprehension efforts, the removal from the United States of 
jailed offenders, effective methods to control non-detained cases, and 
support additional detention and removal capacity.
Fugitive Operations
    $50 million dollars are requested to continue the implementation of 
the ICE National Fugitive Operations Program, established in 2002, 
which seeks to eliminate the existing backlog and growth of the 
fugitive alien population. Currently, ICE has 18 Fugitive Operations 
Teams deployed throughout the country and since March 1st, 
approximately 6,000 fugitives have been apprehended and nearly 700 
additional criminal aliens have been apprehended in connection with 
fugitive operations teams. The FY 2005 budget request would fund an 
additional 30 teams to locate these potential threats to public safety.
Institutional Removal Program
    The Institutional Removal Program (IRP) is designed to ensure that 
aliens convicted of crimes in the U.S. are identified, processed, and, 
where possible, ordered removed prior to their release from a 
correctional institution. ICE requests $30 million to transfer the IRP 
duties currently being performed by Special Agents to Immigration 
Enforcement Agents. The shift of responsibilities will allow Special 
Agents to be assigned to more complex investigations in the areas of 
National Security, Smuggling, and Financial Investigations, and make 
management of the IRP the sole responsibility of a single operational 
program office, Detention and Removal Operations, as recommended by 
both the General Accounting Office and the Department of Justice 
Inspector General.
Alternatives to Detention
    $11 million dollars have been requested in the FY 2005 budget to 
more than double the capacity of the Intensive Supervision Appearance 
Program (ISAP). The premise for this initiative is that the effective 
control of lower risk persons released into the community during 
immigration proceedings or while awaiting removal will stem the growth 
of the fugitive population. In FY 2004, ICE plans to have eight 
intensive supervision sites operational that will be able to monitor 
200 individuals per site using methods such as using electronic 
monitoring devices, half-way houses and voice recognition technology. 
Increases in FY 2005 would double the capacity for each site and 
provide for an additional site. These alternatives to traditional 
detention practices are more cost effective; allow ICE to detain a 
greater number of aliens who may pose a threat to public safety; and 
early results from pilot projects reflect an increased appearance rate 
for immigration court proceedings for those in an intensive supervision 
program versus those released on their own recognizance.
Detention Bed Space
    Adequate detention space has long been considered a necessary tool 
to ensure effective removal operations. An increase in bed space to 
accommodate a higher volume of apprehended criminal aliens results in a 
significantly higher appearance rate at immigration proceedings. When 
final orders of removal are issued, this will result in a greater 
number of removals and fewer absconders. With the $5 million request 
for FY 2005, ICE will enhance its ability to remove illegal aliens from 
the United States.
Caribbean Regional Interdiction
    Pursuant to Executive Order, the Departments of Defense, Homeland 
Security and State share responsibility for responding to the migration 
of undocumented aliens interdicted or intercepted in the Caribbean 
Region. Additional funding of $6.2 million is requested to support the 
cost of housing up to 400 migrants as they await determination of any 
immigration claims. This initiative will support operations at 
Guantanamo Bay and maintain a high level of preparedness for possible 
Caribbean migration emergencies or other mass migration events.
                   legal program backlog elimination
    The ICE Office of the Principal Legal Advisor's Office (OPLA) 
completed approximately 275,000 cases in Immigration Court in FY 2003, 
assisting in these proceedings in the determination of who qualified 
for immigration benefits and who was subject to removal. The number of 
new cases received in immigration court has continued to increase from 
approximately 150,000 cases in FY 93 to 290,652 cases in FY 2002. In 
addition, ICE OPLA is currently handling approximately 500 national 
security related cases as well as 250 cases involving possible human 
rights abusers in various stages of immigration court proceedings. At 
the same time, the case preparation time has continued to fall and we 
project that time available for preparation could also fall. To keep 
pace with the increasing number of complex immigration court cases as 
well as an aggressive plan by the Department of Justice to address the 
pending cases, additional attorneys and support staff are required. $6 
million dollars are sought in the FY 2005 budget to increase the 
program staffing and help address the increased workload. Additional 
resources will permit ICE Counsel to identify and argue for the removal 
of individuals who pose national security or public safety risks, while 
at the same time ensuring that bona fide claims are granted.
                               conclusion
    Deterring illegal migration and combating immigration-related crime 
have never been more critical to our national security. The men and 
women of ICE are tackling this challenging mission with diligence, 
determined to ensure that no duty is neglected. The President's FY 2005 
Budget Request for ICE is an important step in restoring the rule of 
law the system of legal immigration. We are eager to work with you and 
the other Members of Congress to provide the American people with the 
level of security they demand and deserve. Thank you. I look forward to 
your questions.

    Mr. Hostettler. Daniel Smith was named the State 
Department's Principal Deputy Assistant Secretary for Consular 
Affairs in November of 2002. He is a career member of the 
Senior Foreign Service and previously served as Deputy 
Executive Secretary to Secretary of State Colin Powell. Prior 
to this assignment, he served as executive assistant to the 
Under Secretary for Global Affairs.
    Mr. Smith received his B.A. summa cum laude from the 
University of Colorado in Boulder and his Ph.D. and M.A. in 
history from Stanford university. Mr. Smith, thank you for 
being here. You're now recognized.

   STATEMENT OF DANIEL B. SMITH, PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY OF STATE FOR CONSULAR AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Smith. Mr. Chairman, Members of the Committee, thank 
you for inviting me to testify today before you on the 
Department of State's Border Security Program. I am pleased to 
provide an overview of how the Bureau of Consular Affairs 
administers that program. Funded largely through the 
Department's limited fee-retention authorities for consular 
services, the Border Security Program exists to strengthen the 
security of the United States by pushing out our borders.
    In fiscal year 2005, the priorities of the Consular Affairs 
are: Protecting our homeland by strengthening the visa process; 
protecting Americans by providing consular information, 
services, and assistance; providing Americans with the most 
secure travel document possible, the U.S. passport; and 
providing consular personnel worldwide with the tools and 
training they need.
    The Department of State's visa work abroad constitutes a 
vital element in our national border security. To guard against 
terrorists and other threats, consular officers must have the 
best information available within the U.S. Government. The 
majority of the data in our consular lookout system now is 
derived from the law enforcement and intelligence communities. 
We reciprocate that data sharing, and Department of Homeland 
Security officers at ports of entry now have access to the 75 
million visa records in our Consular Consolidated Database.
    We have joined in the establishment of the Terrorist 
Screening Center that will integrate terrorist watch lists and 
serve as the centralized point of contact for U.S. terrorist 
information. Together with the Terrorist Threat Integration 
Center, we will rely on the TSC to ensure that consular 
officers have access to the information they need to deny visas 
to those who would do us harm.
    We are also engaged with DHS in implementing a biometrics 
program that will track the entry and exit of foreign visitors 
by using electronically scanned fingerprints and photographs. 
The system is designed to create a coordinated and interlocking 
network of border security. With our aggressive roll-out 
schedule, the program will be in effect at all non-immigrant 
visa adjudicating posts by October 26 of this year.
    Consular Affairs also works to promote the safety and 
security of Americans abroad. We strive to extend to all 
Americans our best efforts to ensure their safety wherever they 
might be. We provide current information on travel conditions 
and security through our website at travel.state.gov and 
through the Overseas Citizens Services Call Center.
    CA has also been heavily involved in assisting U.S. citizen 
parents whose children were abducted or wrongfully retained 
abroad, as well as working to prevent future abductions and 
wrongful retentions. We have worked toward implementing a 
transparent international adoption process that safeguards the 
interests of children, birth parents, and prospective adoptive 
parents. These initiatives, among others, are overwhelmingly 
funded as part of the Border Security Program.
    We are also engaged in an ongoing process of continuous 
improvement of the U.S. passport, the world's most valuable 
identity and travel document. Embedding biometrics into U.S. 
passports to establish a clear link between the person issued 
the passport and the user is an important step forward in the 
international effort to strengthen border security. We 
recognize that convincing other nations to improve their 
passports requires U.S. leadership. To that end, the Department 
of State has a program that should produce the first biometric 
U.S. passports by October of this year.
    We also continue to strengthen homeland security by 
ensuring that the consular function has appropriate facilities 
and is staffed at sufficient levels by consular officers who 
are trained to screen out terrorists. As part of the Border 
Security Program, the Department is requesting additional 
positions to provide us the ground troops necessary to staff 
our first line of defense.
    We continue to strengthen management controls via the 
issuance of standard operating procedures as well as our 
program of Consular Management Assistance Teams. CA uses its 
new Vulnerability Assessment Unit to analyze consular data, 
systems, and processes to detect anomalies in visa and passport 
processing to reduce vulnerabilities.
    The mission of the Bureau of Consular Affairs is to help 
Americans abroad, to facilitate legitimate international 
travel, and to stop the travel to the United States of 
foreigners who present a threat to our country. By focusing on 
information sharing, providing sufficient resources, and 
enhancing the integrity of our processes and documents, the 
Department of State is ensuring that we have a Border Security 
Program in which the American people can place their trust and 
confidence.
    Thank you, Mr. Chairman. I welcome your questions.
    [The prepared statement of Mr. Smith follows:]
                 Prepared Statement of Daniel B. Smith
    Mr. Chairman, Ranking Member, Members of the Committee:
    Thank you for inviting me to testify before you today on the 
Department of State's Border Security Program. I am pleased to explain 
both the strategy employed by the Department of State in its Border 
Security Program and then how that strategy is implemented in the day-
to-day operations of the Bureau of Consular Affairs.
    The Border Security Program at the Department of State is a complex 
mission involving the activities of a number of bureaus and offices. 
Funded largely through the Department's limited fee retention 
authorities for consular services, the Border Security Program exists 
to strengthen the security of the United States by ``pushing outward'' 
our borders. The Department has followed a consistent and multi year 
strategy that focuses on:

        <bullet>  Providing accurate and timely information to all 
        personnel responsible for processing passports, adjudicating 
        visas and providing other consular services.

        <bullet>  Ensuring that all personnel responsible for Border 
        Security services have the business quality hardware and 
        software they need to fulfill their responsibilities.

        <bullet>  Connecting all overseas and domestic operations 
        responsible for Border Security together through high-speed 
        networks, which make possible such powerful tools as the CLASS 
        namecheck system and the Consolidated Consular Database (CCD).

        <bullet>  Investing in our people to ensure that they have the 
        training needed to provide quality Border Security Services. 
        Covering the operating costs of many Department of State 
        personnel who provide Border Security services.

        <bullet>  Ensuring the integrity of our people, processes and 
        products.

    The Department's Border Security Program is much larger than just 
the Bureau of Consular Affairs (CA). CA's main partners in implementing 
this program include the Bureaus of Diplomatic Security, Information 
Management, Human Resources, Intelligence and Research, and Resource 
Management as well as the geographic bureaus. The Administration is 
seeking some $836 million in the FY-05 budget to help fund these 
activities.
    In terms of Consular Affairs, our mission is to help Americans 
abroad, facilitate legitimate international travel, and prevent the 
travel to the United States of foreigners who are likely to engage in 
activities harmful to our country. We have no higher responsibility 
than the protection of our citizens and safeguarding our country's 
borders through the Border Security Program, and we are determined to 
carry out this responsibility in the best and most effective manner 
possible.
    In FY 2005, the priorities of CA are:

        <bullet>  protecting our homeland by strengthening the visa 
        process as a tool to identify potential terrorists and others 
        who should not receive visas and preventing those people from 
        entering the United States;

        <bullet>  protecting Americans by ensuring that they have the 
        consular information, services, and assistance they need to 
        reside, conduct business, or travel abroad;

        <bullet>  providing Americans with timely and effective 
        passport services and a secure travel document; and

        <bullet>  providing consular personnel worldwide with the tools 
        and training they need to carry out these responsibilities.
                             visa services
    The terrorist attacks of 9/11 highlighted as never before the 
crucial role the Bureau of Consular Affairs plays in U.S. border 
security through the visa process. The Consular Officers of the Foreign 
Service at the 212 visa adjudicating embassies and consulates abroad 
are truly our first line of defense. In FY-05, we will continue our 
efforts to ensure that the visa process is as secure as possible and 
that it supports our overall homeland security efforts so that--with 
the immigration check at the port of entry and the enhanced 
capabilities of the Department of Homeland Security--it will form a 
coordinated and interlocking network of border security in which the 
American people can have confidence.
    One of the most important tools we can provide our consular 
officers abroad is information that will help them identify and deny a 
visa to a terrorist, criminal or other ineligible alien. Our goal is to 
push the borders of the United States out as far from our shores as 
possible to stop a problematic or questionable traveler overseas. To 
this end, our coordinated efforts with law enforcement and intelligence 
agencies have more than doubled the names of known or suspected 
terrorists and other ineligible aliens in our databases. We will 
continue to seek opportunities for data sharing with federal agencies 
that have a role in the visa process or interact with visa recipients. 
In fact, the majority of the data in our consular lookout system now 
derives from other agencies, especially those in the law enforcement 
and intelligence communities.
    I am particularly proud that an activity funded through the 
Department's Border Security Program--the TIPOFF program--is a key 
building block for the Terrorist Threat Integration Center (TTIC), 
which will maintain the principal database on known and suspected 
terrorists in a highly classified form. The TIPOFF database with its 
approximately 120,000 records was transferred to TTIC on November 17, 
2003. TTIC, together with the separate Terrorist Screening Center, will 
eliminate the stovepiping of terrorist data and provide a more 
systematic approach to posting lookouts on potential and known 
terrorists.
    We are also currently engaged with DHS in implementing a biometrics 
program to track the entry and exit of foreign visitors by using 
electronically scanned fingerprints and photographs. This new system, 
which begins with consular officers collecting electronically scanned 
fingerprints at consular sections abroad and continues with DHS's US-
VISIT program at ports of entry and departure, will create a 
coordinated and interlocking network of border security. We began our 
new Biometric Visa Program in September 2003, and it is now operational 
at more than 70 visa-adjudicating posts. With our aggressive rollout 
schedule, the program will be in effect at all visa-adjudicating posts 
by the congressionally mandated deadline of October 26, 2004. The 
inclusion of additional biometrics, in addition to the photograph that 
has always been collected, in international travel documents is an 
important step in continuing to improve our ability to verify the 
identity of prospective travelers to the United States. In the process 
of screening visas and passports domestically and abroad, additional 
biometrics can serve as a useful adjunct to existing screening 
processes that identify individuals who might be terrorists, criminals, 
or other aliens who might represent a security risk to the United 
States.
    Other visa-related initiatives that will be funded through the on-
going Border Security Program include:

        <bullet>  Re-engineer the interagency visa clearance process to 
        allow stronger accountability and quicker processing.

        <bullet>  Improve the capacity of CLASS to handle additional 
        information such as Interpol and deportation lookout 
        information, and lost and stolen passport data.

        <bullet>  Continue to work with countries that are eligible for 
        the Visa Waiver Program (VWP) and with ICAO to meet the 
        requirement that those countries incorporate biometric 
        identifiers in their passports by October 2004, as 
        congressionally mandated.

        <bullet>  Review facial recognition results from initial test 
        deployment at visa posts to determine how it may benefit 
        screening in the operational environment.

        <bullet>  Introduce new, tamper-resistant and machine-readable 
        immigrant visa foil. This new machine-readable immigrant visa 
        process will include digitized photo and fingerprints.

        <bullet>  Eliminate crew-list visas and require all seafarers 
        to obtain individual visas.
                           american citizens:
    The Bureau of Consular Affairs works to promote the safety and 
security of the 3.2 million Americans who reside abroad and those U.S. 
residents who make about 60 million trips outside the U.S. each year. 
This complements our overall homeland security efforts on the visa side 
of the house, extending to all Americans our strongest and best efforts 
to ensure their safety wherever they might be. We provide current 
information on travel conditions and security through our Consular 
Affairs home page at http://travel.state.gov, which received nearly 
198.5 million inquiries in FY 2003, and the Overseas Citizens Services 
(OCS) Call Center, which received approximately 70,000 calls.
    International tensions and security concerns, especially incidents 
of international parental child abduction, have prompted more parents 
to take preventive action to monitor or limit their children's travel 
abroad. This has resulted in a growing number of requests for passport 
lookouts, and increased inquiries concerning preventive measures to 
avoid international parental child abductions, in particular. The 
Office of Children's Issues (CA/OCS/CI) has also worked with the OCS 
Call Center to respond to routine inquiries concerning preventive 
measures, while maintaining responsibility for passport lookouts. We 
hosted a meeting with left-behind parents in 2003 and plan similar 
meetings through FY 2005.
    Our priorities for American citizens in FY 2005 include 
implementation of the Hague Inter-country Adoption Convention, which 
will require CA, as the Central Authority for the Convention, to take 
on responsibilities never before performed on the federal level; 
enhanced services for victims of crime abroad and tracking of 
statistics on such crimes; enhanced emergency ``fly-away'' teams; 
efficient administration of overseas civilian participation in the 2004 
general election; expanded use of CA's web site and the Overseas 
Citizens Services Call Center to provide the most current information 
on travel conditions and security; continuation of the re-engineering 
of the American Citizens Services software; and outreach around the 
United States to educate the public and stakeholder groups about our 
programs and the assistance that consular officers abroad can provide. 
Topics to be addressed will include: travel safety overseas, especially 
for students; crisis preparedness; international parental child 
abduction, including prevention measures; intercountry adoption; the 
passport application process; and consular notification and access in 
arrest cases. These initiatives are overwhelmingly funded as part of 
the Border Security program.
                           passport services:
    Just as we are committed to the most secure adjudication process 
and documentation to support the visa process, the same is true in 
terms of what we consider to be the world's most valuable document--the 
U.S. passport. In FY-03, Passport Services issued over seven million 
passports. We recently completed the system-wide introduction of 
photodigitization technology to support passport printing. That effort 
has been so successful that we have, in turn, moved the production of 
passports issued abroad to our U.S. domestic production facilities so 
that we can take advantage of the significant security improvements 
embodied in the photodigitization process. But, we also have many other 
initiatives underway. We will proceed with our efforts to enhance 
biometrics in U.S. passports and bring our passport into compliance 
with international standards established in May 2003. The inclusion of 
a ``smart'' chip in the passport, on which we will write the bearer's 
biographic information and photograph, will increase the security of 
the document. This initiative is consistent with U.S. legislation that 
requires our Visa Waiver Program participants to take such a step, but 
it is not required. We are nonetheless pursuing the initiative because 
it supports U.S. national security. This new passport will further 
strengthen our ability to reliably link the authorized bearer of a 
passport to its user.
    We are completely redesigning the U.S. passport and its security 
features. And, since the passport process is only as strong as the 
underlying adjudication process, we are strengthening our datasharing 
efforts with agencies in order to help confirm the identity of 
applicants. We will enhance our computer systems and provide for 
expected upgrades to accommodate the production of passports. To 
protect the over 60 million passport records stored on-line and provide 
redundant systems to support other agencies that require access to 
these vital records, new storage and server systems will be procured in 
FY 2004 and FY 2005. Again, these activities are funded as part of the 
Border Security Program.
               management and organizational excellence:
    We continue to strengthen homeland security by ensuring that the 
consular function has appropriate facilities and is staffed at 
sufficient levels by consular officers who are trained to screen out 
terrorists. As part of the Border Security Program, the Department is 
establishing 93 new consular positions--13 domestic and 80 overseas in 
FY-04 and is requesting 60 additional positions in FY-05--15 domestic 
and 45 overseas. In addition, the Department plans to establish 68 new 
positions overseas in FY-04 and is requesting 63 in FY-05 as part of 
the Consular Associate replacement program. These additional positions 
will give us the ground troops necessary to staff our first line of 
defense.
    We place a high priority on maintaining efficient and state-of-the-
art systems and leveraging technology to the extent feasible because of 
the global nature of consular operations and the necessity for 
interagency data-sharing. We will continue to replace IT equipment for 
consular sections abroad as well as Consular Affairs domestic 
operations on a 3 to 4 year cycle, provide updated remote and computer-
based training on consular systems to supplement hands-on training by 
visiting experts at least once every 12 to 18 months, and maintain 
Support Desks to provide key links between employees and the 
development and support elements in the Consular Systems Division.
    Good management requires effective internal controls. We continue 
to strengthen management controls via the issuance of standard 
operating procedures (SOPs), conducting Management Assessment and 
Internal Control Reviews at passport agencies, certifications that 
management controls are in place at consular offices, and sending 
Consular Management Assistance Teams (CMATs) to work collaboratively 
with posts toward our common goal of protecting homeland security and 
our borders. In FY 2005, the CMATs will maintain a robust schedule of 
visits to assess the integrity of management controls, effective 
resource utilization and space allocation, and the extent to which 
Department-mandated SOPs have been understood and implemented. CMATs 
serve as a resource in identifying and helping to resolve post needs, 
as well as providing guidance and counseling as appropriate. CA uses 
its new Vulnerability Assessment Unit, a joint initiative with the 
Bureau of Diplomatic Security, to analyze consular data, systems, and 
processes to detect anomalies in visa and passport processing, thus 
reducing CA's vulnerability to system manipulation.
    The Department's Border Security Program is a critical element in 
the Department of State's goal to protect American citizens and 
safeguard the nation's borders. By focusing on sharing information, 
providing sufficient infrastructure and human resources, increasing 
connectivity, and enhancing the integrity of our processes and 
documents, the Department of State is ensuring that we have a Border 
Security Program in which the American people can place their trust and 
confidence.
    Thank you and I welcome your questions.

    Mr. Hostettler. Seth Stodder is Counselor and Senior Policy 
Advisor to Commissioner Robert C. Bonner at U.S. Customs and 
Border Protection. In this role, he oversees all aspects of 
policy development at CBP and is a key aide to Commissioner 
Bonner in managing the Federal Border Agency.
    Mr. Stodder is a 1995 graduate of the University of 
Southern California Law School. He received his bachelor's 
degree from Haverford College, where he graduated with honors. 
Thank you, Mr. Stodder, for being here. You are recognized for 
your testimony.

  STATEMENT OF SETH M. M. STODDER, COUNSEL AND SENIOR POLICY 
ADVISOR, U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Stodder. Thank you, Mr. Chairman and other 
distinguished Members of the Subcommittee, for this opportunity 
to testify here today on the efforts of U.S. Customs and Border 
Protection.
    As you all know, CBP is a new agency within a new 
Department of Homeland Security and it's coming up on its first 
birthday. For the first time in our history, our nation has a 
single agency, CBP, responsible for managing and securing the 
borders of the United States and all ports of entry into the 
United States. Under the leadership of Commissioner Bonner, 
this new agency brings together all of the border inspectors 
from the legacy Customs Service, INS, and the U.S. Department 
of Agriculture, as well as the entire U.S. Border Patrol, and 
is focused squarely upon one of the chief missions of the 
Department of Homeland Security, preventing terrorists and 
terrorist weapons from entering the United States.
    Certainly, the legacy agencies were focused on anti-
terrorism. You all will recall that in 1999, it was a Customs 
inspector on the Northern border, Diana Dean, who intercepted 
and apprehended an al Qaeda terrorist, Ahmad Ressam, who was 
transporting a huge load of explosives aimed at destroying the 
Los Angeles Airport.
    And I'm sure you've all seen the recent news reports 
concerning the testimony of legacy INS Inspector Jose Melendez-
Perez to the 9/11 Commission. At Orlando Airport on August 4, 
2001, just over a month before the September 11 terrorist 
attacks, Inspector Melendez-Perez turned away another terrorist 
by the name of Mohammed al Qahtani, and al Qahtani was picked 
up ultimately by U.S. forces in Afghanistan and he may have 
been a conspirator in the 9/11 attacks.
    But the creation of CBP within DHS brings both the legacy 
customs inspectors like Diana Dean together with the legacy 
immigration inspectors like Jose Melendez-Perez, along with the 
agriculture inspectors and Border Patrol officers. It brings 
together the great wealth of talent and expertise from the 
legacy agencies and focuses them on a single homeland security 
mission, and this is already bearing fruit. One face of the 
border has arrived and it's making us more effective in 
carrying out our homeland security mission as well as in 
reinventing the border to make it more efficient for legitimate 
travel and commerce.
    We now have a single CBP port director at every port of 
entry into the United States. We have a consolidated National 
Targeting Center and consolidated CBP Passenger Analytical 
Units. We have consolidated CBP secondary inspection teams 
focused on anti-terrorism, bringing together the expertise and, 
importantly, the broad legal authorities of customs, 
immigration, and agriculture inspectors. We're rolling out CBP 
primary inspections. Change is coming and change is coming 
fast.
    The interceptions of the terrorists Ressam and al Qahtani 
were, quote, ``cold hits'' by trained, dedicated inspectors who 
sensed that something was wrong with these individuals, but 
this is the last line of defense for CBP.
    Since September 11, we have been focusing on pushing our 
border out to identify and meet potential threats well before 
they reach our shores. This concept underpins some of the CBP's 
signature programs, like CSI and the Customs-Trade Partnership 
Against Terrorism, but it also motivates our efforts with 
regard to the movement of people into our country.
    We collect Advance Passenger Information, or API, for all 
international air passengers, which we feed into our NTC and 
into our Passenger Analytical Units at the airports. Of course, 
the NTC is linked up to the Terrorist Screening Center and to 
the Terrorist Threat Integration Center, or TTIC, and we have 
up-to-the-minute information on potential terrorists on watch 
lists. But the NTC, through the Automated Targeting System, 
goes well beyond the watch lists in identifying potential 
terrorists, potential threats. Our sophisticated targeting 
system allows us to identify potential terrorists or criminals 
who might not be on any watch list but who might still present 
a risk to the American people.
    Enhancing this capability is a critical piece of the 
President's budget request for fiscal year 2005, as the budget 
requests $20 million for enhancements to our targeting 
capabilities and to the National Targeting Center.
    DHS is also pushing the border out in other ways, through 
ICE's Visa Security Program, through U.S. VISIT, and through 
new concepts such as the Immigration Security Initiative, or 
ISI, which CBP will be piloting in Warsaw later this year. This 
program, which builds upon the legacy INS Immigration Control 
Officer Program, will put CBP officers in foreign airports to 
work with the carriers and the host governments to identify and 
question potential terrorist risks before they get on planes 
bound for the United States, a CSI for people, if you will.
    We're also moving forward on securing our border between 
the ports of entry. Since 9/11, we have tripled the number of 
Border Patrol agents on the Northern border and we will be 
backing them up with more equipment to help them prevent 
terrorists or other criminals from illegally crossing our 
borders. The President's fiscal year 2005 budget will help CBP 
hugely on this score, for it provides $64 million in funding 
for border technology, including sensors and cameras. The 
budget also provides $10 million to test unmanned aerial 
vehicles, or UAVs, which we think will add another layer of 
detection capability.
    And these efforts are not limited to the Northern border. 
We are continuing to strengthen our capabilities on our border 
with Mexico, with our main focus this year on getting better 
control over our border in Arizona. And we're working very 
closely with our partners in Mexico to get this done.
    As you may know, Secretary Ridge, Under Secretary 
Hutchinson, and Commissioner Bonner and others traveled to 
Mexico City last week and secured an agreement from Mexico on 
greater cooperation in securing our mutual border. One of the 
key deliverables was an agreement to implement a program of 
interior repatriation of Mexican nationals illegally crossing 
into Arizona during the hot summer months back to their home 
states in Central and Southern Mexico. The details of this 
program are still being worked out, but we strongly believe 
that this historic agreement will result in fewer illegal 
crossers, fewer migrant deaths, and better control of our 
border.
    As I said, our priority mission at CBP is keeping 
terrorists and terrorist weapons out of the United States, but 
the efforts I have discussed are making us more effective in 
carrying out our broader mission of securing our border against 
criminals, illegal migrants, illegal drugs, and other things 
that violate U.S. laws and harm the American people, and we're 
doing this while carrying out what we call our twin goal of 
facilitating movement of legitimate people and commerce through 
programs such as NEXUS, SENTRI, and FAST.
    With that, this concludes my prepared remarks. Thank you 
for inviting me to testify and I look forward to taking any 
questions.
    Mr. Hostettler. Thank you, Mr. Stodder.
    [The prepared statement of Mr. Stodder follows:]
                Prepared Statement of Seth M. M. Stodder
    THANK YOU, CHAIRMAN HOSTETTLER, RANKING MEMBER JACKSON LEE, and 
distinguished Members of the Subcommittee, for this opportunity to 
testify today about U.S. Customs and Border Protection efforts to 
protect the United States from terrorists and criminal aliens and to 
ensure the integrity of the immigration laws. My name is Seth Stodder, 
and I am Counsel, and Senior Policy Advisor to the Commissioner of the 
U.S. Customs and Border Protection.
    As you know, on March 1, 2003, immigration inspectors from the 
Immigration and Naturalization Service (INS), agricultural inspectors 
from the Animal and Plant Health Inspection Service (APHIS), customs 
inspectors from the U.S. Customs Service, and the entire Border Patrol 
merged to form the U.S. Customs and Border Protection--CBP--within the 
Border and Transportation Security (BTS) Directorate of the Department 
of Homeland Security. Now, for the first time in our country's history, 
all agencies of the United States government with significant border 
responsibilities have been brought under one roof. With our combined 
skills and resources, we can be far more effective than we were when we 
were separate agencies.
    The priority mission of CBP is to prevent terrorists and terrorist 
weapons from entering the United States. This extraordinarily important 
priority mission means improving security at our physical borders and 
ports of entry, but it also means extending our zone of security beyond 
our physical borders--so that American borders are the last line of 
defense, not the first line of defense.
                   responding to the terrorist threat
    As the single unified border agency of the United States, CBP's 
mission is vitally important to the protection of America and the 
American people. Numerous initiatives were developed to meet our twin 
goals of improving security and facilitating the flow of legitimate 
trade and travel. Our strategy is built upon a combination of factors: 
expanding advance information on people entering the United States; 
fostering initiatives that ``push the border outwards'' and extend our 
security perimeter; securing the movement of people through 
partnerships with other countries, including our neighbors to the north 
and south; and increasing staff positions and detection technology for 
greater border security.
                    national targeting center (ntc)
    The National Targeting Center (NTC) has significantly increased our 
overall capacity to identify potential terrorist threats and other 
violators by providing centralized national targeting of passengers for 
the first time. NTC inspectors and analysts use a sophisticated 
computer system to monitor, analyze, and sort information gathered by 
CBP and numerous intelligence and law enforcement agencies against 
border crossing information. NTC personnel identify potential 
terrorists, terrorist targets, criminals, and other violators for 
increased scrutiny at the border ports of entry. When NTC personnel 
identify potential threats, they coordinate with our officers in the 
field and monitor the security actions that are taken. The NTC staff 
works closely with the Federal Bureau of Investigation (FBI)-led 
Terrorist Screening Center (TSC) to coordinate terrorist threat 
information, and the FBI has recently agreed to assign liaison staff to 
the NTC.
  airlines required to provide cbp with advance passenger information
    One of the greatest challenges we face in the war on terrorism is 
determining whom to look at most closely. Because of its mission, U.S. 
Customs and Border Protection has the law enforcement authority to 
question closely and search every person entering the United States. 
The Advance Passenger Information System (APIS) helps us with our 
focus. APIS requires airline personnel to transmit data on every 
passenger on every aircraft electronically to CBP on take-off from 
foreign airports.
    In conjunction with the new requirement, systems were upgraded and 
expanded to ensure that APIS could keep up with the expanded workflow. 
APIS is now a real-time system that runs advance passenger information 
against law enforcement and terrorist databases on a passenger-by-
passenger basis. By the time a plane lands, CBP is able to evaluate who 
on the aircraft may pose a threat to the United States and take 
appropriate action, including sharing that information with the TSC.
    Local port of entry Passenger Analysis Units, made up of officers 
with both immigration and customs backgrounds, analyze the APIS 
manifests to determine passengers of interest while flights are still 
traveling to our airports. In addition, APIS manifests for arriving air 
and sea passengers are run against FBI and other agency databases for 
wants, warrants, and criminal history information. The same information 
is readily available for land border passengers referred for secondary 
processing.
                      pushing our border outwards
    We realize that we must push our zone of security outward. This is 
the ``extended border,'' defense-in-depth concept, part of what 
Secretary Ridge has aptly called a ``Smart Border'' strategy. Pre-
flight inspections and consular pre-screening for visa issuance are two 
critical areas that defend our borders prior to persons actually 
arriving in the United States.
                        cooperation with canada
    The Smart Border Declaration with Canada is a 30-point plan for 
increasing security and facilitating trade. It focuses on four primary 
areas: the secure flow of people; the secure flow of goods; investments 
in common technology and infrastructure to minimize threats and 
expedite trade; and coordination and information sharing to defend our 
mutual border. This plan provides for the harmonization of processes 
and an increase of information sharing. To improve our effectiveness, 
CBP has expanded the use of liaison and increased intelligence sharing 
with other Federal, state, and local law enforcement agencies, our 
counterparts within the Canadian government, and the intelligence 
community.
    Since September 11, 2002, the Border Patrol has expanded an already 
proven initiative called the Integrated Border Enforcement Team (IBET), 
which pools law enforcement resources and integrates operations and 
intelligence activities from various Federal, state, and local law 
enforcement agencies and the Canadian government. The IBET concept has 
been expanded from two locations to fourteen locations that now cover 
the entire northern border.
                                 nexus
    With Canada, we have implemented a program that enables us to focus 
our resources and efforts more on high-risk travelers, while making 
sure those travelers who pose no risk for terrorism or smuggling, and 
who are otherwise legally entitled to enter, are not delayed at our 
mutual border. Under NEXUS, frequent travelers whose background 
information has been prescreened for criminal or terrorist links are 
issued a proximity card, or SMART card, which allows them to moved 
expeditiously through the port of entry. NEXUS has expanded to eight 
crossings on the northern border.
                          watch list exchange
    Another initiative with includes a revised and expanded information 
sharing agreement with Citizenship and Immigration Canada was signed in 
February 2003, and is being implemented by CBP. Also, we have agreed to 
exchange terrorist information and run advance passenger information 
for arriving air passengers against watch lists, so that each country 
knows of potential threats and can take appropriate steps in a timely 
manner.
                        cooperation with mexico
    Mexico also pledged support to help increase security while 
facilitating trade across the southwest border. We have continued 
important bilateral discussions with Mexico to implement initiatives 
that will protect our southern border against the terrorist threat, 
while also improving the travel flow. Like NEXUS on the northern 
border, SENTRI is a program that allows pre-screened, low-risk 
travelers to be processed in an expedited manner through dedicated 
lanes at our land border with minimal or no delay. This has the obvious 
benefit of enabling CBP personnel to focus their attention on those 
crossing our borders that are relatively unknown, and therefore might 
pose a potential threat. SENTRI is currently deployed at 3 southwest 
border crossings.
    We continue to implement our agreement with Mexico to share advance 
passenger information. This reciprocal exchange of data with Mexico 
will have the same benefit that the exchange of such data with Canada 
has, allowing law enforcement officials in both countries to track the 
movement of individuals with known or suspected ties to terrorist 
groups or other criminal organizations. We will also continue our 
negotiations with Mexico to establish a significant and credible 
Mexican Federal Law enforcement presence along the southwest border.
   investing in infrastructure and human resources to counter threats
    New initiatives and a refocused mission are important elements in 
combating the new terrorist threat, but new goals could not have been 
met without increasing the number of personnel working at our nation's 
borders. This was especially critical for our Northern Border ports of 
entry where staffing was insufficient to do the security job without 
choking off the flow of traffic.
    Before 9/11, we had approximately 1,600 customs and immigration 
inspectors on our shared 4,000-mile border with Canada. Most of the 
lower volume border crossings were not open 24 hours a day. There was 
little security when they were closed. After 9/11, all border crossings 
were staffed with at least two armed officers at all times. This human 
resource intensive effort was only a temporary measure--until these 
crossings were ``hardened'' and we were able to electronically monitor 
our low volume northern ports of entry to prevent unauthorized 
crossings. We accomplish this by installing gates, signs, lights, and 
remote camera surveillance systems.
    CBP has received significant staffing increases for the northern 
border. Today we have over 2,900 CBP inspectors along the northern 
border. CBP currently deploys slightly over 1,000 Border Patrol Agents 
to our Northern Border--on 9/11, there were only 385. We have also 
bolstered our staffing on the southern border. We know that terrorists 
have and will use any avenue they can to enter our country. Prior to 9/
11, we had 4,371 inspectional staff at the southern ports of entry. 
Today we have almost 4,900.
                         one face at the border
    Establishing the Department of Homeland Security is the most 
important organizational step here at home that President Bush and our 
nation have taken to address the ongoing threat of international 
terrorism, a threat that is likely to be with us for years to come.
    On March 1, 2003, approximately 42,000 employees were transferred 
from the U.S. Customs Service, the Immigration & Naturalization 
Service, and APHIS to the new U.S. Customs and Border Protection. For 
the first time in our country's history, all agencies of the United 
States Government with significant border responsibilities are unified 
into a single federal agency responsible for managing, controlling and 
securing our Nation's borders. We are now creating ``One Face at the 
Border.''
    Although legacy customs and immigration inspectors have assumed 
interchangeable roles at the land border ports of entry for years, 
unified CBP primary inspections also are now done at our country's 
airports. Significant cross training is being provided to our frontline 
inspectors to ensure effective implementation, and counter-terrorism 
training is creating a better understanding of terrorist issues and 
better referrals to the secondary area.
    We have also developed and are implementing combined anti-terrorism 
secondary units, which leverage the expertise and authorities of legacy 
customs, immigration, and agriculture inspectors to conduct a joint 
secondary inspection of passengers deemed high-risk for terrorism. CBP 
is also coordinating and consolidating our passenger analytical 
targeting units to bring together specific customs, immigration, and 
agriculture experience and authority to more effectively identify and 
interdict individuals who pose a possible terrorist risk.
    As of October, 2003, we began hiring and training a new group of 
``CBP Officers,'' who will be equipped to handle all CBP primary and 
many of the secondary inspection functions, in both the passenger and 
cargo environments. We are also deploying CBP Agriculture Specialists 
to perform more specialized agricultural inspection functions in both 
these environments.
    Training is a very important component to the roll out of the CBP 
Officer. We have created a new 14 week, 71-day basic course that 
provides the training necessary to conduct primary processing and have 
a familiarity with secondary processing of passengers, merchandise, and 
conveyances, in all modes of transport--air, sea, and land. The new CBP 
Officer course was built from the 53-day basic Customs inspector course 
and the 57-day basic Immigration inspector course, with redundancies 
removed, and with additions to address anti-terrorism and CBP's role in 
agriculture inspection. The training also supports the traditional 
missions of the legacy agencies integrated in CBP. Our first CBP 
Officers were hired on September 22, 2003, and they immediately started 
training at the Federal Law Enforcement Training Center (FLETC).
    Training CBP officers to recognize fraudulent documents is another 
serious commitment. All CBP officers will receive our most current 
training on identifying fraudulent and altered documents. CBP secondary 
officers will receive more advanced training, and will continue to 
receive support from the world-class excellence of the U.S. Immigration 
and Customs Enforcement's Forensic Document Laboratory (FDL).
                enhanced security between ports of entry
    We know that securing the areas between the ports of entry is just 
as important as adding security at the ports of entry. CBP's Border 
Patrol is responsible for patrolling those areas and, uses technology 
and Agents detect attempts to enter the United States illegally between 
the ports of entry. The Border Patrol's mission includes an aggressive 
strategy for protecting against terrorist penetration, at both our 
northern and southern borders.
    On 9/11, there were only 368 authorized positions for Border Patrol 
agents for the entire northern border. We are currently at over 1,000. 
This staffing increase will better secure our border against terrorist 
penetration. But we are doing more than just adding staffing. We are 
adding sensors and other technology that assist in detecting illegal 
crossings along both our northern and southern borders. The network of 
sensors consists of seismic, magnetic and thermal devices used to 
detect and track intrusions.
    The CBP Border Patrol is also evaluating the use of Unmanned Aerial 
Vehicles (UAVs). UAVs are remotely piloted or remotely programmed 
aircraft that can carry cameras, sensors, communications or other 
equipment. The U.S. Military has employed UAVs, in various states as 
far back as the Vietnam War. The U.S. southern border with Mexico is 
some 2,000 miles long while our border with Canada is some 4,000 miles 
long. Each border contains vast and sparsely populated expanses. UAVs 
can potentially give Border Patrol personnel the same ``eyes-on'' 
capability that the military gets from UAVs in dangerous or hazardous 
environments.
                      responding to the air threat
    When DHS received specific, credible intelligence regarding a 
possible threat of terrorist exploitation of the Transit Without Visa 
Program (TWOV) to conduct an attack on international commercial 
aviation, we moved quickly to address the threat. The concern was that 
terrorists might have been able to exploit security loopholes in the 
TWOV program. Under the TWOV program, citizens of countries who 
normally required a visa to enter the United States, were allowed to 
fly into and transit the United States without undergoing the visa 
issuance process and the security checks that the process entails. 
Accordingly, on CBP's recommendation, the Administration moved quickly 
to suspend the TWOV program in response to the threat. This issue will 
continue to be reviewed.
                        cbp collects biometrics
    The National Security Entry Exit Registration System (NSEERS) was 
implemented on September 11, 2002. The NSEERS program requires certain 
nonimmigrant aliens from designated countries to be fingerprinted, 
interviewed and photographed at ports of entry when they apply for 
admission to the United States. NSEERS enables the U.S. Government to 
better track certain individuals of interest entering and leaving the 
United States.
    CBP's collection of this biometric information has been an 
enforcement benefit for the nation. Under the NSEERS program, we have 
apprehended or denied admission to more than 1,190 aliens at our ports 
of entry. The new United States Visitor and Immigrant Status Indication 
Technology (USVISIT) provides us with much of the biometric information 
now collected during the NSEERS registration process.
 united states visitor and immigrant status indication technology (us-
                                 visit)
    The Department of Homeland Security's newest border security tool 
is the recently launched United States Visitor and Immigrant Status 
Indication Technology, or US-VISIT program. Using biometrics--two 
digital, inkless finger scans, and a photograph--US-VISIT captures the 
identity of passengers seeking admission to the U.S and makes it harder 
for individuals, especially terrorists and criminals, to enter the 
United States using fraudulent documents and assumed identities.
    US-VISIT is part of a more comprehensive system that begins 
overseas, where the Department of State collects biometrics at the time 
of visa application. Currently, 55 posts are capturing digital finger 
scans, and all 211 visa-issuing posts will by operational by October 
2004. These biometrics are then run against a database of known or 
suspected criminals and terrorists. When the visitor gets to the 
border, CBP uses the same biometrics--these digital fingerscans--to 
verify that the person at our port is the same person who received the 
visa. In addition, US-VISIT provides the digital photograph taken at 
the time of visa issuance to the CBP officers on primary. And it works. 
We already know that these new procedures make it much more difficult 
for criminals or terrorists to use fraudulent documents to illegally 
enter the United States. The biometrics reveal individuals who are 
using, or have in the past, used an alias. This type of matching helps 
our CBP officers make admissibility decisions and enhances the overall 
integrity of our immigration system.
    On January 5, 2004, US-VISIT became operational at 115 of our 
nation's international airports and 14 of our largest passenger ship 
seaport locations. Through February 17, CBP has processed more than 1.1 
million passengers through US-VISIT, and had 100 ``hits'' on the 
biometrics. An example of a criminal violator detected by US-VISIT is a 
10-year fugitive wanted on a New York warrant for vehicular homicide. 
He was apprehended at JFK. Although he was traveling under an alias 
that was not entered into any of our databases, he was identified in 
US-VISIT through a biometrics match. A similar scenario arose in Miami 
where we apprehended a fugitive who had been convicted and was wanted 
on sentencing for statutory rape of a victim under 17. One fugitive had 
entered the United States over 60 times in the past four years under 
assumed names and dates of birth. There are other similar successes 
that demonstrate the importance of US-VISIT as a new law enforcement 
and homeland security tool. Let me add that the success of US-VISIT has 
not come at the price of open borders. We have seen no significant 
increase in wait times at the airports since the implementation of the 
program.
    The US-VISIT system will expand to the 50 busiest land ports of 
entry by December 31, 2004 and then to all land ports by December 31, 
2005. US-VISIT is but a first step in the Department's goal of 
reforming our borders. It will take time and investment to achieve the 
goals of the program and ensure integrity in our immigration system.
                               conclusion
    The creation of DHS, the unification of the border agencies within 
CBP, and the joining of CBP with TSA and ICE under the BTS Directorate 
are efforts that have enabled us to have a more comprehensive and 
effective strategy as we press forward with our many initiatives.
    With the continued support of the Congress, CBP will succeed in 
meeting the great demands placed upon it, and will play a key role--by 
better securing our border against the threat of terrorist and criminal 
aliens--in the Department of Homeland Security.
    Thank you again for this opportunity to testify. I would be happy 
to answer any of your questions.

    Mr. Hostettler. I will now begin the round of questioning 
from the Subcommittee. First of all, Director Aguirre, the 
budget that has been submitted by the Administration seeks an 
additional $60 million for CIS to reduce the backlog in pending 
applications. In January, earlier this year, the GAO told our 
Committee that from the beginning of FY 2001 to the end of FY 
2003, the number of pending applications increased by 59 
percent despite additional backlogs--excuse me, additional 
appropriations in FY 2002 to address the backlog. Why do you 
think that the backlog continues to increase?
    Mr. Aguirre. Mr. Chairman, the report that you refer to, of 
course, hit right along the lines of September 11 and so we 
must recognize that a significant number of background checks 
that were not being performed prior to 9/11 began to be 
performed shortly after and actually increased subsequent to 
that when we recognized the possibility of what could be done 
in cooperation with other agencies.
    Additionally, we, going back to September 11, there were 
also certain items within the old INS that fell to what would 
now be the new CIS. The NSEERS program, the creation of the 
SEVIS program, things that frankly today are not within our 
purview that have now been transferred over to ICE were part of 
the, if you will, the weight that we were having to carry 
during that period. I suspect that much of the increase in 
backlog that occurred during that year can be almost traced 
right back to September 11.
    Now, we've made progress and we've made a number of 
adjustments, partly separating the INS and devoting the 
enforcement efforts to one side and the service to another. So 
I'm not sure that when we see the report again we would see the 
same type of criticism.
    Mr. Hostettler. Thank you. And so you're saying that there 
was a significant increase in the number of background checks 
as a result of September 11, is that what you said at the----
    Mr. Aguirre. Yes, sir. There was a significant increase in 
background checks which were not being done before. Therefore, 
that actually slowed down each application significantly, and 
then on top of that, hundreds of our adjudicators were 
redeployed from actually adjudicating cases to doing NSEERS and 
doing security checks that were away from their normal daily 
duties. Now, many of those individuals--hundreds of those 
individuals have actually repatriated, if you will, back to CIS 
and are going back to the adjudication process.
    Mr. Hostettler. Thank you, sir.
    Mr. Aguirre. Yes, sir.
    Mr. Hostettler. Mr. Dougherty, the President's FY 2005 
budget includes an additional $23 million for enhanced worksite 
enforcement. In your testimony, you suggest that there may be a 
tie between this funding and the President's proposal for a 
temporary worker program. If the agency receives the funding 
but the program does not go in place, do you see this funding 
being used for worksite enforcement, however?
    Mr. Dougherty. Thank you, Mr. Chairman. I think the 
emphasis for us in terms of the strategic direction is to 
continue our commitment to traditional worksite enforcement. We 
recognize, however, that should the TWP go forward, that there 
will be a corresponding enforcement impact, and we would expect 
to have a significant challenge in meeting that, and so we 
would address it towards that goal.
    Should the program not proceed, we believe the money, or 
the money and the positions, could be profitably used to do two 
things. One is continue our traditional worksite enforcement 
operations like we did most recently, it's been publicly 
reported, with WalMart and other cases that are currently 
pending, and then also continue our critical infrastructure 
protection cases, which have had a direct impact across the 
nation.
    Mr. Hostettler. Very good. You've brought up an interesting 
point which will actually be the subject of a hearing in the 
future, and that is the administration of such a temporary 
worker program, what it would actually entail, and the notion 
that you've brought up that there will be a significant impact 
on worksite enforcement is not lost on this Subcommittee.
    Eleven million dollars were requested by the President to 
more than double the intensive Supervision Appearance Program, 
which provides alternatives to detention. Mr. Dougherty, what 
sorts of alternatives to detention has ICE examined under the 
program?
    Mr. Dougherty. To date, we've examined a few things. First 
is electronic monitoring through--commonly known as electronic 
bracelets to monitor where people are out in the community, 
whether they have left their residence, for example, and that's 
done through a centralized monitoring process.
    We've also had an experimental project with voice 
recognition technology where an individual is required to call 
in and the technology verifies the voice print, that it is the 
person, they're calling at a particular place at a particular 
time. There are other concepts we have which we are 
experimenting with and would like to move forward with more 
residential settings for family members, for example, who are 
detained, rather than having them in the traditional detention, 
have them in a more community setting. It's better for 
families, and more economical for us to supervise if they are 
in a residential setting.
    Mr. Hostettler. Thank you, Mr. Dougherty. In your 
testimony, you point out that these individuals are not of a 
violent nature. They are somewhat more lower on the emphasis, 
you might say, of concern for national security and potential 
criminal activity.
    Mr. Dougherty. Yes, Mr. Chairman. These would be 
individuals who, after having applied, the standard detention 
guidelines would not be deemed necessary to detain for either 
national security reasons or public safety concerns.
    Mr. Hostettler. Thank you, Mr. Dougherty. The Chairman's 
time has expired.
    The chair now recognizes the gentlelady from California, 
Ms. Sanchez, for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman. I'd like to begin my 
questions by addressing the first to Mr. Aguirre. In your 
written testimony that you submitted, you discussed the 
regulator fee increases that the U.S. CIS is seeking and you 
say that the fee increases will ensure that our backlog does 
not increase further.
    I'm interested in knowing what studies the U.S. CIS 
conducted or what evidence does the U.S. CIS have that proves 
that the fee increases will result in a reduction of the 
current visa backlog.
    Mr. Aguirre. Sorry. I keep forgetting to push the button.
    Congresswoman Sanchez, I think my indication was not that 
it would reduce the backlog but that it would not increase the 
backlog. The fee increase for us is a recuperation of the 
expenses of processing the applications as we're processing 
them right now. It is not intended to be a backlog reduction 
fiscal effort. The backlog fiscal effort, it's a different 
function.
    The increase in fee for us is simply a recognition that 2 
years ago was the last time we looked at the fees and many 
things have taken place in the last 2 years, and right now, 
we're simply not recovering the cost of processing the 
application.
    I will just make an additional comment on the fee increase. 
It's almost a conundrum. We have a backlog and, therefore, fees 
were collected for applications that are now being processed 
months if not years later, and those fees were computed at the 
cost of pre-9/11 processes. The processes that we have right 
now are simply not being captured by the old fees, and 
therefore, I don't want to confuse the fees with the backlog.
    Ms. Sanchez. I understand. I think I understand your point. 
I'm curious in knowing whether U.S. CIS in the process of 
finalizing a new backlog elimination plan that will outline the 
changes in your business processes that are supposed to tackle 
the existing backlog. What processes do you have in mind to 
help do that, because the backlog issue is of growing 
significance.
    Mr. Aguirre. Yes, of course, as I briefly mentioned in my 
opening comments, we are expecting to have a backlog 
elimination program report to the Congress within the next few 
months. We were waiting for the final on not only the fee 
increase, but actually on the budget so that we would know what 
resources would be available to us and, therefore, we can then 
allocate it. It's a matter----
    Ms. Sanchez. So we'll expect that in the next couple of 
months, then?
    Mr. Aguirre. Yes, ma'am.
    Ms. Sanchez. Okay. Thank you.
    A question for Mr. Smith. In your written testimony, you 
discuss DHS using biometrics to track the entry and exit of 
foreign visitors using fingerprints and photographs and you say 
that this program has been in place since September of 2003, is 
that correct?
    Mr. Smith. Well, I'm talking about our overseas collection, 
that we've begun now the overseas collection----
    Ms. Sanchez. Okay, and it's currently operational in 70 
locations?
    Mr. Smith. That's exactly right.
    Ms. Sanchez. In that time, how many known terrorists have 
been identified and apprehended as a result of the biometric 
checks that are occurring?
    Mr. Smith. Congresswoman Sanchez, I'm not aware of any 
known terrorists that have been apprehended as a result of 
those checks. We have had a number of hits, though, with NCIC 
databases with the, or through the DHS IDENT system of people 
who were obviously individuals we did not want to admit to the 
United States. I think we had roughly 60 hits so far.
    Ms. Sanchez. Okay. And you don't know what the--and what 
was the ultimate of those hits? They just denied entry into the 
United States?
    Mr. Smith. Well, in some instances, it may well be that 
there was a waiver requested and it could have been a waiver 
was issued. But most of them would have been denied entry, yes.
    Ms. Sanchez. Okay. But no known arrests?
    Mr. Smith. Not that I'm aware of.
    Ms. Sanchez. Okay. You also discuss in your testimony CIS's 
efforts to make the visa processing system more secure, and I 
don't think that there's a person up here that disagrees that 
that needs to happen. My question is, what is CIS doing to make 
the visa processing system more efficient and less burdened by 
the delays it is currently experiencing.
    Mr. Smith. You're referring to the Department of Homeland 
Security or are you referring to the State Department in this 
regard?
    Ms. Sanchez. The State Department.
    Mr. Smith. Well, the State Department has done a number of 
things. We have, for instance, a pilot program now that we're 
initiating which will allow us to electronically communicate 
with other interested agencies in Washington, the so-called 
Security Advisory Opinion Improvement Project. We think that 
that will reduce some of the delays in the security advisory 
opinions that we have been having of late.
    I should stress, though, that most visas are adjudicated 
without any reference to Washington. That is, only a small 
minority are ever referred for special clearances to 
Washington, and 80 percent of those are cleared within a month. 
But there have been--has been attention focused on particular 
certain categories of security advisories and concern expressed 
about some of the delays there. As I say, we are working with 
our partners in the interagency community to improve the 
communication and to reduce any needless delays in that 
process.
    We have also, as I mentioned, been a partner with our other 
colleagues in creating the Terrorist Screening Center. We think 
that having a watch list, one watch list for the U.S. 
Government for counterterrorism purposes will expedite this 
whole screening process.
    Ms. Sanchez. Thank you.
    Mr. Hostettler. The gentlelady's time has expired.
    The chair now recognizes the gentlelady from Tennessee, 
Mrs. Blackburn, for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman, and thank you all 
for being here today. We certainly appreciate that.
    Mr. Dougherty, I'd like to start with you if I may, please, 
sir. There is a basic worker verification program that has been 
a pilot project in six States, California, Texas, Florida, New 
York, New Jersey. How are you monitoring that program?
    Mr. Dougherty. Congresswoman, I believe you are referring 
to the SAVE system?
    Mrs. Blackburn. Yes.
    Mr. Dougherty. My current understanding is that the SAVE 
system is administered, technically administered, by CIS, today 
and I think I can speak to the process, unless my colleague 
would like to do that.
    Mr. Aguirre. Go right ahead. [Laughter.]
    Mr. Dougherty. Thank you. As you said, it is a pilot 
project that Congress funded and it provides an interface for 
certain governmental entities in certain, in narrow cases, 
within industry to verify Employment Authorization Numbers or 
an alien number. I understand there is an interface with the 
Social Security Administration and then a subsequent interface 
with the immigration databases.
    Essentially, as I understand the process, you get a yes or 
a no answer. Is this a valid number? Is the person representing 
this number, proffering it, authorized to work or not? Today, 
there is no automatic referral process when there is a denial, 
or a record that indicates that the number is not valid, or the 
number is not authorized, or the number does not represent 
authorization to work. There's not an automatic referral to ICE 
for an enforcement action.
    Mrs. Blackburn. Okay, thank you. Now, is ICE or is CIS 
working with the military with this worker verification 
program?
    Mr. Aguirre. Congresswoman, we are working with the 
military in a variety of aspects. I'm not sure how that would 
fit to your question. Our work with the military has more to do 
with naturalizations and things of that nature, but I'm not--
I'd be happy to get closer to your question.
    Mrs. Blackburn. That will be fine. My question is coming 
from an article that I have, and I'll be certain that this is 
passed to you so that you can prepare a response for the 
question. It comes from the Denver Post and the concern over 
some of the individuals in our military whose status is unknown 
as regards their citizenship. So I would appreciate a response 
on that, if you don't mind.
    Mr. Aguirre. Not at all, Congresswoman, but let me do 
mention that for people to serve in the military, they must be 
holding a permanent residency.
    Mrs. Blackburn. Correct.
    Mr. Aguirre. And, therefore, the military is responsible 
for determining the status of the individual. We are working 
with the military right now to expedite the naturalization of 
those who seek it.
    Mrs. Blackburn. Correct, and our concern there is on the 
documentation and I'll be sure you have the article because we 
would appreciate a response.
    Mr. Aguirre. Happy to.
    Mrs. Blackburn. I do have one question for you, sir. You 
know, I know that the Nebraska Service Center, Texas, 
California, all provide timely detailed information to my 
caseworkers when we call on them for help and I wish that I 
could say the same thing for the Memphis sub-office because we 
hear many complaints from constituents concerning the Memphis 
office, and this is one, for example.
    A U.S. citizen wanted to adopt internationally and was told 
she needed to speak with a supervisor. After waiting in line 
for over an hour, she was told the supervisor had left for the 
day. And many examples of evidence and documents are sent that 
are supposedly never received in that office, and as a result, 
work permits are revoked, individuals being sent to the wrong 
town for their swearing in and being told that they can't 
participate in the swearing in in that town.
    One thing we would like to know is how our D.C. office and 
our district office can work with yours to improve the service 
that our constituents and our staff receive from the Memphis 
office and we would appreciate your help on that.
    Mr. Aguirre. Congresswoman, thank you for bringing that to 
our attention. I have in almost a year that I've been at this 
job, I have gone around the country and met with about a third 
of my 15,000 employees. I regret to say I haven't made it to 
Tennessee just yet and Memphis will be on my list to make sure 
that we take a look at what it is we can do to make that office 
satisfactory, not only to you, but particularly to those who 
apply for services and see if there's anything that, you know, 
resource allocation or guidance that's necessary. I'm not aware 
of any particular problems so I can't respond specifically, but 
I will look into it for you.
    Mrs. Blackburn. That would be excellent. Thank you, sir. 
Thank you, Mr. Chairman.
    Mr. Hostettler. The gentlelady's time has expired.
    The chair now recognizes the gentlelady from California, 
Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. The questions I had 
on the fees have, for the most part, been asked, but I did note 
in the GAO report that they--this is a quote, it's not very 
nice, but it's them saying it--they say, ``CIS knows neither 
the cost to process new applications nor the cost to complete 
pending applications,'' unquote. Do you think that's incorrect, 
and if it is correct, how do you--how did you base your 
recommendation for the fee increase?
    Mr. Aguirre. Congresswoman, I might add, you said today was 
immigration day for you. Every day is immigration day for me.
    Ms. Lofgren. Yes.
    Mr. Aguirre. And I'm not sure if they were referring to a 
point prior to the fiscal year which they analyzed or to today. 
I don't think it is accurate today.
    Ms. Lofgren. Okay.
    Mr. Aguirre. I think we are actually very sophisticated in 
determining the cost of our application processing.
    Ms. Lofgren. Okay. Let me ask a question, and this is a 
specific one but it's something that I have been working on 
along with other members of the Refugee Caucus and it involves, 
obviously, therefore, both your agency as well as the State 
Department. But we have, as you know, we have not actually 
admitted the number of refugees that the President has said 
that we would, and I think there are a lot of reasons for that. 
It is a concern to the Refugee Caucus, which is, as you know, a 
strong bipartisan caucus here in the House.
    But specifically, I am concerned about the 2,000 stateless 
Vietnamese who are in the Philippines. I sent a letter to 
Arthur Dewey at State, and I'll be happy to give you a copy. 
It's my understanding that the State Department has essentially 
identified the population, recommended them for resettlement, 
but that CIS has not actually performed its function yet.
    Now, I have a special soft spot in my heart for these 
refugees because when other countries were forcibly deporting 
Vietnamese refugees back to Vietnam, we met--I met, along with 
some others, with the members of the Philippine legislature and 
also the Catholic Church in the Philippines and they 
intervened, and even though the Philippines is a very poor 
country, they did not take the step that others did and they 
allowed these refugees to stay, because many of the refugees 
that were returned ended up being imprisoned or killed.
    I'm wondering, is there a way that we can help you get this 
resolved so that--these are all people who have ties to the 
United States. Can you fill us in on what's going on with that?
    Mr. Aguirre. Yes, ma'am. I also have a special spot in my 
heart for refugees because I myself was a refugee from Cuba 
and, in fact, Catholic Charities was the one that cared for me 
until I was able to be of age.
    I'm not particularly aware of this case with the Vietnamese 
although I would point to the fact that if you ask what it is 
that you can do, please approve our appropriations request as 
soon as possible because it--within it there is a request for 
Refugee Corps.
    Right now, as we handle refugees, we are drawing from 
individuals that are already on asylum corps and then we are 
temporarily detailing them abroad for interviewing of refugees. 
We are very interested--I am personally very interested in 
filling every potential opening for refugees in the 
President's----
    Ms. Lofgren. Perhaps I can ask you, if I would, I'll give 
you this letter and if you could get back to me on these 
particulars, I'd be very appreciative.
    Mr. Aguirre. Glad to do it.
    Ms. Lofgren. And I've got one more question.
    Mr. Aguirre. Yes, ma'am.
    Ms. Lofgren. I think that's all I'll have time for.
    Mr. Aguirre. Get it in there.
    Ms. Lofgren. It has to do with biometrics. This is 
immigration day because between seeing Asa Hutchinson in the 
morning, we saw McCleary in the Science and Technology 
Subcommittee of Homeland Security and he mentioned that his 
Science and Technology Directorate is developing standards for 
biometrics. And I asked him the question, we're deploying 
biometrics in the State Department and in the border functions, 
but you haven't yet devised them.
    And the question is, how are we going to integrate the best 
practices and standards that the Science and Technology 
Directorate is developing into what you're already deploying, 
because from what I am hearing, we may want some duplication. 
The FBI wants ten fingerprints because of what they learn 
abroad. The dataload on an iris scan is a lot lighter and we 
may want to do that. So I guess this is both for State and CIS. 
How do you plan to integrate this science?
    Mr. Aguirre. Well, I'll begin, ma'am, by indicating that 
biometrics is, of course, a very fast, fluid, moving target. 
For us, the issue of biometrics is more related to background 
checks than with identification per se. In other words, we need 
ten fingerprints so that the FBI can comb their files 
efficiently and cost effectively and give us information on an 
individual. They could actually identify half a fingerprint, 
but it takes so long and costs so much that it would be 
impractical.
    We are making sure that as we develop biometric standards, 
we're in coordination with the rest of Homeland Security, State 
Department, Justice, and elsewhere so that we are not 
duplicating or working at odds with each other. I leave it to 
State to continue answering the question, but it's a continuing 
issue. There is no finish line to this.
    Mr. Smith. Just to add, Congresswoman, we decided on 
initially two fingerprints. This was an interagency decision, 
actually, of the Secretary of State, Secretary Ridge, and the 
Attorney General who were involved in this decision, because we 
believed that was the--what was necessary to meet the law--in 
order to meet the October deadline for collecting biometrics 
with our visas. Thus far, it has worked very well and we've 
been in sync, absolutely, in lockstep with the Department of 
Homeland Security on U.S. VISIT.
    When we talk about biometrics and the passport, though, 
it's a different story. The biometric in the passport is going 
to be facial recognition. This is the International Civil 
Aviation Organization's standard. It was the standard that 
Congress had adopted with regard to the Visa Waiver Program and 
the requirement that those countries place a biometric in their 
passport; and we are proceeding on the basis of that standard 
now with respect to the U.S. passport.
    Ms. Lofgren. I realize that my time has expired, but are we 
going to have a second round of questions or is this it?
    Mr. Hostettler. Yes, we will.
    Ms. Lofgren. Then I'll yield back my extensive time. Thank 
you.
    Mr. Hostettler. The chair now recognizes the gentleman from 
Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    I would first direct my questions to Mr. Dougherty. As I 
look at some of the numbers that you have here in your 
testimony, having examined about 260,000 employee records, 
about 1,000 workers are arrested, 774 indictments, those kind 
of numbers, I see that the nation has been discussing numbers 
of illegals within the country in the range of eight to 12 
million. I'm wondering if you have a number on that. Do you 
have a sense of how many illegal aliens are in this country, 
and if so, could you also break down how they got here?
    Mr. Dougherty. No, sir, Congressman. I don't have a 
reliable number for the number of individuals in the United 
States without authorization and I'm not sure I've seen a 
reliable estimate. I will tell you that from our perspective, 
when we look at the problem, we need to focus our enforcement 
resources on the highest national security and public safety 
impacts. So when we look out at that population, we think about 
the criminal aliens, those that have committed serious crimes 
and have been ordered deported for that. Or working through our 
partners, with our partners in the FBI and the Joint Terrorist 
Task Force concept, the national security threats.
    Mr. King. So you'd have a sense of the percentage of those 
illegals that have committed serious crimes. You'd have a sense 
of how many are incarcerated in our Federal and our State 
penitentiaries today. Would you be able to give us a sense of 
about how many American citizens fall victims to those 
criminals?
    Mr. Dougherty. Sir, I think I probably have the statistics 
or a sense of the statistics on the first part. In terms of the 
number of citizens who are victimized, probably working with 
the Department of Justice, some number could be arrived at, but 
we'd be happy to provide you and the Committee with any studies 
we have.
    Mr. King. I'd be very interested in that number, and the 
reason I asked the question is that we have compassion for 
victims of all kinds and this Committee often talks about the 
number of people who are victimized, if they are forcefully 
repatriated to their home country, as well as those who cross 
the desert, but that number is the only number we hear. We 
don't hear the number of people who are victimized by those who 
have successfully made the crossing. Thank you.
    I'd direct my next question to Mr. Stodder. You discussed, 
I believe, an increase in border enforcement along the 4,000-
mile Canadian border, maybe as much as tripled the number that 
we had around September 11.
    Mr. Stodder. Right.
    Mr. King. Do you have a sense of how effective that's been 
in some concept of percentage of enforcement and about what it 
would take to get closer to the 100 percent enforcement?
    Mr. Stodder. I actually don't have a sense necessarily of 
how effective that's been. I mean, we, as of the end of last 
year, last calendar year, we reached 1,000 Border Patrol agents 
on the Northern border.
    The thing you have to think about the Northern border is 
that it is a different phenomenon than the Southern border 
because we don't necessarily have a mass migration threat that 
we have on the Southern border. I mean, it's really much more 
of a sense of--the attempt is to--everybody who's crossing that 
border is absolutely a threat and we need to detect them and 
interdict them.
    But we are in the process--we have 1,000 Border Patrol 
agents on the Northern border. We are building up our sensoring 
capability on the Northern border. By the summer, we anticipate 
we will be piloting UAVs on the Northern border at some point. 
So I think we will get more of a sense, I think, through this 
year in the sense of what we really need on the Northern 
border. But this is a work in progress.
    Mr. King. Are any of those same things happening on the 
Southern border?
    Mr. Stodder. Yes. I mean, certainly the UAVs. We also would 
anticipate testing UAVs on the Southern border in Arizona, as 
well as I think ICE is also doing some stuff with UAVs, as 
well. But absolutely, and we are increasing our sensoring 
capability. The President's budget in '05 will also give us the 
ability to go further.
    Mr. King. Given that we have a border policy, at least in 
the Western Hemisphere, that a birth certificate and driver's 
license gets you into the United States unless you're coming 
from Cuba, if we should decide that we want to require that 
traveler to provide an affirmative identification and proof, 
that would be the form of a passport, a biometric passport in 
whatever form we've discussed here. Can you handle that at the 
border if everybody crossing has to swipe a passport, or does 
that just burden you so much that it can't happen?
    Mr. Stodder. Well, not necessarily. I mean, the policy 
decision on that is obviously well above us, but, I mean, 
obviously there would have to be changes in the system a bit, 
but the U.S. VISIT system, I think would form a basis for some 
of that. But I would probably defer that question a bit.
    Mr. King. Thank you, and I'd just in my brief moment left, 
I'd direct then to Mr. Smith, if we went that route and 
required passports coming from all Western Hemisphere 
countries, is that something that you could process, or how big 
of a burden would that be?
    Mr. Smith. Well, sir, I believe you're talking about 
requiring American citizens to have passports, is that correct, 
or----
    Mr. King. I'm talking about anyone coming from a nation in 
the Western Hemisphere other than Cuba that's today using a 
birth certificate. Oh, you're right. You're right on that, on 
American citizens.
    Mr. Smith. Because most of them, other than Canadians, 
would have to come with a passport and visa. But with respect 
to American citizens and the requirement that American citizens 
travel within the Western Hemisphere with a passport, it is a 
very large policy decision and one that would have enormous 
resource implications for the Department in terms of the 
issuance of passports, but one that at this point, at least, 
has been discussed, but I don't know that there's any proposal 
with respect to that requirement.
    Mr. King. And my reference does fall to non-American 
citizens who use those false identification processes to come 
in under the guise of being American citizens just with birth 
certificates and drivers' licenses.
    Thank you, Mr. Smith. Thank you, Mr. Chair.
    Mr. Hostettler. Thank you, Mr. King.
    The chair now recognizes the gentleman from California, Mr. 
Berman, for 5 minutes.
    Mr. Berman. Thank you, Mr. Chairman.
    Director Aguirre, on October 27 of last year, Melissa Hart 
and I on this Committee, along with 13 of our colleagues, sent 
you a letter regarding the need for administrative reforms in 
improving the processing of the nonprofit arts-related O and P 
non-immigrant visa petitions. Do you think that letter is being 
irradiated, or can we get a response to that at some point into 
the near future?
    Mr. Aguirre. Congressman, I'm sorry that I don't know about 
your specific letter. We went through a very----
    Mr. Berman. We'll give you a copy.
    Mr. Aguirre. Thank you, but I just wanted to say that we 
went through a very extensive scrubbing process before the end 
of the year to make sure that no letters were pending response 
and so I'm terribly sorry that yours may be the one and only 
that perhaps we missed. So I'd be more than happy to look at 
it. We want to maintain a responsive posture toward Members of 
Congress and I'll take a look at it.
    Mr. Berman. Great. I appreciate that.
    Mrs. Blackburn. If the gentleman would yield for just a 
moment----
    Mr. Berman. Sure.
    Mrs. Blackburn. I also have a copy of my letter that I 
signed on, the same letter that the gentleman is referring to, 
so mine has gone unanswered also and I would appreciate joining 
him in his request.
    Mr. Aguirre. If it is the same letter, I'm sure I have the 
same response.
    Mr. Berman. Think of it as 15 letters. [Laughter.]
    Mr. Aguirre. Of course, it is immigration day, isn't it? 
[Laughter.]
    Mr. Berman. I appreciate that. You've talked a little bit 
about the fees and your plan and we know about the recent fee 
increase. I'm looking at the--what would happen if someone came 
in and--what would happen to the backlogs and your ability to 
function if somebody came and said that a third of the money 
you're now using will be diverted for other purposes?
    Mr. Aguirre. Well, sir, if a third--now you're going to a 
hypothetical and it's bending my head. If a third----
    Mr. Berman. There's a legislative effort to take away a 
third of your money to provide to the States for the detention 
of people held by local law enforcement based on their status.
    Mr. Aguirre. Right.
    Mr. Berman. I'm wondering what that would do to the 
services side of the agency and your effort to deal with the 
backlogs.
    Mr. Aguirre. Yes, sir. Well, Congressman, what I said in my 
opening statement is that we are a fee-driven operation and we 
are depending on those fees to fund the operations that we 
have, the 15,000 employees, a third of which are contract 
employees. And so if the funds weren't there, I'm sure we would 
not only increase the backlog, but terribly disrupt the 
Immigration Service.
    Mr. Berman. I guess it would be a way of stopping 
contracting out. [Laughter.]
    No, just--but I take it your response is, it would have a 
devastating impact on what you do.
    Mr. Aguirre. Very, very good choice of words. Thank you, 
sir.
    Mr. Berman. Because H.R. 2671, the CLEAR Act, directs that 
a third of the fee resources be diverted to funding the States 
for the cost of detaining these people. It allows you the 
ability, then, to raise your fees even further. I'm curious 
what you think of the implications of a policy that says that 
legal residents and people applying for legal resident status 
in the regular way, and people applying for naturalization who 
are legal permanent residents, should subsidize the detention 
of illegal immigrants in State prisons and local jails.
    Mr. Aguirre. Congressman, obviously you're familiar with a 
bill that I'm not and therefore any response that I give to 
your very specific questions are going to be without taking the 
whole thing into context.
    My answer perhaps will be that I think the Congress has 
acted and the President has signed the Homeland Security Act of 
2002 which separated the service side of immigration from the 
enforcement side of immigration so that each of us could focus 
not only our resources and our attention and our process 
analysis to a relatively different aspect of the same universe. 
And therefore, we are doing the best we can to identify the 
cost of our application processing so that the fees can be 
funding that process.
    Mr. Berman. So that the strong Congressional bipartisan 
desire to separate enforcement from services and provide a fee-
based funding mechanism for services would be--that separation 
concept and principle would be violated by an effort that would 
try to divert fees to cover enforcement activities by State and 
local law enforcement officials. Is that a fair conclusion?
    Mr. Aguirre. I'm sure your analysis is accurate in relation 
to how you understand that bill. I don't know the bill.
    Mr. Berman. I hope you won't. Thank you very much.
    Mr. Aguirre. Thank you, sir.
    Mr. Hostettler. I thank the gentleman from California.
    We will now enter into a second round of questions. Mr. 
Aguirre, Director Aguirre, if I could, with regard to the 
workload that your organization has, there is no effective hard 
maximum to the number of applications that CIS can potentially 
be called on to adjudicate, is that correct? I mean, there's 
essentially no limit?
    Mr. Aguirre. Mr. Chairman, the limits as they were I think 
are related to how the Congress has instituted into law the 
Immigration and Nationality Act. There are a number of caps in 
any number of different categories, and, of course, that, 
therefore, establishes the limit. But in the abstract, there is 
no limit. We are a--we take as people come and apply.
    Mr. Hostettler. Especially with regard to family members.
    Mr. Aguirre. Yes, sir. That is correct.
    Mr. Hostettler. I just think that that needs to be 
understood for the record, that while there is a significant 
backlog, there is almost an endless source of applications that 
can be added to your workload, so I appreciate that.
    Mr. Aguirre. Job security, as it were, yes. [Laughter.]
    Mr. Hostettler. Yes. Mr. Stodder, I have questions. The 
Border Patrol has seen an increase in agents in the past few 
years.
    Mr. Stodder. Yes.
    Mr. Hostettler. You pointed that out in your testimony. It 
does not seem as if there is an increase called for in the FY 
2005 budget. Is that accurate?
    Mr. Stodder. That's accurate.
    Mr. Hostettler. How is the Bureau going to affect change 
with regard to the number of folks coming into the country 
illegally?
    Mr. Stodder. I think, Mr. Chairman, I think that--I mean, 
our sense of this is, and you have to look at border security 
in terms of the mix of resources that we throw at the problem, 
and the green shirts, as we call them, or the Border Patrol 
agents are one piece of it. We have between 9,000 and 10,000 
Border Patrol agents on the Southern border right now, which is 
a large complement of agents.
    But you have to look at it also in the context of other 
technology that we bring to bear, whether it be low-tech 
technology like fences, sensors, and et cetera and cameras and 
things like that all the way to very high technology, like 
UAVs. It's the mix of resources that we think brings 
substantial control to the border.
    I mean, in our estimate, thinking about the Border Patrol 
in terms of its strategy and how it's rolled out since the mid-
'90's, it's really starting with Operation Gatekeeper in San 
Diego and similar programs in Texas, in El Paso and Laredo. We 
have gotten substantial control over the border in certain 
urban areas, like San Diego.
    I was just in San Diego a couple of weeks ago and it's 
amazing to see the development, actually in Chula Vista, right 
opposite the border, that would have been unthinkable 15 years 
ago before the Border Patrol really got control of that border 
there, and how did it do that? It got it somewhat through 
increased Border Patrol staffing, but it also got it through 
increased fencing, better sensors, better cameras, better 
surveillance, et cetera.
    So I think that the fact that we are not requesting 
additional Border Patrol agents in fiscal year '05 is not going 
to hamper our ability to control the border because I think 
that the increase in sensoring and cameras in our estimate is 
going to be far more important and will allow us to get much 
better control over the border.
    Mr. Hostettler. My concern is that I think there was a 
study in 1998 with regard to staffing of especially the 
Southwest border. At that time, it was determined that there 
would be slightly--have to be slightly less than 16,000 agents 
to man just the Southwest border. I understand the influence of 
force multipliers with regard to UAVs and other technology----
    Mr. Stodder. Right.
    Mr. Hostettler.--but given that that is an untested mix, 
I'm wondering what we do in the interim with regard to going 
from improving our Border Patrol to a mix of technology and 
human resources that is untested at this time. That's my 
concern.
    Mr. Stodder. Mr. Chairman, I guess, with all due respect, I 
would say that that mix is not necessarily untested. I mean, 
the one piece that is untested is the UAVs and we are testing 
them now and we will be testing them over the summer. But I 
think that the mix of infrastructure and technology and 
detection technology and cameras as well as uniformed Border 
Patrol agents is tested and it works and it's worked in San 
Diego, it's worked in El Paso, it's worked in certain parts of 
Texas, and we're applying that--we're going to be applying that 
pretty strongly in Arizona this year to try to get better 
control in Arizona.
    I mean, certainly, I mean, in the future, we may evaluate 
and view that we might need more people. But at this point, we 
don't, I mean, we don't think we do and we think we can make do 
with what we've got with the increases in technology and 
sensoring and cameras as well as the UAVs that the President's 
budget calls for.
    Mr. Hostettler. Very good. Thank you.
    Mr. Stodder. Thank you.
    Mr. Hostettler. The chair now recognizes the gentlelady 
from California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. I just have a few 
other additional items.
    All of us have district offices and it turns out that all 
of us have lots of immigration inquiries, so this one is really 
for my hard-working staff in the hopes that we might come up 
with a better procedure than we've had so far.
    We have had--we now have the third case in as many years of 
an American citizen with kidney failure who needs a kidney 
transplant from a sibling or family member in another country. 
The first case we had, and we had to go, I mean, it was a big 
to-do in the newspaper. I mean, this is a U.S. citizen. And the 
doctor, we talked with the doctor. The doctor did letters. The 
woman was going to die if her brother didn't give her the 
kidney. I thought it was great that he was willing to donate 
his kidney, and it took almost 8 months. I mean, she was on 
dialysis for 8 months and finally he got his visa, he donated 
his kidney, and then he went home.
    We had another case, it took 8 months. And we have another 
case still, and it's very confusing and it just seems to me, I 
guess this is for both Smith and Aguirre, that there ought to 
be a way--I mean, certainly we don't want a fraudulent 
situation and there's no disagreement with that. But these are 
ascertainable items. If you've got a physician--I think the 
current case is at UCSF. We had one at Stanford University 
Hospital. I mean, the doctors are not going to be making this 
up and there ought to be some way to streamline this so that 
Americans here who need that kind of help can get it quickly 
and not have to hang on and potentially risk their lives 
because of bureaucratic delays.
    Can you offer me any hope on that, either one of you?
    Mr. Aguirre. Congresswoman, I'm going to punt only by 
saying that I don't think it's our purview. I think it's going 
to be probably a temporary visa----
    Ms. Lofgren. It is a temporary visa, but I'm thinking----
    Mr. Aguirre. So it would probably be State.
    Ms. Lofgren. It is the State Department that is in charge 
of issuing the visas, but it seems to me there could be some 
coordination between--or even the Congressional offices. I 
mean, there isn't a Congressional office in the country that's 
going to lie about this. I mean, we're your allies in keeping 
our country safe and strong. Maybe I need to direct this to Mr. 
Smith.
    Mr. Smith. Congresswoman Lofgren, I was not aware of those 
specific cases that you mentioned but I have heard of similar 
cases. As you know, each individual needs to apply on their 
own----
    Ms. Lofgren. Right.
    Mr. Smith.--and qualify on their own for a visa, but there 
are two possibilities. One would be that they were able to 
qualify and to establish their bona fides and come over to the 
United States for this purpose. The other possibility would be 
humanitarian parole, which the Department of Homeland Security 
would decide upon----
    Ms. Lofgren. Right.
    Mr. Smith.--in those cases where we found that somebody was 
not eligible for a visa.
    Ms. Lofgren. Well, maybe what I could do is I could 
summarize these cases and send them to you and ask you to think 
if there's some way we could streamline this, because in the 
case of one lady, she almost died. I think there was concern 
that her brother, he was young and he was from the Philippines 
and would he go home. Frankly, I'd rather the American citizen 
got the transplant and lived than we had somebody overstay 
their visa, in all honesty. But, in fact, he went right home 
after he donated the kidney, just as he promised he would. So I 
will do that.
    The other question I would like to ask has to do with 
processes. I continue to have concerns about the deployment of 
technology in immigration services and I'm hoping that your 
backlog reduction plan will address that, the storage of 
fingerprints so that we don't have to do them over and over 
again, the online processing of applications, the ability to 
check on the status. I mean, half of the calls into your 
offices are people trying to find out what's going on. If there 
was another way to find out, everybody would be happier and 
your officers could do their work.
    I also wanted to express my hope that you will come to the 
San Jose office, and when you do, don't let them know in 
advance. Just show up and then tell me what you think of the 
guard services that we have contracted for, because one of my 
constituents who is a dean at the local college married a woman 
from Russia. They applied and he told me that it was the most 
humiliating thing as an American he'd ever been through, that 
his wife, as they were standing in line, said, ``This is just 
like home. This is just like the Soviet Union.''
    Mr. Aguirre. Quite an endorsement, huh?
    Ms. Lofgren. Yes. So we can do better than that and I would 
love to have you come to San Jose.
    Mr. Aguirre. Well, Congresswoman, I look forward to 
visiting that office as I do basically all of them. Your first 
question in terms of technology, technology is, without a 
question, the only way we are going to get out of this horrible 
backlog that we have and so we're looking for new technology to 
be implemented and making sure that it is cost effective and 
practical and applicable.
    Now, in terms of the customer service that people may or 
may not get, I'd just like to assure you that as an immigrant 
myself, the one and only requirement that I established when I 
accepted this job was that we would treat all applicants with 
dignity and respect, and that was embraced by both Secretary 
Ridge and President Bush. At any time that we encounter a 
cultural issue in terms of our employees not understanding 
that, we take corrective actions, whether they're contract 
employees or otherwise. So I assure you that any time we hear 
about situations like these, we'll take a good look at it and 
make sure that people are treated with dignity and respect even 
if we're going to say no to the question.
    Ms. Lofgren. If I may indulge the Chairman, I would direct 
your attention to the contract security personnel at the San 
Jose office----
    Mr. Aguirre. Yes, ma'am.
    Ms. Lofgren.--because I've personally witnessed, as have 
all the staff, really very abusive----
    Mr. Aguirre. Duly noted.
    Ms. Lofgren. Thank you.
    Mr. Hostettler. The gentlelady's time has expired.
    The chair now recognizes the gentleman from Iowa, Mr. King, 
for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Stodder, as I listen to your testimony, I don't believe 
I heard you call for more Border Patrol officers on either the 
Northern or Southern border?
    Mr. Stodder. Well, I didn't say that. I mean, I said that 
the President's budget has not requested more Border Patrol 
officers in the aggregate. It may be that we continue to move 
Border Patrol agents around in the sense that getting to 1,000 
Border Patrol agents on the Northern border, we did take people 
from different locations around the country. So it may be that 
we conclude in this year that additional agents are needed on 
the Northern border, in which case we will move agents to the 
Northern border.
    Mr. King. Then on the Southern border, if you have a 4,000-
mile border on the Northern border with 1,000 agents up there 
and you have a 2,000-mile border on the Southern border, how 
many agents do you have down there?
    Mr. Stodder. We have close to 10,000 on the Southern 
border.
    Mr. King. On the Southern border?
    Mr. Stodder. Yes.
    Mr. King. So there's a tremendous amount of concentration 
down there in comparison, at least, to the Northern border.
    Mr. Stodder. Right. Totally different threat, though, I 
mean, in the sense of the--the mass migration threat from the 
Mexican border into the United States.
    Mr. King. Certainly.
    Mr. Stodder. I mean, it's essentially that mission, whereas 
I think the Northern border mission is less of a mass migration 
mission and more of a detection and response mission.
    Mr. King. And so it might be that there is, as a percentage 
of the number of illegal crossings on the Northern border, 
there is that threat of terrorism that might be greater in 
proportion to the number of population that come across.
    Mr. Stodder. That could be, because there aren't that many 
economic migrants that are going to be coming across the 
Northern border. But, I mean, the notion of 1,000 Border Patrol 
agents, and again, as I was stating to the Chairman, you have 
to think of it in terms of the mix of what we're doing on the 
Northern border, because it's not just 1,000 Border Patrol 
agents up there. It is the----
    Mr. King. All the technology.
    Mr. Stodder.--all the technology. It's the air assets. The 
other thing that's important on the Northern border which we 
have worked with is working with the State and locals in the 
sense of we will be moving out to establish CBP task forces----
    Mr. King. Thank you, Mr. Stodder. I'm watching the clock, 
but I appreciate it.
    Mr. Stodder. Yes. Sure.
    Mr. King. Then I would direct to Mr. Dougherty. If I recall 
correctly, the Attorney General was here testifying some months 
ago that those illegal aliens adjudicated for deportation, if 
they were released on--if they were not incarcerated but 
released on their own recognizance, that about 85 percent of 
them, I believe was the number, 85 percent just blended back 
into society.
    I'm looking at a report here that shows that non-detained 
aliens with final orders, 87 percent report back--blend back in 
and, in fact, a number of non-detained aliens, is the term 
using, from countries who sponsor terrorism, they were looking 
at 94 percent. Do you care to comment on that?
    Mr. Dougherty. First of all, I'm not sure I'm familiar with 
the report you're referencing, but I'm familiar with the 
concept. There is a well known incidence of those with final 
orders of removal who have--criminal aliens and non-criminal 
aliens who have been through proceedings, who were either not 
detained in the initial instance or who were subsequently 
ordered released by immigration judges while they were going 
through the proceedings who do not appear for removal or do not 
self-deport. It's a significant problem.
    We are focusing our resources, as I mentioned earlier, on 
the criminal aliens in that population because that's the 
highest public safety impact, as well as on the national 
security threats, as well. Today what we are also seeking with 
the funding levels requested in '05, to work on reducing the 
increase in the rate of new fugitives. So one program we have 
in place now is to take individuals who receive final orders of 
deportation directly out of the courtroom in the immigration 
courts. They receive the final order. They do not have the 
opportunity to blend back into society.
    Mr. King. Directly to deportation?
    Mr. Dougherty. That's correct, sir.
    Mr. King. And I appreciate that comment, and I'm watching 
the orange clock here. I will just lay out maybe a possible way 
to devise a better system that we could have, and it's not 
critical of the operations that any of you operate, but it 
keeps in mind that there's a tremendous demand for illegal 
labor because of the price here in this country and that's a 
magnet that attracts people that want a better life and we 
recognize that and it's a human characteristic.
    I'm thinking that there's another organization out there, 
another agency that has some tools that haven't been brought to 
bear here. We have now enacted through Congress an act that 
allows an employer to identify a potential employee as a legal 
employee; they'll eventually and very soon be able to go up on 
the web and enter in the same, Social Security number, green 
card number, and come back with a positive identification to 
verify that that's a legally employable individual.
    I'm going to suggest to you all that I'd like to grant you 
some help of one day having an IRS agent sitting here and give 
them the authority to go in and enforce in a fashion different 
than testified today, and that would be to remove Federal 
deductibility for wages and benefits that are paid once an 
employer can verify the legality of the potential employees, 
whether they're guest workers, whether they're green cards, 
whether H-1-Bs, whether U.S. citizens. If we remove the Federal 
deductibility, employers themselves will enforce this and I 
believe it'll take a lot of load off the back of all of you.
    Thank you very much. Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman from Iowa.
    The chair now recognizes the gentleman from Texas, Mr. 
Smith, for 5 minutes.
    Mr. Smith of Texas. Thank you, Mr. Chairman, and thank you 
once again for holding an interesting and timely and critical 
hearing on such an important subject matter. I want to make 
some observations and then I have a couple of questions for 
some of our witnesses here today.
    First of all, I am glad to see in the Administration's 
budget an increase in the money that's going to be spent on the 
worksite inspections. I notice, though, in some figures that we 
have been given in a memo to all Members of the Subcommittee 
that the number of companies fined for hiring illegal workers 
has plummeted from over 1,000 in 1992 to 13 in 2002. That means 
it was almost non-existent.
    And while it's a step in the right direction that we're 
increasing the amount of money--as I recall, it was something 
like from $20 million to $40 million, roughly--for worksite 
inspections, that's a little bit like having two candles 
instead of one candle in a blackout. It's a step in the right 
direction, but it's not doing near what we should.
    The gentleman from Iowa just made an excellent point a 
while ago, which is basically if we're not willing to enforce 
employer sanctions, we're not really willing to reduce the 
attraction of the largest magnet that is attracting the 
individuals to this country, that is jobs. So I hope that this 
is the beginning of an Administration willing to go into the 
right direction.
    But what concerns me, I think, is the mixed signals that is 
coming from the Administration. We had this small increase in a 
very large budget in one area. Meanwhile, as I understand it, 
we are not increasing the number of Border Patrol agents. And 
meanwhile, going back to my assertion of mixed signals, we are 
approving matricular cards which are only going to be helpful 
to illegal immigrants and help them stay in the country longer. 
We're not doing anything to discourage States from offering 
drivers' licenses. We continue to give Federal benefits to many 
people in the country who are here illegally.
    In other words, we make it very, very easy in many, many 
ways for individuals to stay here who are here illegally. That 
is not the right signal to send if we are, in fact, serious 
about reducing illegal immigration in America.
    To the question that we hear asked so frequently, well, we 
have ten million people in the country illegally. What are we 
going to do, deport them all? No. There's an alternative to 
that and there's an alternative to gradual amnesty or immediate 
amnesty, depending on who is proposing it, and that is 
enforcing immigration laws. And if we enforced immigration laws 
alone, that would discourage many people from coming and would 
discourage those who are here from staying.
    All that would lead to a reduction in the number of people 
who are in the country illegally, which, by the way, is far 
more than ten million. Ten million refers to the number of 
people who are here permanently. If you today took a head count 
of the number of people in the country illegally, it would 
probably be closer to 20 million because there's a lot of 
people who are here only for a month or two or three.
    That's how serious the problem is, and if the 
Administration were serious, we wouldn't be sending these mixed 
signals, in my judgment.
    Another mixed signal, by the way, is that I just had a 
staff counsel return from a trip to the border where she was 
informed by various agents that in New Mexico and Arizona, a 
person coming across the border illegally had to actually be 
apprehended between ten and 15 times before they were actually 
arrested and officially deported. When you're coming into the 
country or want to come into the country illegally and you 
figure your chances, that you have 15 free chances, that's an 
open invitation in bright red lights to come to America, keep 
trying to come to America. And, of course, we know once you get 
across the border and if you don't commit a serious crime, 
you're basically home free. So we shouldn't be surprised that 
both the illegal immigrant traffic is increasing and we 
shouldn't be surprised that so many people want to stay here. 
We're making it very easy for them to stay here.
    By the way, I don't know who to ask, Mr. Dougherty or Mr. 
Stodder. On the Texas border, how many times do you have to be 
apprehended before you're actually a part of the deportation 
process, do you know?
    Mr. Stodder. I actually don't know and it probably--it 
varies from location to location. It's not just----
    Mr. Smith of Texas. From sector to sector----
    Mr. Stodder. Yes, sector to sector----
    Mr. Smith of Texas.--but it's probably five to 15 times?
    Mr. Stodder. Yes, it's probably--that's probably about 
right. I mean, the other issue is, of course, the question of 
prosecution, I mean, the prosecution thresholds in terms of 
whether you're going to be prosecuted for illegal entry, 
because the other thing, of course, is even if you are 
officially or formally removed from the United States to Mexico 
and you have a removal order, you could cross again but not be 
prosecuted. So I'm not sure necessarily a removal order may not 
get you an enormous amount.
    But I do want to comment----
    Mr. Smith of Texas. But a removal order is far more than 
happens most of the time, is my point.
    Mr. Stodder. Sure. But I do want to comment on one thing in 
terms of what you're talking about in Arizona----
    Mr. Smith of Texas. Yes?
    Mr. Stodder.--which is what I refer to in my testimony, 
which is the interior repatriation issue with Mexico, because 
so many of the people who are--about 95 percent, close to it, 
say in Arizona or many of the border areas, of the Mexican 
citizens that are coming across the border or migrating are 
actually from Central and Southern Mexico. They're not from the 
border States. And so that is what's so vital about interior 
repatriation, because you're right in the sense that if we are 
voluntarily repatriating people right across the border, where 
else are they going to go?
    Mr. Smith of Texas. That's true, but you know what? You 
just used the magic word which I think just totally makes the 
interior repatriation meaningless. It's voluntary. If someone 
wants to come back across the border illegally, why would they 
agree to go back to the interior or whatever country they came 
from? If it's not mandatory, it's to me very ineffective, at 
least in my opinion.
    Mr. Stodder. Well, there's a distinction there in the sense 
that the interior repatriation back to Central or Southern 
Mexico is voluntary in the sense that it's an agreement with 
the Mexican government and we are still working out the details 
of that. There will be inducements to have people go on the 
planes to go to the Central and Southern Mexico, including, 
potentially, lateral repatriation.
    But as I say, voluntary repatriation, that just simply 
means that they're withdrawing their ability to come into the 
country, so they could choose to go into formal removal 
proceedings if they wanted to, but ultimately they will be----
    Mr. Smith of Texas. But the question of whether they go all 
the way back to the middle of the country or the Southern part 
of the country is still voluntary, is it not?
    Mr. Stodder. It is voluntary, but, I mean, this is 
something that we are still working out the details of with the 
Mexican government.
    Mr. Smith of Texas. Mr. Chairman, would you mind if I asked 
one more question even though my time is up and I don't--am I 
the last one so I'm not holding anybody up other than----
    Mr. Hostettler. You're the last one. Without objection, the 
gentleman is recognized for an additional minute.
    Mr. Smith of Texas. Thank you. My last question is this. 
Under the Administration's immigration proposal, you're talking 
about potentially millions of people needing to be processed, 
millions of people placed, millions of documents checked and so 
forth. To my knowledge, such a massive new program is not 
funded in the President's budget. Is that true? At least, I 
haven't been able to find anything close to the amount of money 
necessary to implement the President's proposal. Is that an 
accurate statement?
    Mr. Aguirre. Congressman, I'll try and answer that for you.
    Mr. Smith of Texas. Mr. Aguirre?
    Mr. Aguirre. The proposal that the President makes is, of 
course, a very serious proposal, calling on the Congress to 
enact a law that would then be administered by our bureau, and 
the idea would be that as the Congress develops the standards 
for that law, we will price it and we will put a fee on it that 
is equal to the cost of----
    Mr. Smith of Texas. So you're waiting for the legislation 
before you put any money in the budget, is that right?
    Mr. Aguirre. Yes, sir. The budget that we are currently 
looking at has no relationship to the proposal the President 
has made to the temporary worker program.
    Mr. Smith of Texas. Right, and I consider it to be good 
news that the President wasn't so sure of his proposal passing 
that he actually put money in the budget, but that's a side 
story.
    Thank you, Mr. Chairman, and thanks for the extra question.
    Mr. Hostettler. I thank the gentleman from Texas.
    The chair wants to once again thank the panel for your 
participation in this hearing. I appreciate your indulgence 
during the time of votes.
    Subcommittee Members are reminded that you have seven 
legislative days to revise and extend your remarks for the 
record. The business before the Subcommittee being completed, 
we are adjourned.
    [Whereupon, at 5:32 p.m., the Subcommittee was adjourned.]


                        FUNDING FOR IMMIGRATION 
                     IN THE PRESIDENT'S 2005 BUDGET

                              ----------                              


                        THURSDAY, MARCH 11, 2004

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    Today, the Subcommittee on Immigration, Border Security, 
and Claims will hold its second of two hearings examining 
funding for immigration-related programs in the President's FY 
2005 budget. At our hearing 2 weeks ago, the Subcommittee heard 
from Administration witnesses on their agencies' requests for 
funding. At today's hearing, we will listen to a spectrum of 
private witnesses. Two of our witnesses head organizations 
representing immigration enforcement officers. One of the 
witnesses comes to us from the Migration Policy Institute, a 
Washington think tank. The fourth, a former INS adjudicator, 
inspector, and special agent, will provide us with the 
perspective of those on the front lines of immigration 
enforcement and adjudications.
    At its February 25, 2004, hearing, the Subcommittee 
examined a number of increases in funding in the President's FY 
2005 budget, and I would like to highlight a few.
    The budget requests an additional $281 million for U.S. 
Immigration and Customs Enforcement. Of that increase, $23 
million will go to worksite enforcement, more than doubling the 
resources devoted to this priority. An additional $30 million 
is to be directed to ensure that aliens convicted of crimes in 
the U.S. are identified and processed before they are released 
back into society. The President also requests an increase of 
$50 million to apprehend alien absconders and $5 million for 
additional detention bed space to ensure that aliens appear for 
their immigration proceedings and that aliens ordered removed 
actually leave.
    In addition to these increases, the President also requests 
an additional $257 million for U.S. Customs and Border 
Protection, which enforces the laws along the border and at the 
ports. Of this $257 million, $64 million is directed toward 
Border Patrol surveillance and sensor technology. Such 
technology is a force multiplier which frees Border Patrol 
agents to enforce the law more vigilantly.
    The FY 2005 budget also contains an additional $58 million 
for U.S. Citizenship and Immigration Services. This includes 
additional funding to reduce the backlog of applications and to 
enable the agency to meet the goal of a 6-month standard for 
processing all applications by FY 2006.
    In connection with backlog reduction, there is one increase 
in the FY 2005 budget that I think bears notice that we did not 
discuss at the last hearing. The Homeland Security budget 
requests an increase of 16 full-time positions for the Office 
of the Immigration Ombudsman. This office, created by the 
Homeland Security Act, is charged with proposing changes to 
problems encountered by individuals in dealing with citizenship 
and immigration services. These additional positions will allow 
the ombudsman to address systemic flaws in our immigration 
application processes, flaws that lead to wasteful redundancies 
and unnecessary delays.
    Critics have raised issues with priorities that have not 
seen funding increases in the FY 2005 budget, however. In 
particular, there is no funding for additional Border Patrol 
agents in the budget, ending a trend that lasted for several 
years. Further, critics have complained that there is not 
enough funding to reduce the backlog in immigration benefits 
applications.
    We will explore these issues and others today in reviewing 
with our panel how the President's FY 2005 budget responds to 
the many immigration challenges facing the United States today. 
Those are reducing the large illegal alien population, 
protecting the American people from alien criminals and 
terrorists, and ensuring that applications for immigration 
benefits are adjudicated correctly and in a timely manner.
    At this time I will turn to Members of the Subcommittee who 
may have opening statements. If not, I will turn to 
introductions of the panelists.
    Today, T.J. Bonner has joined us and has served as 
president of the National Border Patrol Council since 1989. He 
joined the Border Patrol as an agent in 1978. He currently 
serves as a senior Border Patrol agent and patrols the San 
Diego sector. Mr. Bonner graduated magna cum laude from Los 
Angeles Valley College with an associate of arts degree.
    Timothy Danahey is the national president of the Federal 
Law Enforcement Officers Association. He also serves as special 
agent with the Naval Criminal Investigative Service. Mr. 
Danahey was hired by NCIS in 1985 after 7 years' service as a 
patrol officer in Stonington, CT. Mr. Danahey received his 
degree in psychology at the University of Rhode Island. He has 
also completed both the U.S. Air Force Air Command Staff 
College and the U.S. Army Command and General Staff Officers 
College. In addition to his duties at FLEOA and NIS duties, Mr. 
Danahey is an Army Reserve officer.
    Michael Cutler is currently a fellow at the Center for 
Immigration Studies. Mr. Cutler began his 30-year career with 
the Immigration and Naturalization Service, or INS, as an 
inspector at John F. Kennedy Airport in New York in 1971. He 
thereafter served as an examiner in the Adjudications Branch at 
the New York District Office. In 1975, Mr. Cutler became an INS 
special agent in the New York Service Office. He retired from 
the INS in 2002. Mr. Cutler graduated from Brooklyn College of 
the City University of New York with a B.A. in communication 
arts and sciences.
    Demetrios G. Papademetriou is president, co-director, and 
co-founder of the Migration Policy Institute where he 
concentrates on U.S. immigration policy and related subjects. 
Previously he was a senior associate at the Carnegie Endowment 
for International Peace, where he directed and co-directed the 
International Migration Policy Program. Before joining the 
Carnegie Endowment, Dr. Papademetriou was the Director for 
Immigration Policy and Research at the U.S. Department of Labor 
and the Chair of the Secretary of Labor's Immigration Policy 
Task Force. He also served as Chair of the Migration Committee 
of the Paris-based Organization for Economic Cooperation and 
Development, or the OECD. Dr. Papademetriou received his Ph.D. 
in political science from the University of Maryland.
    Gentlemen, thank you for appearing today. Mr. Bonner, the 
Chair now recognizes you for 5 minutes for your opening 
statement.

 STATEMENT OF T.J. BONNER, NATIONAL PRESIDENT, NATIONAL BORDER 
 PATROL COUNCIL, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, 
                            AFL-CIO

    Mr. Bonner. Thank you, Chairman Hostettler and Members of 
the Subcommittee, for the opportunity to present the views and 
concerns of front-line Border Patrol employees regarding the 
Administration's budget request for the upcoming fiscal year.
    For the past several decades, illegal immigration has been 
out of control. Millions of foreigners cross our borders 
illegally every year, and hundreds of thousands more violate 
the terms of their authorized temporary visits. Every 
legislative attempt to solve these problems has failed.
    The terrorist attacks of September 11, 2001, perpetrated by 
foreign nationals should have served as a wake-up call to fix 
our failed immigration system. Sadly, little has changed since 
then.
    Although most politicians claim to support the strict 
enforcement of our immigration laws, many of their actions 
belie their rhetoric. A case in point is the Administration's 
budget request for fiscal year 2005.
    Despite an overall increase of $3.6 billion for all DHS 
programs, the funding for one of its most important programs, 
the U.S. Border Patrol, is being slashed significantly. Its 
budget is slated for an actual decrease of $18.4 million. 
Another $74.2 million is being reallocated for sensors and 
surveillance technology and unmanned aerial vehicles. This de 
facto cut totals $92.6 million, or 5 percent of the Border 
Patrol's overall budget of $1.85 billion.
    Substituting detection technology for staffing and 
equipment designed for apprehending lawbreakers is unwise. 
While such technology can be useful in pinpointing the location 
of those who cross our borders illegally, it cannot catch a 
single violator. Only trained people can accomplish that task. 
Instead of augmenting the staffing of the Border Patrol, 
however, the Administration's budget proposal eliminates 19 
agent positions. Inexplicably, all of the other occupations in 
the Department are slated to add positions or at least remain 
at the same level.
    While technologies such as remote cameras and sensors are 
undoubtedly useful in serving as extra eyes and ears, they can 
never replace the hands that catch violators. New technology 
should not come at the expense of staffing and other essential 
equipment. If such technology is deemed necessary, additional 
funding should be allocated for its acquisition.
    If our borders were under any semblance of control, this 
reduction and shifting of funding might make sense. With 
multitudes continuing to stream across our borders and elude 
apprehension on a daily basis, however, it is ridiculous. Until 
control of the borders is achieved, it is irresponsible to 
propose cutting the Border Patrol's budget and staffing. As 
long as our borders remain porous, they are just as open to 
terrorists and other criminals as they are to illegal aliens.
    About a decade ago, the Border Patrol embarked on a forward 
deployment enforcement strategy that was designed to discourage 
illegal immigration. It never achieved that goal, and the 
strategy makes no sense at all given the new primary mission of 
securing the homeland and protecting it against conventional 
and unconventional attacks in the United States.
    In order to control illegal immigration, the employer 
sanctions laws need to be strengthened. The revised laws need 
to make it simple for employers to determine if a person is 
authorized to work in this country, difficult to circumvent, 
and onerous to violate. Although significant resources would 
initially be required to enforce these laws, the payoff would 
be well worth the effort and expense. Without the draw of jobs, 
illegal immigration would be reduced dramatically, allowing the 
Border Patrol and Inspections branches to concentrate on 
terrorists and other criminals. As it stands now, it is far too 
easy for these dangerous elements to slip in with the 
multitudes of illegal aliens.
    Amnesty for lawbreakers cannot be part of any law designed 
to discourage illegal immigration, as it has the exact opposite 
effect. Despite its claims to the contrary, the 
Administration's proposed guest-worker program would grant 
amnesty to millions of illegal aliens. The high levels of 
illegal immigration that exist today are directly attributable 
to the 1986 amnesty.
    The Administration's budget request also seeks significant 
funding to implement a new human resources system within the 
Department of Homeland Security. The unfair system that was 
developed over the objections of employees will discourage even 
the most patriotic individuals from serving in the Department. 
The proposed pay system will significantly decrease average 
employee wages over time in order to balance the Department's 
budget and reward a few favored employees. The proposed 
disciplinary system will strip away meaningful appeal rights, 
allowing managers to unjustly punish employees for illegitimate 
reasons. The proposed labor-management relations system will 
deprive front-line employees of a voice in the decisions that 
affect them.
    In conclusion, the American people, as well as the 
courageous men and women who risk their lives every day 
protecting our borders, deserve far better than the 
Administration's budget offers. The security of our Nation 
depends upon a comprehensive and effective immigration policy 
administered by a dedicated and highly motivated workforce. The 
Administration's budget proposal not only fails to advance any 
of these critical goals, it represents a tremendous step 
backward.
    Thank you, and I would be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Bonner follows:]
                   Prepared Statement of T.J. Bonner
    On behalf of the 10,000 Border Patrol employees that it represents, 
the National Border Patrol Council thanks you for the opportunity to 
present our views and concerns regarding the Administration's budget 
request for the upcoming fiscal year.
    For the past several decades, illegal immigration has been out of 
control. Millions of foreigners cross our borders illegally every year, 
and hundreds of thousands more violate the terms of their authorized 
temporary visits. Every legislative attempt to solve these problems has 
failed.
    The terrible events that unfolded on the morning of September 11, 
2001 served to painfully remind us that we are not immune from 
terrorist attacks on our home soil. Without a doubt, our immigration 
laws and policies allowed all 19 of the perpetrators of that crime to 
enter and remain in the United States. Today, many of the same flaws 
and gaps that allowed those attacks to occur have not been fixed. This 
is unfathomable. As the philosopher George Santayana wisely noted in 
1905, ``[t]hose who cannot remember the past are condemned to repeat 
it.''
    Although most politicians claim to support the strict enforcement 
of our immigration laws, many of their actions belie their rhetoric. A 
case in point is the Administration's budget request for Fiscal Year 
2005.
    Despite an overall increase of $3,600,000,000.00 for all DHS 
programs, the funding for one of its most important programs is being 
slashed significantly. The budget of the U.S. Border Patrol, the only 
agency that patrols the 6,000 miles between the land ports of entry 
along the borders between the United States and its two contiguous 
neighbors, Mexico and Canada, is slated for an actual decrease of 
$18,395,000.00. Another $64,162,000.00 would be reallocated for 
``sensors and surveillance technology'' and still another 
$10,000,000.00 reallocated for ``unmanned aerial vehicles.'' This de 
facto cut totals $92,557,000.00, or 5% of the Border Patrol's total 
budget of $1,856,244,000.00. Substituting detection technology for 
staffing and equipment designed for apprehending lawbreakers is unwise. 
While such technology can be useful in pinpointing the location of 
those who cross our borders illegally, it cannot catch a single 
violator. Only trained people can accomplish that task. Instead of 
augmenting the staffing of the Border Patrol, however, the 
Administration's budget proposal eliminates 19 agent positions. 
Inexplicably, all of the other occupations in the Department are slated 
to add positions or at least remain at the same level.
    The foregoing should not be construed as resistance to technology, 
but rather as a criticism of the theory that technology can replace 
human beings in labor-intensive tasks such as apprehending people who 
are determined to sneak into our country. While technologies such as 
remote cameras and sensors are undoubtedly useful in serving as extra 
eyes and ears, they can never replace the hands that catch violators. 
New technology should not come at the expense of staffing and other 
essential equipment. If such technology is deemed necessary, additional 
funding should be allocated for its acquisition.
    If our borders were under any semblance of control, this reduction 
and shifting of funding might make sense. With multitudes continuing to 
stream across our borders and elude apprehension on a daily basis, 
however, it is ridiculous. Until control of the borders is achieved, it 
is irresponsible to propose cutting the Border Patrol's budget and 
staffing. As long as our borders remain porous, they are just as open 
to terrorists and other criminals as they are to illegal aliens.
    About a decade ago, the Border Patrol began deploying many of its 
resources in highly-visible, static positions along the immediate 
border, generally in close proximity to major urban areas. The theory 
behind this new enforcement strategy was that large concentrations of 
personnel would discourage illegal aliens from crossing in those areas, 
and the terrain and remoteness of the remaining areas would accomplish 
the same goal. Experience has shown that the latter part of that 
assumption severely underestimated the desperation and determination of 
the people who cross our borders. In fact, there has been no reduction 
in the volume of illegal immigration. The folly of this strategy is 
magnified when viewed in light of the Department's new primary stated 
goal of securing the homeland and protecting it against conventional 
and unconventional attacks in the United States. It is inconceivable 
that terrorists and other criminals will be deterred at all by the 
increased presence of uniformed agents.
    In order to control illegal immigration, the employer sanctions 
laws need to be strengthened. The revised laws need to make it simple 
for employers to determine if a person is authorized to work in this 
country, difficult to circumvent, and onerous to violate. Although 
significant resources would initially be required to enforce these 
laws, the payoff would be well worth the effort and expense. Without 
the draw of jobs, illegal immigration would be reduced dramatically, 
allowing the Border Patrol and Inspections branches to concentrate on 
terrorists and other criminals. As it stands now, it is far too easy 
for these dangerous elements to slip in with the multitudes of illegal 
aliens.
    Amnesty for lawbreakers cannot be part of any law designed to 
discourage illegal immigration, as it has the exact opposite effect. 
Despite its claims to the contrary, the Administration's proposed 
guest-worker program would grant amnesty to millions of illegal aliens. 
\1\ The high levels of illegal immigration that exist today are 
directly attributable to the 1986 amnesty.
---------------------------------------------------------------------------
    \1\ According to Webster's dictionary, amnesty is ``the act of an 
authority (as a government) by which pardon is granted to a large group 
of individuals.''
---------------------------------------------------------------------------
    Given the Administration's support of amnesty for millions of 
illegal aliens, the proposed budget and personnel cuts for the Border 
Patrol should probably not come as a surprise to anyone. Nevertheless, 
they are disappointing and demoralizing to the front-line workers who 
risk their lives on a daily basis enforcing our Nation's immigration 
laws. The Administration's budget request also seeks significant 
funding to implement a new human resources system within the Department 
of Homeland Security. If the proposed system actually held out the 
promise of improving the existing system, it might be worth the 
increase sought by the Department. Unfortunately, instead of 
capitalizing on the opportunity to improve the current system, the 
ideologues in the Administration decided to combine the worst practices 
imaginable without regard to the consequences. The proposed pay system 
will significantly decrease average employee wages over time in order 
to balance the Department's budget and reward a few favored employees. 
The proposed disciplinary system will strip away meaningful appeal 
rights, allowing managers to unjustly punish employees for illegitimate 
reasons. The proposed labor-management relations system will deprive 
front-line employees of a voice in the decisions that affect them. 
Taken together, these draconian measures will discourage even the most 
patriotic individuals from serving in the Department.
    In conclusion, the American people, as well as the courageous men 
and women who risk their lives every day protecting our borders, 
deserve far better than the Administration's budget offers. The 
security of our Nation depends upon a comprehensive and effective 
immigration policy administered by a dedicated and highly-motivated 
workforce. The Administration's budget proposal not only fails to 
advance any of these critical goals, it represents a tremendous step 
backward.

    Mr. Hostettler. Thank you, Mr. Bonner.
    Mr. Danahey, the floor is yours.

 STATEMENT OF TIMOTHY J. DANAHEY, NATIONAL PRESIDENT, FEDERAL 
              LAW ENFORCEMENT OFFICERS ASSOCIATION

    Mr. Danahey. Thank you. Good morning, Mr. Chairman and 
distinguished Members of the Subcommittee. I am honored to 
testify on such an important and vital subject. I respectfully 
request my written submission be admitted to the record.
    Mr. Hostettler. Without objection.
    Mr. Danahey. The Federal Law Enforcement Officers 
Association--FLEOA--is a voluntary, nonpartisan professional 
association. FLEOA currently represents over 20,000 Federal law 
enforcement officers and is the largest association for Federal 
officers of its kind.
    In April 2003, FLEOA testified and stated it was our belief 
that the creation of Immigration and Customs Enforcement, ICE, 
within the Department of Homeland Security was exactly what was 
needed to address systemic problems of the former INS and its 
inability to effectively enforce the immigration laws. We 
appreciated the Committee seeking our input on concerns we wish 
to discuss in the spirit of assisting you to make the 
Department more efficient and effective.
    As a national officer of FLEOA, I represent many of the 
outstanding men and women who enforce our Nation's immigration 
laws. These men and women risk their lives every day in an ever 
increasingly dangerous line of work.
    I would like to highlight six points in my testimony.
    Pay parity. It is our belief that one of the biggest 
obstacles to effective immigration enforcement is the fact that 
ICE special agents are still being paid at very different 
levels, depending on which agency they migrated from. We 
recommend an immediate across-the-board increase for all legacy 
INS special agents as well as all agents currently assigned the 
1811 job classification at DHS.
    Interior enforcement. Currently, the number of aliens 
illegally in the United States is estimated at about 8.5 
million, or 28 percent of the foreign-born population in the 
United States. The annual increase in the undocumented 
population is in excess of 500,000 per year and could possibly 
be higher for recent years. The results from Census 2000 call 
into question some of the basic information regarding 
immigration which we relied upon in the past.
    Alien smuggling has become more sophisticated, complex, 
organized, and flexible. Thousands of aliens annually seek 
immigration benefits fraudulently.
    FLEOA testified in April 2003 that ICE will need to address 
problems concerning interior capacity issues in relation to US-
VISIT, Student Exchange and Visitor Information System, SEVIS, 
and other law enforcement agency referrals.
    FLEOA feels that ICE has begun to address these issues as 
part of its overall immigration enforcement strategy through 
the creation of ICE's Compliance Enforcement Unit and the 
strengthening of its Worksite Enforcement Units. ICE management 
has stated that the FY 2005 budget will allow them to more than 
double existing funds devoted to worksite enforcement and allow 
ICE to devote more special agents to these efforts.
    Detention and removal. FLEOA testified in April 2003 that 
the administrative mission relating to ICE's immigration 
enforcement such as Institutional Removal Program, IRP, and 
county jail cases be assigned to the Detention and Removal 
component. It is FLEOA's belief that ICE would be better off 
served by allowing ICE special agents to focus on the complex 
criminal matters as well as matters relating to national 
security.
    International affairs. In FLEOA's April 2003 testimony, we 
recommended the consolidation of DHS overseas operations. FLEOA 
stated that these functions should include oversight of visa 
issuance at overseas posts. Through the creation of ICE's 
Office of International Affairs, ICE now has the ability to 
provide visa security by working cooperatively with U.S. 
consular offices to review select visa applications.
    Immigration fraud. In previous testimony, FLEOA cited a 
2002 GAO report titled ``Immigration Benefit Fraud, Focused 
Approach Needed to Address Problems.'' The GAO noted that the 
former INS did not know the extent of the immigration benefit 
fraud program problem. Excuse me. The GAO reported that the 
former INS interior enforcement strategy failed to lay out a 
comprehensive plan to identify how components within and among 
service centers and district offices are to coordinate their 
immigration benefit fraud investigations.
    FLEOA notes that ICE has created Benefit Fraud Units in 
Vermont, Texas, and California as a means of identifying and 
targeting fraud.
    Alien smuggling. FLEOA notes that ICE has failed to 
indicate a budget increase in support of efforts to investigate 
alien-smuggling and human-trafficking organizations. Currently, 
there is no stated mission involving the targeting of human-
trafficking and alien-smuggling organizations within ICE.
    We recommend that by making human-trafficking and alien-
smuggling investigations one of ICE's primary enforcement 
functions, there exists a need to immediately fund and staff 
this component to levels to allow it to be effective.
    In summary, we note that many of ICE's initiatives were 
suggested during FLEOA's April 2003 testimony before this 
Committee. We will never restore domestic tranquility or 
integrity into the legal immigration process until we begin to 
establish meaningful rather than token control over our borders 
and the interior of the United States through comprehensive 
immigration law enforcement.
    On behalf of the Federal Law Enforcement Officers 
Association and the many dedicated men and women who risk their 
lives enforcing our immigration laws, I appreciate your time 
and attention and the opportunity to share our views. I will be 
happy to answer any questions you may have.
    Thank you.
    [The prepared statement of Mr. Danahey follows:]
                Prepared Statement of Timothy J. Danahey
    Good morning, Mr. Chairman and distinguished Members of the 
Subcommittee. I am honored to testify on such an important and vital 
subject. I respectfully request my written submission be admitted to 
the record.
    The Federal Law Enforcement Officers Association--FLEOA, is a 
voluntary, non-partisan professional association. FLEOA currently 
represents over 20,000 federal law enforcement officers and is the 
largest association for federal officers of its kind. Several years 
ago, FLEOA joined with all of the major state and local national police 
associations to form the Law Enforcement Steering Committee. The Law 
Enforcement Steering Committee includes the following prominent and 
important organizations: Fraternal Order of Police, National Troopers 
Coalition, Major Cities Chiefs of Police, Police Executive Research 
Forum, the National Association of Police Organizations, National 
Organization of Blacks in Law Enforcement, the International 
Brotherhood of Police Organizations and the Police Foundation. In 
becoming a part of this group, federal agents were able to add their 
voices to those of the over half a million state and local officers 
already commenting on the issues that our Association considers to be 
of greatest importance. I tell you today, as FLEOA has told our 
membership and the Law Enforcement Steering Committee for the past 
several years that the continuing revitalization of immigration law 
enforcement is one of our highest priorities. In April 2003, FLEOA 
testified before this committee and stated that it was our belief that 
the creation of Immigration & Customs Enforcement (ICE) within the 
Department of Homeland Security was exactly what was needed to address 
systemic problems of the former INS and its inability to effectively 
enforce the immigration laws. We appreciated the committee seeking our 
input on concerns we wish to discuss in the spirit of assisting you to 
make the Department more efficient and effective.
    As a National Officer of FLEOA, I represent many of the outstanding 
men and women who enforce our Nation's immigration laws. These men and 
women risk their lives every day in an ever-increasingly dangerous line 
of work.
    In our review of the President's Fiscal Year 2005 Budget regarding 
funds requested for immigration enforcement, we note that ICE has 
requested $4.0 billion for the FY 2005 budget, $302 million more than 
FY 2004, representing an increase of 8 percent. The requested increase 
includes $186 million for ICE to fund improvements in immigration 
enforcement both domestically and overseas, and approximately $100 
million to fund the detention and removal of illegal aliens. We note 
that many of ICE's initiatives were suggested during FLEOA's April, 
2003 testimony before this committee.
                               pay parity
    FLEOA supports ICE's budget request, although we note that its 
ability to effectively enforce our Nation's immigration laws is 
contingent upon ICE's ability to immediately address issues regarding 
pay equity within its Special Agent ranks. It is our belief that the 
one of the biggest obstacles to effective immigration enforcement is 
the fact that ICE Special Agents are still being paid at very different 
levels; depending on which agency, they migrated. The problems 
associated with this are self-evident. We recommend an immediate across 
the board increase for all legacy INS Special Agents as well as all 
agents currently assigned the 1811 job classification within the DHS.
    While ICE represents a significant advancement in the protection of 
the homeland, legacy INS Special Agents have been left behind when it 
comes to the issue of pay parity. In recent years, legacy Customs 
Special Agents had their positions upgraded to allow for progression to 
a GS-13 pay grade, while INS Special Agents could only progress to the 
GS-12 pay grade, a difference of several thousand dollars. With the 
consolidation of the two agencies under ICE, the practice of receiving 
less pay for the same position in the same agency has become a serious 
issue. FLEOA notes that legacy INS Agents have proved invaluable in the 
fight against terrorism, and will continue to do so under ICE.
    In the nearly one year since the creation of ICE, legacy INS 
Special Agents have been assured that the issue of pay parity is a top 
priority. However, in recent months it has become clear that there is 
neither the willpower nor apparently the resources to accomplish this 
important task. Meanwhile, ICE continues to hire new Agents, all of 
whom can progress to the GS-13 pay grade. This situation severely 
undermines morale. Far from being an issue of money, this is an issue 
of morale and equity. All ICE Special Agents bear the same risks in 
protecting the homeland.
    ICE will likely implement a new pay-banding compensation system in 
the near future, abolishing the former pay-grade arrangement. This 
leaves legacy INS Special Agents vulnerable to perpetually earning less 
than former Customs Agents. With less than 2000 Special Agents 
nationwide, the cost is minimal.
                          interior enforcement
    Currently the number of aliens illegally in the United States is 
estimated at about 8.5 million or 28% of the foreign-born population in 
the United States. The annual increase in the undocumented population 
is in excess of 500,000 per year and could possibly be higher for 
recent years. The results from Census 2000 call into question some of 
the basic information regarding immigration which we relied upon in the 
past. The surprising figures from the Census suggest strongly that 
immigration levels, particularly undocumented and temporary 
immigration, are substantially higher than most had suspected.
    Through its FY 2005 budget request, ICE has shown a commitment to 
the ``base'' Immigration Mission--starting with the development of a 
meaningful interior enforcement strategy. FLEOA notes that ICE has 
began to address concerns raised in a 2002 GAO Report titled 
``Immigration Enforcement, Challenges to Implementing the INS Interior 
Enforcement Strategy''. In this report, the GAO noted that having an 
effective interior enforcement strategy is an essential complement to 
having an effective border strategy. The GAO noted that the former INS 
faced numerous and daunting enforcement issues such as the potential 
pool of removable criminal aliens and fugitives that number in the 
hundreds of thousands. The number of individuals smuggled into the 
United States has increased and alien smuggling has become more 
sophisticated, complex, organized and flexible. Thousands of aliens 
annually seek immigration benefits fraudulently. The GAO concluded that 
the former INS' tasks with regard to interior enforcement are 
considerable given the nature, scope, and magnitude of illegal 
activity.
    FLEOA testified in April 2003, that ICE will need to address 
problems concerning interior capacity issues in relation to US-VISIT, 
Student Exchange and Visitor Information System (SEVIS) and other law 
enforcement agency referrals. FLEOA testified that budget formulation, 
budget execution, resource deployment, personnel staffing, position 
management and position classification must address the lack of Special 
Agents, Deportation Officers, and other clerical staff actually in 
place to address ``leads'' from US-VISIT and SEVIS, as well as from 
sources to include federal, state, and local law enforcement agencies. 
Systems such as US-VISIT and SEVIS will be rendered toothless if ICE 
doesn't have the interior enforcement resources to meaningfully deal 
with information on overstays, status violators and other law 
enforcement referrals.
    FLEOA feels that ICE has began to address these issues as part of 
its overall immigration enforcement strategy through the creation of 
ICE's Compliance Enforcement Unit and the strengthening of its Worksite 
Enforcement Units. FLEOA feels that ICE's FY 2005 budget request, as 
well as the request for an additional $23 million for enhanced worksite 
enforcement is a positive first step in creating the infrastructure 
required to investigate and resolve violator leads. ICE management has 
stated that the FY 2005 budget will allow them to more than double 
existing funds devoted to worksite enforcement and allow ICE to devote 
more Special Agents to these efforts.
                         detention and removal
    FLEOA testified in April 2003, that the administrative mission 
relating to ICE's immigration enforcement such as Institutional Removal 
Program (IRP) and county jail cases be assigned to the Detention and 
Removal component. It is FLEOA's belief that ICE would be better served 
by allowing ICE Special Agents to focus on the complex criminal matters 
as well as matters relating to national security. To achieve this goal, 
it is essential that ICE Special Agents be relieved of all 
administrative jail duties.
    To this end, FLEOA supports ICE's request of $30 million to 
transfer the IRP duties currently being performed by Special Agents to 
Immigration Enforcement Agents within the Detention and Removal 
Program. ICE realizes that this shift of responsibilities will allow 
ICE to assign Special Agents to investigations that are more complex.
    Our members in the field have continuously stated that one of the 
greatest problems in enforcing our Nations Immigration Law is in the 
area of detention and removal. Large amounts of illegal aliens are 
released in some areas (as many as fifty a day) before ever seeing an 
Immigration Judge. Lack of bed space is always cited as the reason. 
Many of these illegal aliens are released despite the fact that many do 
not have a valid, verifiable address. FLEOA supports the FY 2005 budget 
request for Detention and Removal Initiatives.
                         international affairs
    In FLEOA's April 2003 testimony, we recommended the consolidation 
of DHS overseas operations. FLEOA stated that these functions should 
include oversight of visa issuance at overseas posts. ICE's FY 2005 
budget request of $14 million includes an increase of $10 million to 
support a new Visa Security Unit, which was established pursuant to 
Section 428 of the Homeland Security Act. Through the creation of ICE's 
Office of International Affairs, ICE now has the ability to provide 
visa security by working cooperatively with U.S. consular offices to 
review select visa applications.
                           immigration fraud
    In its April 2003 testimony, FLEOA cited a 2002 GAO report titled 
``Immigration Benefit Fraud, Focused Approach Needed to Address 
Problems''. The GAO noted that the former INS did not know the extent 
of the immigration benefit fraud problem. The GAO reported that the 
former INS interior enforcement strategy failed to lay out a 
comprehensive plan to identify how components within and among service 
centers and district offices are to coordinate their immigration 
benefit fraud investigations.
    FLEOA notes that ICE has created Benefit Fraud Units in Vermont, 
Texas and California as a means of identifying and targeting fraud. 
FLEOA supports ICE's request for $25 million in FY 2005 budget in an 
effort to ``provide stable funding to ICE's benefits fraud and assist 
in restoring integrity in the immigration application process''.
                            alien smuggling
    FLEOA notes that ICE has failed to indicate a budget increase in 
support of efforts to investigate alien smuggling and human trafficking 
organizations. In its April 2003 testimony, FLEOA cited a 2002 GAO 
Report on the former INS, in which the GAO was very critical of the INS 
ability to investigate alien smuggling groups. At that time, FLEOA 
recommended that ICE be the central investigative agency for all human 
trafficking and alien smuggling investigations. Currently, there is no 
stated mission involving the targeting of human trafficking and alien 
smuggling organizations within ICE.
    We recommend that by making human trafficking and alien smuggling 
investigations one of ICE's primary enforcement functions, there exist 
a need to immediately fund and staff this component to levels that 
allow it to be effective. Research and experience has led us to believe 
that the most effective means to enforce laws relating to human 
trafficking and alien smuggling organizations would be to centralize 
all human trafficking and alien smuggling investigations into one 
agency with adequate staffing, funding and a strong headquarters 
component.
    Congress and the Administration must begin to strike a balance 
between enforcement on our borders and enforcement in the interior. 
Word of mouth travels rapidly back to the source countries that one 
must merely make it across the border in order to attain this new form 
of unsanctioned amnesty. In short, we will never restore domestic 
tranquility or integrity into the legal immigration process until we 
begin to establish meaningful rather than token control over our 
borders and the interior of the United States through comprehensive 
immigration law enforcement.
    On behalf of the Federal Law Enforcement Officers Association, and 
the many dedicated men and women who risk their lives enforcing our 
immigration laws, I appreciate your time and attention, and the 
opportunity to share our views. I will be happy to answer any questions 
you may have. Thank you.

    Mr. Hostettler. Thank you, Mr. Danahey.
    The floor now recognizes--the Chair now recognizes the 
gentleman, Mr. Cutler.

                STATEMENT OF MICHAEL W. CUTLER, 
                    FORMER INS SPECIAL AGENT

    Mr. Cutler. Thank you. Good morning.
    Chairman Hostettler, distinguished Members of the 
Committee, I want to start out by commending Chairman 
Hostettler's courageous leadership in the vital area of 
immigration law enforcement. It is my belief that nothing will 
have a greater impact on the future of our Nation than the way 
in which we handle this critical issue. Consequently, I am 
honored at having been invited to participate in this hearing.
    I am a New Yorker. On September 11, 2001, ashes from the 
conflagration at the World Trade Center fell on my house. The 
sight of the location we used to refer to as ``the World Trade 
Center'' that we now call ``Ground Zero'' continues to trigger 
in me and my fellow New Yorkers a profound sense of loss and 
grief and anger.
    We are constantly reminded that we are in a state of war. 
Many of our Nation's valiant men and women, many of them 
scarcely old enough to vote, go in harm's way as members of our 
armed services to help wage a war on terrorism, some of whom 
return home seriously injured, or worse. I laud their bravery. 
The war effort is also costly in financial terms as well as 
human terms. But we must match the efforts of our soldiers 
fighting in distant lands with a commensurate effort within our 
own borders. The men and women who are responsible for 
enforcing our immigration laws need to have the resources to do 
an effective job.
    Of late, we have heard some people question if the 
immigration laws can be enforced. They say that we have tried 
to enforce the laws, but even with the additional Border Patrol 
agents now standing watch at our Nation's borders, we still 
have many millions of illegal aliens living and working in the 
United States today. I would say to them that we have, to date, 
only been given the illusion of making a serious effort to 
enforce our immigration laws.
    Before the merger of INS and Customs, there were some 2,000 
INS special agents enforcing the immigration laws within the 
interior of the United States. Let us put this in perspective. 
New York has some 8 million residents policed by some 38,000 
police officers. There are perhaps one and half times as many 
illegal aliens in the United States today as there are 
residents in the City of New York. Clearly, many more special 
agents are needed to handle the issue of interior enforcement, 
especially in view of the fact that, according to recently 
published statistics, there are some 400,000 aliens still 
living within the United States borders that have been ordered 
deported. And from what I have read, some 80,000 of these 
aliens have serious criminal histories. How can we expect so 
few agents to effectively deal with so vast a problem?
    While only a small percentage of aliens become involved in 
serious criminal activity, a large percentage of our criminal 
population is indeed comprised of aliens. In addition to 
terrorists, our Nation is plagued by criminal aliens who are 
involved in narcotics trafficking, ethnic organized crime 
organizations, and other areas of criminal activities whose 
actions result in many more lives being lost each and every 
year than were lost in the horrific attacks of September 11. 
Half of the illegal aliens in the United States did not succeed 
in entering the United States by running the border but, 
rather, entered through a port of entry and then, in one way or 
another, violated the terms of their admission. This was, I 
would remind you, the way that the 19 terrorists who attacked 
our Nation entered our country. If we want to reduce the number 
of illegal aliens in our country and secure our Nation against 
the criminal intentions of terrorists and other criminals, we 
need to change the way we do business. It will require the 
expenditure of additional funds, but to not take appropriate 
action will ultimately cost our country far more. Law 
enforcement is labor-intensive work, and we desperately need 
many more special agents to enforce the immigration laws from 
within the interior.
    We need many more Border Patrol agents to properly patrol 
the thousands of miles of borders. As I am sure Mr. Bonner will 
attest, the job of a Border Patrol agent is frustrating, and 
our agents are put in harm's way often, only to arrest 
recidivists repeatedly.
    We also need many more adjudications officers and 
immigration inspectors to do a more effective job of ensuring 
that applications are correctly adjudicated in a timely manner. 
I have been told that each adjudications officer is expected to 
process some 40 applications for benefits each and every day in 
order to get a passing grade on their evaluations. I have also 
been told that the average naturalization examiner is expected 
to process between 20 to 25 applications for United States 
citizenship each and every day. We have so truncated the 
process that applicants for citizenship are no longer required 
to provide witnesses to attest to the fact that they possess 
good moral character, nor are background investigations 
conducted in support of applications for United States 
citizenship. Additionally, there is no routine effort to 
conduct field investigations in conjunction with applications 
for resident alien status to be conferred upon aliens. Is it 
any wonder that we often find the fraud rates are as high as 
they are in the benefits program? I would recommend that 
perhaps retired INS annuitants or retired law enforcement 
officers from other agencies such as local police departments 
should be hired to act as compliance officers to lend integrity 
to this critical process.
    Another issue that we need to consider is the fact that 
there are four immigration service centers that process some 6 
million applications for benefits each year. Each center has 
employees known as intelligence research specialists. Their job 
is to screen the applications for fraud. There are fewer than 
ten of these employees at each center.
    There is also supposed to be 128 special agents assigned to 
work in conjunction with these service centers. I've been told 
that sparse as that number of agents may seem, in reality only 
30 or 40 special agents are actually working full-time in this 
vital mission in the entire United States. The result is that 
fraud is running rampant. To cite an example, the State of 
Florida will issue driver's licenses to any aliens who can show 
proof that they have filed an application with immigration 
authorities to enable them to remain in the United States. The 
application need not be approved to qualify for the license to 
be issued, only that it is pending. As a result, many aliens 
working through immigration consultants and lawyers who 
specialize in immigration law have filed applications for 
authorizations to accept employment in conjunction with an 
application for political asylum. In reality, the application 
for political asylum is never filed, but the fee is waived for 
such an application and the receipt for the application 
satisfies the Florida requirement for the issuance of a 
driver's license. The cost of processing the spurious 
application runs at least $200 per application, and it is never 
recouped by the Government.
    According to what I have been told, some 17,000 fraudulent 
applications have been identified. The aliens who made these 
applications have apparently given their real addresses on 
their applications, but ICE does not have the resources to go 
out and arrest these people, a number of whom are citizens of 
Middle Eastern countries and are consequently of potential 
national security concern. Florida is only one State of many 
that is experiencing this problem.
    Immigration inspectors are expected to determine the 
admissibility of an alien applying for admission to the United 
States in approximately 1 minute. We have in place a visa 
waiver program which means that we do not have the ability to 
effectively screen aliens seeking admission to the United 
States from the 28 visa waiver countries.
    Consider that Richard Reid, the so-called ``shoe bomber,'' 
was traveling on a British passport and would have been 
exempted from the requirement of obtaining a visa before 
applying for entry into the United States. If citizens of the 
United States can be inconvenienced by being thoroughly 
searched before they board airplanes, if they can be made to 
wait on long lines of traffic before crossing bridges and 
tunnels at elevated threat level times, then why aren't we 
requiring that aliens who have no inherent right to be here be 
more effectively screened in the interest of national security? 
The effective screening of alien visitors would, in my humble 
opinion, decrease the number of aliens who ultimately violate 
the terms of their admission and potentially threaten our well-
being and security.
    For years, the former INS was plagued by an incredibly high 
attrition rate. Funds that might have been put to far better 
use were squandered on a veritable revolving door in which the 
agency continually recruited and trained qualified young men 
and women who came to the INS highly motivated to serve their 
country, but who quickly became disillusioned by the inept 
leadership of the agency and resigned so that they could pursue 
satisfying careers at other agencies. No one at the INS seemed 
to care that so many talents and motivated employees were 
fleeing to other agencies. If we are to run a more cost-
effective agency, management at ICE, CIS, and CBP must be made 
accountable for the attrition rates of the respective officers 
to which they are assigned. This would save significant money 
and result in a more effective and motivated workforce.
    Law enforcement relies on the principle of deterrence to 
provide the most bang for the buck. The abysmal reputation that 
our Nation has gained over the past several decades in terms of 
our ability and determination to enforce the immigration laws 
deters few if any aliens who would come here, either in 
violation of our laws or with the intention of violating our 
laws after they enter our country. It is said you only get one 
opportunity to make a first impression. The way that we enforce 
and administer the immigration laws serves as the first 
impression many people throughout the world have of our 
Nation's resolve to enforce our laws.
    We can do better. We must do better.
    I look forward to your questions.
    [The prepared statement of Mr. Cutler follows:]
                Prepared Statement of Michael W. Cutler
    Chairman Hostettler, Ranking Member Jackson Lee, distinguished 
members of the committee, ladies and gentlemen. I want out to start our 
by commending Chairman Hostettler's courageous leadership in the vital 
area of immigration law enforcement. It is my belief that nothing will 
have a greater impact on the future of our nation than the way in which 
we handle this critical issue; consequently I am honored at having been 
invited to participate in this hearing.
    The issue of immigration law enforcement is one that I have been 
involved with for some 30 years, the length of my tenure at the former 
INS. I began my career an immigration inspector, was detailed as an 
immigration examiner--now known as an adjudications officer and then, 
in 1975 I became a Special Agent.
    I am a New Yorker. On September 11, 2001, ashes from the 
conflagration at the World Trade Center fell on my house. I have a 
vivid recollection of the many yellow ribbons that were tied to the 
trees in front of many of my neighbors' houses in the days that 
followed the worst terrorist attack ever committed on our nation. I 
also vividly recall the numerous cars that drove by bearing the photos 
of so many of the victims of the Trade Center attack with variations of 
the same plaintive question written below or above the photographs, 
``Have you seen my mother?'' ``Have you seen my son?'' ``Have you seen 
my wife?'' ``Have you seen my brother?'' The people who tied the 
ribbons on the trees and pasted the photos on the windows of their cars 
were hoping and praying to one day find their missing loved ones. We 
know, of course, that their hopes were not realized.
    The sights I have mentioned and the smells of the fires that burned 
for quite some time after the attack will never leave my memory--they 
will never leave my heart. The look of rage, sadness, fear and pain 
etched on my neighbors' faces will stay with me for the rest of my 
life. The sight of the location we used to refer to as the World Trade 
Center that we now call, ``Ground Zero'' continues to trigger in me, 
and my fellow New Yorkers, a profound sense of loss and grief and 
anger.
    We are constantly reminded that we are in a state of war. Many of 
our nation's valiant men and women, many of them scarcely old enough to 
vote, go in harm's way as members of our armed services, to help wage a 
war on terrorism, some of whom return home seriously injured or worse. 
I laud their bravery. The war effort is also costly in financial terms 
as well as human terms. But we must match the efforts of our soldiers 
fighting in distant lands with a commensurate effort within our own 
borders. The men and women who are responsible for enforcing our 
immigration laws need to have the resources to do an effective job.
    Of late we have heard some people question if the immigration laws 
can be enforced. They say that we have tried to enforce the laws but 
even with the additional Border Patrol agents now standing watch on our 
nation's borders we still have many millions of illegal aliens living 
and working in the United States today. I would say to them that we 
have, to date, only been given the illusion of making a serious effort 
at enforcing our immigration laws.
    Before the merger of the Immigration and Naturalization Service 
with the U.S. Customs Service there were some 2,000 INS Special Agents 
enforcing the immigration laws within the interior of the United 
States. Let us put this in perspective. New York has some 8 million 
residents. These residents are confined to the five boroughs that 
comprise the City of New York. Our mayor has said that New York is the 
safest big city in the United States if not the entire world. I believe 
that he is right. The reason we have a safe big city is that those 8 
million residents are policed by a police department that, from what I 
have read, has some 38,000 police officers. The United States is 
estimated to have anywhere from 8 million to 14 million illegal aliens 
who are scattered across a third of the North American Continent and 
they have been policed by some 2,000 special agents! What do you 
suppose would happen to New York's crime rate if 36,000 members of the 
NYPD resigned tomorrow? Perhaps you now understand why we have the 
magnitude of the problem we have, where immigration law enforcement is 
concerned. According to recently published statistics, there are some 
400,000 aliens still living and working within our nation's borders 
even though they have been ordered deported. From what I have read, 
some 80,000 of these aliens have serious criminal histories. How can we 
expect so few agents to effectively deal with so vast a problem?
    While only a small percentage of aliens become involved in serious 
criminal activity, a large percentage of our criminal population is, 
indeed, comprised of aliens. In addition to terrorists, our nation is 
plagued by criminal aliens who are involved in narcotics trafficking, 
ethnic organized crime organizations, and other areas of criminal 
activities whose actions result in many more lives being lost each and 
every year than were lost in the horrific attacks of September 11. Half 
of the illegal aliens in the United States did not succeed in entering 
the United States by running the border but rather entered through a 
port of entry and then, in one way or another, violated the terms of 
their admission. This was, I would remind you, the way that the 19 
terrorists who attacked our nation entered our country. If we want to 
reduce the numbers of illegal aliens in our country and secure our 
nation against the criminal intentions of terrorists and other 
criminals, we need to change the way we do business. It will require 
the expenditure of additional funds, but to not take the appropriate 
actions will, ultimately, cost our country far more. Law enforcement is 
labor-intensive work and we desperately need many more special agents 
to enforce the immigration laws from within the interior.
    We need many more Border Patrol agents to properly patrol the 
thousands of miles of borders. As I am sure Mr. Bonner will attest, the 
job of a Border Patrol Agent is frustrating, and that our agents are 
put in harm's way often, only to arrest recidivists repeatedly.
    We also need many more adjudications officers and immigration 
inspectors to do a more effective job of ensuring that applications are 
correctly adjudicated in a timely manner. I have been told that each 
adjudications officer is expected to process some 40 applications for 
benefits each and every day to get a passing grade on their 
evaluations. I have also been told that the average naturalization 
examiner is expected to process between 20 to 25 applications for 
United States citizenship each and every day. We have so truncated the 
process that applicants for United States citizenship are no longer 
required to provide two witnesses to attest to the fact that they 
possess good moral character. Nor are background investigations 
conducted in support of applications for United States citizenship. 
Additionally, there is no routine effort to conduct field 
investigations in conjunction with applications for the conferring of 
Lawfully Admitted, Permanent Resident status on aliens. Is it any 
wonder that we often find that the fraud rates are as high as they are 
in the benefits program? I would recommend that perhaps retired INS 
annuitants or retired law enforcement officers from other agencies such 
as local police departments should be hired to act as compliance 
officers to lend integrity to this critical process.
    Immigration inspectors are expected to determine the admissibility 
of an alien applying for admission to the United States in 
approximately one minute. We have in place a visa waiver program, which 
means that we do not have the ability to effectively screen aliens 
seeking admission to the United States from the 28 visa waiver 
countries.
    Consider that Richard Reid, the so-called ``shoe bomber'' was 
traveling on a British passport and would have been exempted from the 
requirement of obtaining a visa before applying for entry into the 
United States. If citizens of the United States can be inconvenienced 
by being thoroughly searched before they board airplanes, if they can 
be made to wait on long lines of traffic before crossing bridges and 
tunnels at times of elevated threat levels, then why aren't we 
requiring that aliens, who have no inherent right to be here, be more 
effectively screened in the interest of national security? The 
effective screening of alien visitors would, in my humble opinion, 
decrease the number of aliens who ultimately violate the terms of their 
admission and potentially threaten our well-being and security.
    For years the former INS was plagued by an incredibly high 
attrition rate. Funds that might have been put to far better use were 
squandered on a veritable revolving door in which the agency 
continually recruited and trained qualified young men and women who 
came to the INS highly motivated to serve their country but who quickly 
became disillusioned by the inept leadership of the agency and resigned 
so that they could pursue satisfying careers at other agencies. No one 
at the INS seemed to care that so many talented and motivated employees 
were fleeing to other agencies. If we are to run a more cost effective 
agency, management at ICE, CIS and CBP must be made accountable for the 
attrition rate of the respective offices to which they are assigned. 
This would save significant money and result in a more effective and 
motivated workforce.
    Law enforcement relies on the principle of deterrence to provide 
the most ``bang for the buck.'' The abysmal reputation that our nation 
has gained over the past several decades in terms of our ability and 
determination to enforce the immigration laws deters few if any aliens 
who would come here, either in violation of our laws or with the 
intention of violating our laws after they enter our country. It is 
said you get only one opportunity to make a first impression. The way 
that we enforce and administer the immigration laws serves as the first 
impression many people throughout the world have of our nation's 
resolve to enforce our laws.
    We must do better.
    I welcome your questions.

    Mr. Hostettler. Thank you, Mr. Cutler.
    The Chair now recognizes Dr. Papademetriou.

 STATEMENT OF DEMETRIOS G. PAPADEMETRIOU, PRESIDENT, MIGRATION 
                        POLICY INSTITUTE

    Mr. Papademetriou. Thank you, Mr. Chairman, Ranking Member 
Jackson Lee, Members of the Subcommittee. Good morning. I am 
delighted to be here.
    I will take or I have taken already a somewhat different 
tack in my testimony. I am focusing on the services side. I 
anticipated that everyone else would do exactly what it is that 
they're doing.
    Roughly speaking, the resources for the enforcement side go 
up by about $500 million. The resources on the service side go 
up a nominal $68 million. But, in reality, in terms of 
governmental commitments, they go down by a larger amount than 
that.
    I do not know what is the proper level of enforcement 
resources that the country, our country, any country, should 
put into the function itself. Half a billion dollars may or may 
not be enough. I'm not going to take issue on this, with the 
exception that I have been in this business for about 30 years. 
Many of you have also done this for quite a while. I have never 
heard the Immigration Service, the enforcement function, or, 
for that matter, any other police or enforcement agency ever 
claim that they have had just the right amount of resources to 
do the job that they need to do. And I think it is important 
that we keep that in mind as we throw more and more resources 
at that part of the agency.
    Now, with regard to the services, I'm focusing on the 
adjudication backlogs. We all know that in immigration we have 
all sorts of backlogs. Sometimes we focus on the backlogs of 
people who have a theoretical right to come to the United 
States but have to wait outside until they get a visa. And 
those backlogs are 5 million people plus. What I'm focusing on 
today is in the 6.2 million plus people who are waiting for 
their adjudication, for their petition to actually be 
adjudicated by the services part of the Department, CIS. And if 
I might perhaps ask for my first chart to go up on the screen--
that's what I understand happens up there. This is, you know, 
too sophisticated for me.
    But on the principle that a picture is worth in this case 
about 10 million words, if we can spend just about a minute on 
that particular chart, and you will see the history of the 
investments that our country has been making on the services 
part of the immigration function going back 20, 25 years, but 
the most important, the most interesting stuff begins to happen 
at about 1994. That's when basically applications--that's sort 
of the dark blue line--begin to increase. As you may recall--
Mr. Smith certainly does--this was the time when we were 
talking a lot about immigrants and what it is that we're going 
to do about them and what kind of new requirements we're going 
to impose on them, et cetera, et cetera. And that conversation 
culminated in three pieces of legislation touching on 
immigrants, some more directly, some less directly, all of them 
in 1996.
    In the sharp rise of the red line on your chart, what you 
see is the Clinton administration effort in 1995 and 1996, 
something that became a major political debacle, to naturalize 
many more people than we had been doing up to that time. And 
you see the sharp increase in naturalizations from 1995 and 
1996.
    Then, what you see between 1996 and 1998, you see a 
continuous increase in received applications but a dramatic 
drop in completed applications. And as you may recall, that was 
the time we tried to re-engineer, for God only knows which 
time--third, fifth time--the immigration services function. It 
took us a couple of years to re-engineer it. Then indeed the 
re-engineering may or may not have been successful. The only 
thing I know is that the completed--the number of completed 
applications started to rise again from about 1998 to the year 
2001, 2002, after 9/11, and then you see a dramatic drop in all 
services.
    So the next three--and please do not put any more charts up 
there. You can sort of look at them at your leisure. The next 
three tables or charts are basically trying to peel away this 
particular onion. In the second chart, I'm taking 
naturalization out of the overall picture. In the following 
one, I'm focusing just on naturalization. And in the last 
chart, I'm focusing just on green card adjudications.
    What we have at the end of last year--and I'm sure that you 
can ask GAO or the immigration--I guess CIS, to give you the 
exact figure. What we have is a backlog in green card 
adjudications that is now probably about 1.3 or 1.4 million, 
and naturalization that is higher than that, naturalization 
backlogs are higher than that. And, of course, probably another 
three, three and a half, four million applications for all 
sorts of other immigration benefits.
    And I ask myself: Is this good for us? And you will have 
the answer here in perhaps too many words in my text. And I 
would like to make just one more point because this is an 
important point, not only for this Subcommittee but for 
thinking about immigration or thinking smartly about 
immigration.
    We need to understand that our failures--it's not only that 
our failures in enforcement that increase the number of 
illegal--the size of illegal immigration in the United States, 
but it is also our failure in adjudications.
    The sad thing is that failures in adjudications are 
actually perfectly avoidable. I cannot tell you--the GAO 
perhaps could--what is the actual contribution or make an 
estimate of the contribution of these delays in adjudications 
to the illegal immigration--immigrant population in the United 
States. I suspect it's going to be hundreds of thousands. It 
may be much more than that. But this is something that the 
Subcommittee should consider.
    I make five recommendations. Three of them in a sense deal 
with better management. The last two deal primarily with doing 
things differently.
    First, the Subcommittee might make certain through your 
oversight powers that the CIS is held equally accountable for 
its mandated responsibilities as the immigration enforcement 
bureaus are.
    Second, you might convey to the managers of CIS, and 
indirectly to the President, that they will be held to their 
commitments about better and more timely services and that 
excuses for failing to meet self-imposed targets and deadlines 
will be rejected.
    Third, that this Subcommittee, the full Committee, the 
Congress, should accept at least co-responsibility with the 
Administration for reducing and eliminating adjudication 
backlogs because, (a) they keep immediate families apart, (b) 
they induce employers to break the law, and, more generally, 
(c) they undermine respect for and the integrity of the 
immigration system itself.
    We don't fail in that function only by not enforcing the 
law. We fail by not delivering on promises that we also make.
    The fourth recommendation, I think you should put, this 
Subcommittee, Congress, should put its shoulders behind better 
services in the immigration area by working with your 
colleagues in the relevant Appropriations Committees to 
obligate the proper levels of public funding resources to 
immigration services. The objective here will be to eliminate 
backlogs as quickly as possible. Simultaneously, you should 
make it absolutely clear that you will not tolerate standards 
of excellence for that function that are less than equal to 
those you regularly demand from the DHS' enforcement bureaus.
    And, finally, you might want to begin to consider that 
maybe, just maybe, the CIS is misplaced within a bureaucracy 
whose mandate and measurements of success are about hard-
headed, and necessary--it's not in my testimony, but I think I 
have made it clear in my remarks--homeland security functions. 
Put differently, and looking once more at the four charts and 
the inexorable falling behind of immigration services for the 
last decade or so, should we not be thinking more about whether 
the CIS contributes anything unique to homeland security and 
the cost at which it does so?
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Papademetriou follows:]
            Prepared Statement of Demetrios G. Papademetriou
                              introduction
    Chairman Hostettler, Ranking Member Jackson Lee, Members of the 
Subcommittee.
    Thank you for the invitation to appear before you to comment on the 
President's FY2005 Budget request for the immigration functions of the 
Department of Homeland Security (DHS).
    The facts about the President's request are well known to you, 
especially since you have already heard from Government witnesses about 
them at an earlier hearing.
    In outline form, the President proposes to increase funding for the 
Department's two ``enforcement'' bureaus--Customs and Border Protection 
(CBP) and Immigration and Customs Enforcement (ICE)--by $538 million. 
At the same time, funding for the services/benefits part of DHS--
Citizenship and Immigrant Services (CIS) \1\--would increase by $58 
million. Even this increase, however, is deceptive in that in terms of 
appropriated funding, adjudications suffer an $11 million cut and 
overall funding for the Bureau is cut by $85 million. As Ms. Jackson 
Lee noted in her Statement of February 25, ``. . . for every additional 
dollar the Administration is requesting for the benefits bureau, it is 
requesting 9 dollars for the enforcement bureaus.''
---------------------------------------------------------------------------
    \1\ CIS is responsible for adjudicating petitions for 
naturalization, permanent residence, refugee and asylum status, and 
non-immigrant entries.
---------------------------------------------------------------------------
    Perhaps this is as it should be--were it not for two important and 
interrelated factors.
    The first is the fact that CIS is falling ever further behind in 
discharging its principal responsibilities to US citizens and US 
residents, namely, the adjudication of their petitions for immigration 
benefits for which they have already paid the requisite fees. Adding 
insult to injury, petitioners, who have been waiting for several years 
for the immigration services' division to ``get its act together,'' are 
about to be required to pay more, retroactively, for a service they 
will receive at some distant time in the future.
    The second factor relates to the relationship between the 
Government's abject failure in this elementary good governance function 
and illegal immigration.
    I will take each issue in sequence.
        immigration adjudication backlogs and their consequences
    Benefit adjudication backlogs, on a steep rise since the mid-1990s, 
have spiraled seemingly out of control in the last two years. CIS 
Director Aguirre has acknowledged as much before this Subcommittee and 
has offered both his explanations for this development and another 
iteration of a ``plan'' for performing magic by the end of FY2006.
    And in fact, part of Director Aguirre's explanation is quite 
legitimate. Delivering immigration benefits must indeed be accurate, 
security considerations must be satisfied to virtual certainty, and the 
service must be professional, courteous and above reproach. But 
immigration benefits must also be delivered in a timely fashion.
    The cost of failure in that last regard is not just longer waiting 
lines and the likely (but completely unnecessary and avoidable) 
swelling in the unauthorized population; it is the breeding of 
disrespect, if not disregard, for the rules, a phenomenon that has an 
extraordinarily corrosive effect on the rule of law. That effect is not 
unlike that which offends so many law-abiding Americans when they see 
unauthorized immigrants come and/or stay in our country illegally.
a. Backlogs
    If you will allow me, I would like to give you a sense of the sorry 
state of our government's performance in delivering immigration 
benefits in the last twenty or so years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Let us take a look at Chart 1, which tracks the total benefit 
applications received, completed (a number that reflects approvals plus 
denials), and pending since 1980. (My colleagues at the Migration 
Policy Institute have also graphed the same data going back to 1960, 
and I will be happy to provide that graph to the Subcommittee, if you 
so wish. I assure you, however, that the trend and the relationship 
among these three variables are unexceptional, except for a brief spike 
in the number of applications received in 1976 that reflects certain 
one-time adjustments to our immigration formula that year.)
    Returning to the chart in front of you, please note that until the 
early 1990s, pending applications were holding fairly steady both in 
absolute numbers (in the low hundreds of thousands) and relative to 
completion rates--as did the numbers of received and completed 
applications. Demand began to grow as those who received legal 
permanent status under the Immigration Reform and Control Act of 1986 
(IRCA) became eligible for benefits, primarily as petitioners for their 
immediate family members. Yet, for a period, the then INS more or less 
was able to keep up with most of the additional demand, primarily as a 
result of the efforts of then INS Commissioner Doris Meissner. (Please 
note the sharp upward climb in completed applications--the red line--
and the corresponding flattening in the number of pending cases--the 
light blue line--in chart 1.)
    Things started to fall apart, however, by the mid-1990s, when the 
IRCA-fueled demand for adjudications combined with the surge in 
naturalization petitions that resulted from what some analysts have 
characterized as the ``assault on immigrants'' that culminated in three 
pieces of legislation affecting that population in 1996: The Anti-
Terrorism and Effective Death Penalty Act, the Personal Responsibility 
and Work Opportunity Reconciliation Act, and the Illegal Immigration 
Reform and Immigrant Responsibility Act.
    Surges in demand, however, are not the only variable responsible 
for what happened after 1996. The naturalization re-engineering that 
followed the political debacle of the Clinton Administration's efforts 
to promote naturalizations in 1995 and 1996 created a sharp completion 
trough that lasted until 1998. At that time, completion rates increased 
nicely again until FY 2002, when they dropped precipitously once more--
a drop from which they have shown no signs of recovering so far. In 
fact, at this time, the immigration services' backlog is well over six 
million (it stood at 6.2 million at the end of FY2003, with more than 
1.2 million pending ``green card'' adjudications and multiyear 
naturalization delays).
    No part of this tale is a surprise to anyone with even a passing 
interest on immigration matters. During the immigration roller-coaster 
years of the last ten years, demands on the INS (and its successor 
agencies) have been increasing exponentially while the organization's 
capabilities have been diminishing seemingly at even steeper rates. It 
is no wonder, then, that the ratio of pending-to-completed applications 
have been rising so steeply during this same time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Taking naturalization petitions out of the statistical picture does 
not alter the overall portrait dramatically. This suggests that the 
inability of the INS and its successor organizations to deliver 
services with any predictability cannot be laid to the feet of surging 
naturalization petitions alone. Most migration specialists would agree 
that this statistical picture reflects a clear systemic performance 
deficit. They would also agree that it reflects the failure of the 
services' side of our immigration system to make an effective case to 
its political superiors--whether at the Justice Department or DHS, but 
especially at OMB, the White House proper, and the U.S. Congress--that 
immigration services are critical to the organization's mission and 
overall objectives.
    Chart 2 makes that point clear. It shows a broadly a similar 
pattern to that of the previous chart with similar troughs and surges 
and a virtually identical performance portrait. The similarity on 
patterns holds both for the gap between applications received and those 
completed but especially for the steeply growing backlogs beginning in 
1993 but becoming sharply obvious after 1996.
    The next two charts focus on two components of the adjudication 
function that should be of particular importance to this Subcommittee 
as it considers both the President's budget request and his immigration 
reform proposals put forth on January 7 of this year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The next chart offers another look at the performance pattern of 
the services' side of the immigration agency, this time by focusing 
exclusively on naturalization petitions. The chart starts again with 
1980 data.
    Chart 3 makes abundantly clear that when it came to 
naturalizations, the agency kept received, completed and pending 
applications within a rather narrow band essentially until 1994--when 
two factors began to wreak havoc with the system. By 1994, the first 
cohorts of those who received permanent legal status under IRCA were 
becoming eligible for naturalization and were in fact availing 
themselves of that privilege. Simultaneously, that period's intense 
debates about immigrants encouraged some immigrants to naturalize and 
persuaded others who, although eligible, had been sitting on the fence 
about whether to naturalize or not, to do so also. Hence the surge in 
applications. The severe slowdown in the adjudication of 
naturalizations during the re-engineering years in the late 1990s is 
clearly evident in the enormous spike in pending applications in 1997 
and 1998, when the number stood at nearly 1.9 million.
    Three more data quirks on this chart require a brief explanation.

        <bullet>  First, and not surprisingly, these same two years 
        (1997 and 1998) also witnessed the formation of the largest gap 
        between pending and completed applications for any period--
        about 1.2 million.

        <bullet>  Second, completions of naturalization petitions 
        surged from 1998 to 2000 when, without any contextual 
        explanation other than the chaos and dysfunctionality of an 
        agency set adrift in the post 9/11 environment, they begin to 
        slump sharply again, reaching their nadir today.

        <bullet>  Third, the number of petitions themselves dove 
        dramatically starting in 1997, in some significant part because 
        new applicants became discouraged by the widely-reported 
        adjudication delays. This trend, however, reversed itself for a 
        time after 9/11, demonstrating once more (as it did in the 
        1994-1996 period) the ``defensive adaptation'' character of 
        naturalization surges. That is, that a proportion of those who 
        seek to naturalize do so as a means of protecting themselves 
        from the legal and other uncertainties of not being a citizen.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    The final chart is the most graphic depiction yet of the chaotic 
relationship between demand for and the government's capacity to 
adjudicate (or is it the priority it attaches to adjudicating?) lawful 
permanent residence (LPR) or ``green card'' applications. Chart 4 shows 
the dramatic and consistent increase in pending LPR petitions beginning 
with FY 1994. Remarkably, for much of that period of extended and 
continuous increases in demand, application completions have hardly 
ever kept up with new application intakes, a factor which explains the 
accumulation of the backlog evident in the graph. (The exceptions are 
1995-1996 and 1999-2000).
    Most striking perhaps is the 2002-2003 segment of the graph that 
shows demand spiking at the same time that the government's capacity to 
and priority in adjudicating petitions simultaneously plummets. While 
the need to be as certain as possible that no one who may wish us harm 
receives a green card--a perfectly natural impulse and a critical 
governance objective--the preponderance of the evidence still points to 
another, inescapable, conclusion: immigration services, whether under 
the old INS or the new CIS, have been no more than the stepchild in 
what many consider the immigration system's foremost (and all too often 
nearly exclusive) responsibility: enforcement, not services.
b.  The Relationship of Backlogs to Illegal Immigration
    Estimating the relationship between multiyear adjudication backlogs 
and illegal immigration with some certainty is more of an art than a 
science and would require an agency with the data access and resources 
of a GAO to undertake the task. However, even without the benefit of 
full access to government data files and the ability to draw and 
examine a sample of immigration petitioners and intended beneficiaries, 
common sense allows one to speculate that some of a petition's 
beneficiaries whose cases have been pending before the INS (and now 
CIS) for a long time are already in the United States illegally.
    More specifically, unreasonable delays in naturalization 
adjudications are likely to mean that many immediate families simply 
``re-unify'' on-their-own--an act that in many ways is within the 
spirit if outside the letter of the law. Similarly, there is little 
reason to doubt that some, perhaps even many, among those waiting for 
green card adjudications might have done likewise--in the process 
involving the petitioning U.S. entities, many of whom are U.S. 
employers, in an avoidable pattern of deception and illegality.
                               conclusion
    Illegal immigration has been properly targeted as one of our 
country's largest governance challenges. In fact, the President has 
stated his determination to do something about it. It seems to me that 
substantial investment of new government moneys to immigration services 
would provide two significant benefits. First, it would be the fastest, 
smartest, and least divisive way to reduce the size of the proverbial 
haystack of unknown individuals that DHS Secretary Ridge worries about. 
Second, it would simultaneously reestablish respect for the law and 
allow the immigration services' function to regain some of the 
integrity it has lost (and we all want it to have) and those who 
deliver the function to earn once more the confidence and reputation 
they seek and deserve.
    From both migration management and good governance perspectives we 
should not tolerate such enormous adjudication delays. The fact that 
virtually all costs associated with the delivery of immigration 
services are ``recovered'' in the form of fees, makes explanations 
other than the low priority the service function receives from senior 
decision makers in the U.S. Government seem weak, even feeble. The 
function's bureaucratic location per se--within the Justice Department 
for more than 60 years or, now, within the DHS--does not seem to matter 
much. The President's budget request for FY2005 continues to give 
immigration services the same low priority.
    Budgets, we learn in school, reflect what an organization considers 
more or less important. The facts speak for themselves. If this 
Subcommittee disagrees with the President's assigned importance to 
immigration services, and given the obvious correlation between absurd 
delays in adjudications and illegal immigration, it has the ability to 
and, I would argue, the responsibility to stand up and say so.
    You and your Congressional colleagues might go about making 
yourselves clearer on these issues as follows:

        <bullet>  First, make certain through your oversight powers 
        that the CIS is held equally accountable for its mandated 
        responsibilities as the immigration enforcement bureaus;

        <bullet>  Second, convey to the managers of CIS, and indirectly 
        to the President, that they will be held to their commitments 
        about better and more timely services and that excuses for 
        failing to meet self-imposed targets and deadlines will be 
        rejected?

        <bullet>  Third, accept at least co-responsibility with the 
        Administration for reducing and eliminating adjudication 
        backlogs because (a) they keep immediate families apart, (b) 
        induce employers to break the law, and, more generally, (c) 
        undermine respect for and the integrity of the immigration 
        system itself.

        <bullet>  Fourth, put your shoulders behind better services in 
        the immigration area by working with your colleagues in the 
        relevant appropriations' committee to obligate the proper level 
        of public resources to immigration services. Simultaneously, 
        you should make it absolutely clear that you will not tolerate 
        standards of excellence for that function that are less than 
        equal to those you regularly demand from the DHS' enforcement 
        bureaus.

        <bullet>  Finally, this Subcommittee and this Congress must 
        begin to consider that maybe, just maybe, the CIS is misplaced 
        within a bureaucracy whose mandate and measurements of success 
        are about hard-headed homeland security functions. Put 
        differently, and looking once more at the four charts and the 
        inexorable falling behind of immigration services for the last 
        decade or so, should we not be thinking more about whether the 
        CIS contributes anything unique to homeland security and the 
        cost at which it does so?

              <bullet>  Specifically, if immigration services can be 
        delivered in as robust a way as possible (both in homeland 
        security and program integrity terms) why not start thinking 
        about removing the overall function from DHS? It is in fact 
        entirely possible that creating a new regulatory agency 
        (perhaps something akin to the Social Security Administration) 
        that never loses sight either of its governance obligations or 
        its responsibility toward its fee-paying clients--yet can be 
        held directly accountable for its performance--might prove a 
        better administrative vehicle that having CIS within DHS.

    After all, immigration services are virtually completely self-
funded and, I suspect that spinning them out of DHS will in fact 
generate ``savings'' of at least one sort--personnel will be able to 
focus exclusively on the new agency's mandate and its performance can 
be evaluated accordingly. The alternative is well known to us all: it 
often involves being detailed, temporarily re-assigned, or otherwise 
tapped for purposes other that what the function's mandate requires and 
what those who seek benefits have paid for: the timely adjudication of 
petitions for a benefit to which they have a presumptive right.

    Mr. Hostettler. Thank you, Dr. Papademetriou.
    The Chair now recognizes the Ranking Member, the gentlelady 
from Texas, Ms. Jackson Lee, for her opening statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chair.
    To the witnesses, thank you for your patience. I was 
delayed by another meeting on the other side of this campus. 
But I will ask unanimous consent to put my entire statement in 
the record.
    Mr. Hostettler. Without objection.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas
    At our previous hearing on the Funding for Immigration in the 
President's 2005 Budget, I expressed concern over the fact that the FY 
2005 budget request for the Department of Homeland Security strongly 
favors the Department's two enforcement bureaus over its benefits 
bureau. The Administration is requesting six times more for the 
enforcement bureaus than for the benefits bureau. It is requesting 
$10,214 million for the Bureau of Customs and Border Protection and the 
Bureau of Immigration and Customs Enforcement but only $1,711 million 
for the Bureau of U.S. Citizenship and Immigrant Services.
    It also is significant that the Administration is requesting an 
increase of $538 million for the enforcement bureaus but only is 
requesting a $58 million increase for the benefits bureau. For every 
additional dollar the Administration is requesting for the benefits 
bureau, it is requesting nine dollars for the enforcement bureaus.
    I am not opposed to providing sufficient funding for the 
enforcement bureaus. My concern is that the Administration is not 
requesting adequate resources for the benefits operations. The Bureau 
of U.S. Citizenship and Immigrant Services (USCIS) has not been able to 
keep up with its work load, which, according to Director Eduardo 
Aguirre Jr., includes more than six million benefits applications each 
year.
    USCIS does an incredible amount of work. Director Aguirre testified 
that during the course of a typical day, his workforce of 15,500 
employees will do the following:

        <bullet>  Process 140,000 national security background checks;

        <bullet>  receive 100,000 web hits;

        <bullet>  take 50,000 calls at the Customer Service Centers;

        <bullet>  adjudicate 30,000 applications for immigration 
        benefits;

        <bullet>  see 225,000 visitors at 92 field offices;

        <bullet>  issue 20,000 green cards, and

        <bullet>  capture 8,000 sets of fingerprints and digital photos 
        at 130 Application Support Centers.

    In addition to this, USCIS has to devote substantial resources to 
eliminating its backlog of more than six million benefits applications.
    Director Aguirre assured us that the proposed FY 2005 budget amount 
for USCIS would provide him with the resources he needs. I have great 
respect for Director Aguirre, but I do not share his optimism on this 
matter. The proposed budget only allocates $140 million for backlog 
reduction. Even with the addition of the $20 million USCIS expects to 
receive from increased processing fees, this is not sufficient to 
eliminate the backlog. This is apparent when you look at recent 
operating expenses. During the three-year period from FY 2001 through 
FY 2003, USCIS's reported operating costs exceeded available fees by 
almost $460 million. Since the beginning of FY 2001, the number of 
pending applications increased by more than 2.3 million (about 59%) to 
6.2 million at the end of FY 2003. This increase occurred despite 
additional appropriations beginning in FY 2002 of $80 million annually 
to address the backlog.
    I also am concerned about the fact that USCIS is raising its 
application fees. This may be necessary to cover the additional 
expenses of post 9/11 security checks, but it is a move in the wrong 
direction if the objective is to generate needed operating funds 
through fees rather than through the President's budget request. The 
Department of State relies heavily on fees to support its visa 
application operations, and its recent experiences show that this can 
be an unreliable way to provide necessary funding.
    Since 9/11, the State Department has experienced a decrease in non-
immigrant visa demand. This has resulted in significant revenue 
shortfalls in the FY 2003 and the FY 2004 Border Security Program 
budget. To compensate for these shortfalls, the Department has applied 
funding provided by supplemental appropriations: $46 million in FY 2003 
and $109.5 million in FY 2004. The Department considered increasing the 
fees but refrained from doing this on account of concern that the 
increases could have an adverse affect on the public's willingness to 
travel to the United States, which would reduce the demand for visas 
even further.
    Meanwhile, $340 million is allocated for the US-VISIT program, 
which may turn out to be a waste of resources that could have been used 
elsewhere, such as for reducing the benefits applications backlog. I 
believe that we need to pay more attention to benefits operations and 
that we much use our resources more wisely. Thank you.

    Ms. Jackson Lee. And I will make some comments pertaining 
to my concern.
    We had a previous hearing, Mr. Chairman, and I expressed 
concern over the fact that the FY 2005 budget request for the 
Department of Homeland Security strongly favors the 
Department's two enforcement bureaus over its benefits bureau. 
The Administration is requesting 6 times more for the 
enforcement bureau than for the benefits bureau. It is 
requesting some $10 billion for the Bureau of Customs and 
Border Protection, I believe, and the Bureau of Immigration and 
Customs Enforcement, but only $1 billion for the Bureau of U.S. 
Citizenship and Immigrant Services, as I understand it.
    It also is significant that the Administration is 
requesting an increase of $538 million for the enforcement 
bureaus but only is requesting a $58 million increase for the 
benefits bureau. For every additional dollar the Administration 
is requesting for the benefits bureau, it is requesting $9 for 
the enforcement bureaus.
    It is interesting, if I take my memory clock or I report 
back--and this is by no means, Mr. Bonner, a suggestion that we 
cannot do more with the Border Patrol funding and a number of 
other issues that I have worked on over the years, including 
professional development. But what I am suggesting is that 
we're in a partnership. And, frankly, Mr. Chairman, I recall 
the organizing of the Homeland Security Department, and if we 
were to delve into the congressional records, testimony and 
comments both in front of the Homeland Security Committee as 
well as in the Judiciary Committee, I made it very clear that 
my concern was in merging all of these various agencies and 
changing the INS for the better, would we not disenfranchise 
the benefits issue?
    Just this past weekend, President Bush met with President 
Vicente Fox, and President Fox of Mexico came out and said, We 
have a deal, we're going to be working together to downplay the 
utilization of the US-VISIT Program at the border for some 
frequent visitors. Certainly I would say there is some merit to 
discussing that. I'm glad that the President, President Bush, 
restrained himself in the details because, frankly, I believe 
Congress and the Homeland Security Department should be 
intimately involved.
    But the interesting point is that I know in their meeting--
I would imagine that they must have had a follow-up of the big 
promise that the President made as it relates to the 
undocumented alien situation in this country. In order to begin 
to even look at a structure to deal with that, Mr. Chairman, 
even to look at it, you're going to have to have more 
resources, because right now as we sit in this hearing we have 
a 6-million-person backlog or question backlog or request 
backlog on benefits. And let me share some of this with you.
    U.S. CIS has done an incredible amount of work. Director 
Aguirre testified that during the course of a typical day, his 
workforce of 15,500 employees would do the following: process 
140,000 national security background checks; receive 100,000 
Web hits; take 50,000 calls at the customer service centers; 
adjudicate 30,000 applications for immigration benefits; see 
225,000 visitors at 92 field offices; issue 20,000 green cards; 
capture 8,000 sets of fingerprints and digital photos at 130 
application support centers.
    But what we have not addressed is that as they are doing 
the current work, 6 million benefits applications remain in 
backlog, and someone needs to take a visit to the Texas center, 
one of the busiest in the Nation, and you will find still the 
scurrying to find lost fingerprints. Even as we utilize the new 
technology, we have never caught up, Mr. Chairman, with fixing 
this issue. And with the dialogue with President Vicente Fox 
and this whole issue of undocumented aliens and with our 
discussion about earned access to legalization, even the 
President's plan, which includes a flat earth program of guest 
worker and falling off at the end, but he does ask that 
everybody who's willing to come would be documented. Can you 
imagine overlaying that responsibility, which, as I understand 
it, should be within the next fiscal year, and not have 
additional resources for benefits?
    I am delighted of the witnesses who have come for their 
testimony, but let me just say this: Even with the addition of 
the $20 million U.S. CIS expects to receive from increased 
processing fees, this is not sufficient, Mr. Chairman, to 
eliminate the backlog. This is apparent when you look at recent 
operating expenses. And during the 3-year period from 2001 to 
2003, U.S. CIS reported operating costs exceeded available fees 
by almost $460 million--$460 million. Since the beginning of FY 
2001, the number of pending applications increased by more than 
2.3 million, about 59 percent, to 6.2 million at the end of FY 
2003.
    There are a number of numbers that I'll use throughout my 
questioning, Mr. Chairman. Let me just conclude by saying this: 
I put these numbers on the record because I believe that you 
are sincere with these hearings on the budget, and this cannot 
be the hide-the-ball FY 2005 budget year when it comes to 
immigration issues. This cannot be the smoke and mirrors budget 
of 2005. If we're going to seriously reform the immigration 
system to answer the questions of those who are anti-
immigration, anti-immigrants, and are pro-homeland security, 
then we're going to have to put our money where our mouth is. 
And even to begin talking about documenting anyone, this 
Department is going to need more monies.
    And, finally, I would say that I always begin my comments, 
Mr. Chairman, that immigration does not equate to terrorism. We 
need all of the elements that are here before us this morning 
to work with us to ensure a safe and secure homeland, but to 
meet the values of this Nation, and that is that we are a 
Nation of immigrants and of laws. We are not doing ourselves a 
service, Mr. Chairman, unless this Subcommittee aggressively 
works to increase--or to make the record that we cannot 
function, we cannot be law-abiding, we cannot document, we 
cannot be secure without increased funding on the benefit side. 
And I would ask the Chairman to work with me, and I look 
forward to working with him.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from Arizona, Mr. 
Flake. He will leave early, so we will----
    Mr. Flake. Thank you. I thank the Chairman. And I only have 
5 minutes, so I would appreciate if you could answer as briefly 
as possible. I will try to ask quick questions.
    Mr. Bonner, you stated in your testimony that we only 
have--oh, I'm sorry. This was Mr. Danahey mentioned that we 
only have token control of the border. We spend about 6 times 
as much now as we did just 15 years ago on the border, and 
that's yielded us just token control?
    Mr. Danahey. It's an improvement, sir, but I think we need 
to do more.
    Mr. Flake. How many troops or how many--some say 
``troops.'' Some say ``others.'' How many more people will we 
need on the border to seal it?
    Mr. Hostettler. Would the gentleman please turn on your 
microphone? Is it on?
    Mr. Danahey. It is. Sir, I don't have a number right off 
the top of my head. I'd be happy to research that through our 
INS people to try to get you a better number. But from last 
year's testimony where I think we cited that local police were 
being used to supplement the Federal agents and Border Patrol 
agents up on the New York border, for instance, it, of course, 
takes away from other assets that the States need to perform 
their functions.
    Mr. Flake. Mr. Bonner, does your organization have a 
position on the President's plan, immigration reform plan?
    Mr. Bonner. The guest-worker program?
    Mr. Flake. Yes.
    Mr. Bonner. As we call it, the amnesty. We are intensely 
opposed to granting amnesty to people. That only serves to 
encourage more people to break the law. We discovered that in 
the 1986 amnesty, all it did was monumentally increase the 
numbers. Back then, they estimated 3 to 4 million people in the 
country illegally. Currently, that has----
    Mr. Flake. Mr. Bonner, could you give me your definition of 
amnesty?
    Mr. Bonner. Amnesty, according to the dictionary, is when 
you--when an authority, such as a Government, pardons people 
for breaking a law.
    Mr. Flake. Precisely. The President's plan, as I understand 
it, includes a penalty, a fine, and then movement to the back 
of the line or no pathway to citizenship automatically. Is that 
still an amnesty?
    Mr. Bonner. It still is. Citizenship----
    Mr. Flake. What would you call----
    Mr. Bonner.--has nothing to do----
    Mr. Flake. What would you call the current situation? The 
current situation, it would seem, is a de facto amnesty. Would 
you argue with that?
    Mr. Bonner. I would not argue that point. We have turned a 
blind eye to millions of people breaking our immigration laws.
    Mr. Flake. In an effort actually to document those who are 
here, force them to pay a fine, and then put them back at least 
3 or 6 years behind those in terms of seeking legal permanent 
residency or status, that's less of an amnesty than what we 
have now. Is that correct?
    Mr. Bonner. I believe that most people are entering this 
country for the jobs. They're not entering to become citizens.
    Mr. Flake. That's correct. That's my feeling.
    Mr. Bonner. And so that carrot out there of, well, you can 
become a citizen way down the line, they don't care about 
becoming a citizen ever. They just want our money.
    Mr. Flake. Mr. Danahey, what--do you believe the 
President's plan is described well by Mr. Bonner?
    Mr. Danahey. I believe pretty close, sir, yes.
    Mr. Flake. Would you agree that today we have a de facto 
amnesty?
    Mr. Danahey. At this point we do not.
    Mr. Flake. We do not?
    Mr. Danahey. I don't believe we have an amnesty program. We 
have a turnaround program.
    Mr. Flake. But you said we're only making a token effort at 
the border.
    Mr. Danahey. That's right.
    Mr. Flake. But would that not be improved by actually 
registering those who are here and giving them an opportunity 
to go back home by legally crossing the border with the legal 
process?
    Mr. Danahey. It would be a step in the right direction, 
sir.
    Mr. Flake. That would be a step--the President's plan would 
be a step in the right direction?
    Mr. Danahey. Yes.
    Mr. Flake. Thank you.
    Mr. Cutler, are you familiar with the Bracero program of 
the 1950's?
    Mr. Cutler. Yes, to an extent.
    Mr. Flake. When it ended, did we have a better situation or 
a worse situation in terms of illegals coming across?
    Mr. Cutler. To be honest, I really couldn't tell you that. 
But what I can say to you, though, is that we are not deterring 
illegal immigration, and it is not just because of the border. 
The problem is--and I always talk about an enforcement tripod. 
It stands on three legs: the inspectors enforce the law at 
ports of entry, the Border Patrol between ports of entry, but 
we need that third leg, the special agents from within the 
interior so that when people get past the Border Patrol, they 
have concern that they're going to be apprehended and 
ultimately removed from the United States. Right now there is 
no such----
    Mr. Flake. That's right. I couldn't agree more.
    In 1964, when the Bracero program ended, INS apprehensions 
increased from 86,597 to 875,000, over a thousand-percent 
increase in illegal immigration. When you don't have a legal 
program, a legal avenue for workers to come, they're going to 
come illegally, and that's the situation we have now. It's a de 
facto amnesty. Any situation to register those, I would submit, 
and give them an opportunity to go home--the average stay in 
Arizona for a migrant worker coming used to be about 2.2 years. 
It's increased to over 9 years today because there's no legal 
avenue for them to return home. We have the worst of all 
situations in Arizona. They come, they bring their families, 
and they stay. What used to be a circular pattern of migration 
is now a settled pattern, and we're doing nothing to stop it at 
the border. Even if we could seal the border, as some are 
advocating, even if we could, 40 percent of those who entered--
or who are here illegally now entered the country legally. 
We've solved nothing. And so we have got to have a program to 
allow them to return home, I would submit. And Mr. Bonner's 
point that they're coming here for jobs is precisely right. We 
ought to recognize that, give them a program, and then allow 
those to return home. And then we can focus more resources on 
those who would actually come to do us harm.
    I thank the Chairman for indulging and putting me first, 
and I apologize for having to leave. Thank you.
    Mr. Hostettler. I thank the gentleman. The Chair now 
recognizes himself for 5 minutes for questions.
    Mr. Bonner and Mr. Danahey, the applications chart that was 
given us by Dr. Papademetriou indicates that between 1990 and 
2002, an increase in applications completed by the INS, now 
CIS, to be in excess of 3 times greater. Can you tell me if we 
have been able to remove 3 times the number of illegal aliens 
from the United States during that time, Mr. Bonner, on an 
annual basis?
    Mr. Bonner. I don't know the exact figures, but I would be 
very surprised if we were removing even a fraction of the 
numbers that you're talking about.
    Mr. Hostettler. Mr. Danahey?
    Mr. Danahey. I agree with Mr. Bonner, sir.
    Mr. Hostettler. So, in proportion, we are, with regard to 
the service that's being rendered to the United States of 
America, whether it's--whether it's adjudicating applications 
or enforcing the immigration laws, in proportion, with regard 
to the statistics that Dr. Papademetriou has supplied and your 
experience, we are spending quite a bit more proportionally on 
the immigration side than we are on the enforcement side, would 
you not say, with regard to the results? Mr. Bonner?
    Mr. Bonner. Well, I think that you need to look at the 
overall picture in terms of what is best for this country, and 
I think that we can't ignore what happened on September the 11. 
There were only 19 people, and, you know, if you talk about, 
well, we're doing a ``pretty good'' job of enforcement, 
``only'' 19 people caused thousands of American citizens to die 
and cost us billions of dollars, and I think that----
    Mr. Hostettler. But, relatively speaking, Mr. Bonner, with 
regard--the American people have a citizenship process, service 
process now, and they have a law enforcement side. If we are 
nowhere near completing the same, proportionally speaking, with 
regard to law enforcement and services, proportionally would 
you not say that we are spending--with regard to the service 
that's being rendered, we're spending a lot more on immigration 
services, not with regard to total dollars but with regard to 
the statistics, the actual results of the activity, we are 
spending a lot more on services than we are on law enforcement.
    Mr. Bonner. I agree with you, and I think that we're overly 
generous as a Nation in providing benefits to people, and I 
think we need to--the point I was trying to make is that it's 
very important to protect our country. We can't--we cannot go 
on with open borders and then allowing millions of people to 
put in for benefits. We need to stop and take a look and figure 
out what's best for this country at this point in time.
    Mr. Hostettler. Yes, sir.
    Mr. Bonner, the budget request, as it was related to us at 
the Subcommittee in the last hearing from CBP, included 
increases in technology and sensoring cameras as well as UAVs. 
Do you believe--but not more agents. Do you believe that the 
Border Patrol needs more agents even as we increase spending in 
technology?
    Mr. Bonner. Well, absolutely. The technology is the eyes 
and the ears. There is no camera designed that will jump down 
off that pole and apprehend illegal aliens. That is up to 
Border Patrol agents. So it does no good. One of the things 
that they discovered back in the mid-1990's when they launched 
Operation Gatekeeper in San Diego, CA, the sensors were going 
crazy, and they turned them off because they said it was 
demoralizing the agents because they couldn't catch all the 
people that were going around them.
    Well, that's kind of silly, in my view, to have technology 
and not use it. I think it would be beneficial to know exactly 
how many people are getting by us because that would provide a 
true measure of the effectiveness of the Border Patrol and give 
us an indication of how many more agents it would take to bring 
that border under control.
    Mr. Hostettler. Very good. One more question, Mr. Bonner. 
In January 2004, the President proposed a temporary worker 
program that you discussed earlier with Mr. Flake. Newspapers 
were reporting in January that the Border Patrol was conducting 
a survey of apprehended aliens to see whether they had heard 
about the President's proposal. Is that true? And if that is 
true, is the survey still being taken?
    Mr. Bonner. It is true that in a number of areas they were 
taking the survey. It ended rather quickly. I'm not sure of the 
reasons. It became a political hot potato. Perhaps they didn't 
like the answers they were receiving.
    Anecdotally, the agents in the field were relaying to me 
and others that many of the people that were coming across were 
making inquiries about the guest-worker program, about the 
amnesty.
    Mr. Hostettler. Thank you.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very, very much.
    Mr. Bonner, I've worked with the Border Patrol agents some 
years back on professional development and increasing the civil 
service ranking to hopefully assist you all in retention. I've 
literally walked the Southern border, and let me thank you for 
the graciousness of many of the Border Patrol agents that have 
shown me some of the areas and challenges that they face.
    Tell me what you need to be really effective in terms of 
increased inspectors and Border Patrol agents in the United 
States as it might impact on the budget, what you really need 
to be at full capacity where you'd feel comfortable in terms of 
increased inspectors and Border Patrol agents. And, of course, 
we talk about the Northern border and the Southern border 
included.
    Mr. Bonner. I think that really depends on the strategy 
that you pursue. If we continue to pretend that we can stop 
everything at the border, bearing in mind that 40 percent of 
the illegal--somewhere between 30 and 40 percent of the illegal 
immigrant population comes in legally, but let's continue to 
pretend that we can stop everything at the border, it would 
take millions of Border Patrol agents. Really, we need to get a 
handle on the root cause of why people are coming to this 
country. We need to enact tough employer sanctions laws that 
take the burden off of the employer's back, put it on the 
Government's back where it belongs, for the Government to 
develop some form of counterfeit-proof identification that will 
allow an employer to recognize someone who has a right to work 
in this country and that will allow the Government to penalize 
employers who try and circumvent that----
    Ms. Jackson Lee. But if we were to look at a different 
strategy, let's just take your vision, not necessarily--I don't 
necessarily agree with it, maybe, but then what kind of 
increase would you think that we would need in either Border 
Patrol agents or inspectors?
    Mr. Bonner. Under my vision, where you have employer 
sanctions laws that are enforceable, you could probably control 
the remaining elements because you would remove 99 percent of 
the people who are coming across our borders of those millions 
of people. And you would be left with terrorists and other 
criminal----
    Ms. Jackson Lee. So you're not here today to ask for any 
increased compensation for Border Patrol agents, no increased 
numbers of inspectors? I just want to know----
    Mr. Bonner. That's not what I said. I said----
    Ms. Jackson Lee. Well, then tell me----
    Mr. Bonner. In an ideal world----
    Ms. Jackson Lee. But I'm trying to get to the bottom line. 
What is the number----
    Mr. Bonner. Well, if we're continuing to pursue the current 
policy, I think that at a minimum you need to be adding at the 
rate that they were adding a few years ago, a thousand agents 
per year.
    Ms. Jackson Lee. That's what I'm trying to get at, and 
we'll work with that. Obviously, you have a difference as to 
the strategy, but we're looking at numbers now, and we're 
trying to be as responsive as we can. And so those are the 
numbers that, under the present structure, you are needing more 
assistance. Is that my understanding?
    Mr. Bonner. Absolutely.
    Ms. Jackson Lee. Let me also just ask you a quick question, 
and I heard your comments to the Chairman and to Mr. Flake. I 
calculate--and when I say ``I calculate,'' based on numbers 
that have come to my attention--that there may be between 8 and 
14 million undocumented individuals in this country. Are you 
saying that we have the capacity to deport 14 million people?
    Mr. Bonner. I believe that if you have laws that are 
enforceable for employer sanctions that people will go home. 
The reason they are here is for the jobs, and if the job spigot 
is turned off, they will go home, because their only other 
alternative is to sit and beg in the streets, in which case our 
police, our local police would arrest them for vagrancy, and 
then they would be deported. But I think that most of them 
would just simply go home.
    Ms. Jackson Lee. Well, I think you have a very large vision 
about that, and I would venture to say to you that 14 million 
who have put down roots, built houses, paying taxes, whether 
it's sales taxes, children in school, are absolutely not going 
to do that. So I think we vigorously disagree, but I appreciate 
very much your comments on the Border Patrol.
    Mr. Papademetriou, thank you so very much. Give me a 
response to this idea that we are spending more for enforcement 
than we are for benefits, and what do we need to do in this 
budget year? You heard my consternation, and if you have better 
numbers than 6 million--I don't think the debate is on that 
question, but help us understand whether we are really in an 
equity as it relates to benefits and enforcement. And thank you 
for your testimony.
    Mr. Papademetriou. Thank you. Thank you very much, 
Congresswoman, and I couldn't agree more with your statement 
and the thrust of your questions.
    There is some fundamental difference that makes any 
comparison, with all due respect, Mr. Chairman, between the 
resources that we invest on the one part of the function and 
the other one essentially invalid. First of all, the services 
function is largely self-funded. The governmental resources 
that go into the function are but a fraction of the numbers 
that you see. So there is a big difference over there as to who 
is paying. You're going to have to compare not the $1.7 million 
to the--billion to the $10 billion, but whatever it is that 
comes out of our pocket, the public's pocket, with what comes 
out of the public's pocket for the $10 billion. That's a real 
$10 billion. This is just a fraction of $1.7.
    The other part that makes that comparison suspect, in my 
view, is that in a sense we are comparing not apples and 
oranges but I think apples and widgets. We have not established 
that if we do more in the one area we necessarily will do 
better in the other area. The two are completely disengaged. We 
may not be doing well in terms of enforcement--and at some 
fundamental level I do not disagree with my colleagues on this 
side of the table. But, in reality, what we're talking about is 
let's continue to put resources there. Be smart about the 
methodology. You called it strategy. We all need to realize 
that we don't have, you know, all of the money in the world. 
But, also, begin to address the issue of services if for no 
other reason because it breeds illegality. It contributes to 
that aid to 12, 14 million people. We don't know exactly how 
many, but it contributes to that number. And we can bring that 
number down relatively with no cost to the Treasury. This is 
very, very significant.
    Let me give you an off-the-top-of-my-head, back-of-the-
envelope, whatever you will, Madam Ranking Member, estimate of 
what it might take to remove people, because I am absolutely 
convinced--I have been in this business long enough to be fully 
convinced--that what you are saying, that these people are not 
going to leave is absolutely right.
    How long does it take, in terms of investigation, to 
actually--investigative resources, to actually trace down a 
number of people? How long--how many people does it take to 
actually go and pick them up? How much jail time does it take 
in order to prepare them for their hearings----
    Mr. Hostettler. The Chair is going to have to cut you off, 
Dr. Papademetriou.
    Mr. Papademetriou. Sorry.
    Ms. Jackson Lee. If he could just summarize, Chairman?
    Mr. Hostettler. There's a question, I think, that was--the 
question was: Do you agree with the Chairman that we're 
spending too much on immigration services with regard--and I 
think you answered that question. I appreciate that.
    Mr. Papademetriou. My apology.
    Mr. Hostettler. And we're going to have another round of 
questions, and we will definitely--if the lady, gentlelady 
wants to address that issue, we will definitely get into that 
issue. But we're going to move on now to Mr. Smith of Texas.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, thank you for again having a hearing on such 
an important subject, and thank you, too, for your selection of 
the witnesses who are here today, who are all experts in their 
fields.
    Mr. Papademetriou, I don't mean to ignore you, but most of 
my questions are going to be addressed to the other witnesses.
    Mr. Papademetriou. I expected that, sir.
    Mr. Smith. Let me say, Mr. Chairman, we've heard some 
figures today about the number of people who are in the country 
illegally. The census, I believe, increased their figure after 
the 2000 census from 8 million to 11 million, but I just want 
to make the point again that the census only counted people who 
are in the country permanently, which is to say 365 days a 
year. If you were to today take a count of all the people who 
are in the country illegally, it could well be twice as many 
because of the people who are here for a short term. So the 
problem, I think, is probably greater than many of us realize.
    I assume, Mr. Bonner, Mr. Danahey, and Mr. Cutler, that we 
are all in agreement that we think we ought to reduce illegal 
immigration. Is that correct? Okay.
    Let me ask you if you feel that the following programs or 
proposals would, in fact, reduce illegal immigration. Do you 
think the States issuing driver's licenses to illegal 
immigrants is going to reduce illegal immigration? Is there 
anybody that thinks that it will.
    Mr. Bonner. No.
    Mr. Danahey. No.
    Mr. Cutler. No.
    Mr. Smith. Is there anyone who thinks that the issuance of 
matricula cards is going to reduce illegal immigration?
    Mr. Bonner. No.
    Mr. Danahey. No.
    Mr. Cutler. No.
    Mr. Smith. Okay. And, Mr. Danahey, you may disagree here, 
but, Mr. Bonner and Mr. Cutler, do you think that a new guest-
worker program is going to reduce illegal immigration?
    Mr. Bonner. No.
    Mr. Danahey. No.
    Mr. Cutler. No.
    Mr. Smith. Okay. Mr. Danahey, a while ago I may have 
misunderstood, but the proposed guest-worker program by the 
Administration would allow people in the country illegally to 
stay for 6 years, perhaps more, to work, to bring in their 
families. Do you honestly believe that these individuals are 
going to be inclined to return to their home country after 
those years, after their families are here and after they're 
working?
    Mr. Danahey. Sir, I would say that they're going to be 
inclined to try to stay here any way they can once they become 
comfortable and integrated into our society.
    Mr. Smith. And do you think that none of these illegal 
immigrants are going to be taking jobs that are--that could be 
worked by Americans? And when I say ``Americans,'' I'm talking 
about citizens and legal immigrants as well.
    Mr. Danahey. Yes, sir, they would be taking jobs that could 
be filled by U.S. citizens.
    Mr. Smith. And yet you said a while ago, I thought, that 
you thought that the proposed guest-worker program was a step 
in the right direction. How could it be a step in the right 
direction if it is taking jobs away from Americans and if it's 
going to encourage people to stay in the country rather than go 
home?
    Mr. Danahey. It's a step in the right direction in at least 
we know who is here and where they are. As far as taking jobs 
away, et cetera, I hadn't looked at that broad of a----
    Mr. Smith. Okay. Don't you think if we make it attractive 
for individuals to stay in the country illegally that it's like 
to encourage more people to come into the country illegally?
    Mr. Danahey. It would.
    Mr. Smith. Okay. Thank you.
    Lastly, what single thing do you three feel that we should 
do to--what's the most important single thing we could do to 
reduce illegal immigration? Mr. Bonner, let's start with you.
    Mr. Bonner. As I've stated previously, I think the single 
most important thing we could do would be to reform our 
employer sanctions laws. Turn off the job magnet.
    Mr. Smith. Okay. I agree with that.
    Mr. Danahey?
    Mr. Danahey. I agree with Mr. Bonner, and also tighten 
border security as best we can.
    Mr. Smith. Okay. And, Mr. Cutler?
    Mr. Cutler. Well, I have to agree with Mr. Bonner, but come 
back again to the lack of interior enforcement, because this is 
all about interior enforcement. And there's one fast thing if I 
just might get this in.
    Mr. Smith. Sure.
    Mr. Cutler. We're talking about identifying people by 
putting them through a process of giving them the ability to 
work in the United States. We won't be really identifying the 
criminals or most of them, because if you look at the pressure 
that we're under right now to handle all these applications--
and I spoke about some of the pitfalls we have as of today. 
Imagine when someone walks into a crowded office and they say, 
``What's your name?'' and he gives them a name, provides no 
documents to support who he claims to be, what will the 
immigration authorities do? And most likely, under the pressure 
of the weight of the paper and the flow of the people, we will 
wind up creating almost a witness protection program, if you 
will, for people who shouldn't even be here.
    Mr. Smith. You reminded me of a final question to ask you 
all, and that is, don't you think if we had a guest-worker 
program that made it easier for people to get into the country, 
stay in the country, perhaps get a job in the country, that 
that might not be an attractive vehicle to would-be terrorists? 
Mr. Cutler, do you believe that's the case?
    Mr. Cutler. Absolutely. These folks are very sophisticated, 
and they look for the holes in the system. And if you look at 
the 19 terrorists, each one of them found where there were 
those openings and went right through it.
    Mr. Smith. Mr. Danahey, don't you think a prospective 
terrorist would want to take advantage of a program like that?
    Mr. Danahey. Absolutely, sir.
    Mr. Smith. And, Mr. Bonner?
    Mr. Bonner. They would either take advantage of that 
program or--to me it's--the notion that people--that criminals 
are going to come forward and register just doesn't ring true 
with me.
    Mr. Smith. Okay. Thank you all for your testimony.
    Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman.
    The Chair now recognizes the gentlelady from California, 
Ms. Sanchez, for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman. And I apologize for 
missing your oral testimony, but I did review the written 
testimony.
    A question for Mr. Papademetriou--is that the correct 
pronunciation?
    Mr. Papademetriou. Yes, ma'am.
    Ms. Sanchez. Wow, for a Latina girl, that's not bad, right?
    I'm interested in knowing with respect to the visa backlog 
that we're currently experiencing, interested in knowing what 
your thoughts are on if we would dedicate a substantial portion 
of the monies allocated on immigration issues to reducing the 
visa backlog, how might that improve our ability to know who's 
in this country and our ability to have improved homeland 
security?
    Mr. Papademetriou. Thank you, Ms. Sanchez. The two are 
perfectly consistent with each other. Whatever the analogy that 
you prefer will work here. By increasing the efficiency in 
delivering services, we reduce the possible number of 
undocumented migration; therefore, we make the job that people 
who enforce our laws have to do a bit easier.
    We also return some--and I suspect a very substantial 
proportion--of pride, if you will, and esprit de corps and all 
that to an agency and people who are good, but they're 
completely disheartened. I don't know the last time that you 
folks have had an opportunity to speak with the rank-and-file, 
you know, that deliver services over there, but this is not 
exactly a sense on their part that this is a priority of any 
Administration. And with all due respect, Mr. Chairman, this is 
not about Republican or Democrat. It's not about people who 
head this agency. The fact is that we need to do something 
dramatically different.
    I propose here something that is radical enough, which is 
take CIS out of DHS. We'll lose nothing. In other words, 
whatever it is that we need to do in terms of program integrity 
can be done from outside of the agency, particularly now that 
we're creating interoperable databases, where we're creating 
all sorts of common standards--for all of those things, all of 
these services can actually be performed from outside of the 
agency. And let's have an agency, perhaps akin to the Social 
Security Administration, that knows what its job is day in and 
day out: to deliver services for those people who qualify, to 
actually give value for the people who pay the money.
    You may find out that you will not have to actually 
subsidize that agency, the same way that you have been doing 
for the past 20 or 30 years, in large part because nobody is 
going to say, okay, you 1,500, you're now going to have to stop 
delivering services, and you're going to have to do special 
registration, which is what happened a year ago.
    So fundamentally, the relatively smart things--small things 
that are smart can make a big difference in the delivery of 
services.
    Ms. Sanchez. Amazing that an agency that actually gets 
resources allocated to what the majority of its functions 
should be.
    A follow-up question very briefly. In your opinion, what 
would be the financial impact or what would be the necessary 
funding in order to do as they are suggesting with some other 
guest-workers programs, et cetera, of deporting the estimated 8 
million undocumented workers in this country and also, with a 
new guest-worker program, setting up some kind of worksite--you 
know, not surveillance but monitoring of a new guest-worker 
program? What might that do to the agency?
    Mr. Papademetriou. It would probably sort of turn the 
agency and spin it apart. The money will be extraordinary. Just 
a back-of-the-envelope estimate, if we actually remove--
apprehend and remove 500 people a day--I'll make it easy--and 
if there are 400 days in a year, even though I know that's not 
the number, and if there are 10 million people--Mr. Smith 
suggested that there were 11 then, a figure I never heard 
before.
    Ms. Sanchez. It seems to go up according to people's 
convenience.
    Mr. Papademetriou. But the point is that even if we have 10 
million people it will take 50 years--50 years--and tens of 
billions of dollars to remove just these people. And that 
assumes that in the next 50 years we are not going to get a 
single new unauthorized person in the country, just a mere 
multiplication.
    So I think that we have to think smartly. Maybe we can 
disagree as to whether the President's proposal is the right 
one. The President actually, you know, shot a starting gun and 
said let's start thinking together about it. Maybe his idea is 
not enough. I suspect it's not. But it is a starting of a 
conversation which we have refused to have in this country.
    Ms. Sanchez. Thank you very much for your testimony. My 
time has expired. I will yield back.
    [The prepared statement of Ms. Sanchez follows:]
Prepared Statement of the Honorable Linda T. Sanchez, a Representative 
                in Congress From the State of California
                              introduction
    I'd like to thank the Chairman and Ranking Member Jackson Lee for 
bringing the Members of this Subcommittee together to discuss funding 
for immigration in President Bush's budget. This is the second time 
we've had a hearing on immigration and the President's budget in the 
last two weeks. I, for one, am glad that we are making immigration an 
issue that is important enough to warrant two hearings.
    Every Member of this Subcommittee and all of our witnesses know 
that our immigration system is broken, and badly in need of 
comprehensive reform. I felt at the Subcommittee's last hearing on 
President Bush's budget and I still feel today that neither the 
President's immigration principles nor his budget are going to fix all 
of the problems that plague our nation's immigration system.
                   president's immigration principles
    Let's start with the President's temporary worker program. It will 
not stop the steady flow of illegal immigrants into this country 
because it doesn't solve one of the biggest causes of illegal 
immigration--separated immigrant families. The President's immigration 
plan has absolutely no provisions to reunify immigrant families. So, 
thousands of immigrants each year will continue to cross our borders 
illegally to be with their loved ones.
    Another problem with the President's plan is that it has no earned 
legalization provisions. The President expects the 8 million hard-
working undocumented immigrants in our country to sign up for his 
temporary worker program, subject themselves to second-class status 
during their brief stay in our country, and then stand in line to be 
deported. That is not going to happen. And even if by some chance it 
did happen, a deferred deportation program with no hope for the future 
is not the solution to our immigration problems.
    My fellow Democrats and I have on many occasions let the President 
know that if he is serious about immigration reform that he should 
support the DREAM Act and the AgJOBS bill. The President hasn't 
supported these bills and by doing so has proven that his immigration 
principles are in fact an attempt to woo the Latino vote, not an effort 
to help immigrants improve their lives in this country.
    We've also introduced immigration principles of our own that 
address the fundamental problems with our immigration system that the 
President's plan fails to address. The Democratic principles reunify 
families by reducing the visa backlog and allowing families to remain 
together while they work to earn legalization. Our principles also give 
hard-working, law-abiding immigrants in this country a chance to earn 
legal status and continue to contribute to our economy and our 
communities. The President's immigration principles leave immigrants 
trying to better provide for their families out in the cold, and his 
budget doesn't do much better.
                         the president's budget
    The President's budget also proves that he is not committed to 
helping immigrants. The President's FY '05 budget increases by hundreds 
of millions of dollars so-called immigration enforcement programs while 
neglecting immigration service and citizenship programs.
    We all agree that we need to enforce our immigration laws and make 
sure that our border patrol agents have the resources they need to make 
our borders safe, orderly, and secure. These resources are vital for 
securing our homeland. However, if we want our country to be fully 
secure, we can't neglect other equally vital immigration concerns like 
reducing the visa backlog, providing better, more efficient immigrant 
services, and promoting citizenship. But the President's budget 
neglects these other important immigration reform issues.
    For example, the President seeks $281 million more for DHS's Bureau 
of Immigration and Customs Enforcement in FY '05 than he did in FY '04. 
This is the largest funding increase for any Bureau of DHS that the 
President seeks in his budget. On the other hand, President Bush has 
proposed only an additional $60 million for visa backlog reduction. The 
President proposed a $500 million initiative to reduce the visa backlog 
by 2006. However, the President's visa backlog reduction initiative so 
far has been a complete failure. This is obvious considering we have 
over 6 million visas yet to be processed and the numbers of backlogged 
visas are showing no signs of reducing. Furthermore, many U.S. citizens 
are waiting 10+ years to be reunited with their families. This includes 
thousands of Americans who have to wait 22 long years to reunite with 
their family members in the Philippines.
    I am glad that the President is willing to spend funds to reduce 
the visa backlog. Unfortunately, the $60 million increase in his FY '05 
budget is inadequate to make the necessary changes to a visa processing 
system that needs massive reform.
    If we fail to reform our visa processing system and significantly 
reduce the backlog, immigrants will continue to break our laws to get 
into this country. The more our laws are broken, the less secure we are 
as a nation. So, if we want to fix our immigration system and truly be 
secure we must make backlog reduction and comprehensive reform as high 
a priority as enforcement, border security, and detentions and 
deportations.
                               conclusion
    I thank all of the witnesses on our panel for being here today. I 
am looking forward to hearing testimony from some of the people on the 
front lines of homeland security and involved with coordinating 
immigration across our borders. Thank you all for taking the time out 
of your schedules to give us your thoughts and expertise.
    I thank the Chair and Ranking Member for the opportunity to express 
my views. I yield back.

    Mr. Hostettler. We'll have a second round of questions.
    The Chair now recognizes the gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I appreciate all your testimony and response to these 
questions, and as the pieces get filled in here on our 
immigration policy, a number of things accumulate in my mind as 
I sit here and listen, and one of them is--I'll reference a 
statement that was made here by the gentleman from Arizona in 
reference to roughly 10 years ago the statement was made that 
about the average stay for an illegal in the country was 2.2 
years and now it's about 9 years. And if I'm going to quote 
him, I will say that the quote is this: ``There's no legal 
avenue for them to return home.''
    And I direct my question to Mr. Bonner. Is there any 
restriction to anyone returning home under any circumstances or 
under what circumstances might that statement have validity?
    Mr. Bonner. Nothing stops anyone from leaving this country. 
We're not handcuffing these people and forcing them to remain 
here. They're remaining here of their own free will.
    Mr. King. In fact, then, there's every legal avenue for 
every illegal to return back home, maybe with the possible 
exception of if they've committed a felony of some type and 
we've got them incarcerated for that. But those who have broken 
no other laws than our immigration laws, they all have a legal 
avenue to return home.
    Mr. Bonner. Absolutely.
    Mr. King. Thank you. I appreciate that clarification and 
that being in the record. And I'd also state that they do come 
here for jobs. We recognize that. That is the magnet. And they 
stay here for a variety of reasons, but one of them is the 
difficulty to return home. One of them is the cost to come back 
here. But another one is--and it's not something that gets 
stated here very often, and that is that they like prosperity, 
the jobs, and the longer they're here, the more comfort they 
have and the more likely they are to stay.
    I would challenge also even doing the math and the 
calculation on how long it would take to deport illegals, that 
number being pick your own, but 11 million plus. They came here 
on their own, and they can--many of them go back on their own 
if we have good domestic enforcement. And, let's see, I would--
okay. If we have--and I'd direct this question to Mr. Cutler. 
If we have roughly 12 to 14 million illegals, why would we 
prioritize a tight budget to send our resources, our precious 
border control and internal enforcement resources instead into 
immigration services? And I hear that discussion here in this 
panel that there's not enough money spent to move people 
through the process. Why would that be our priority if we have 
12 or 14 million illegals here, why wouldn't we use that money 
instead to enforce our borders and enforce our domestic 
enforcement of our immigration laws?
    Mr. Cutler. I agree that the enforcement has to get the 
money, but the one thing that I would suggest, you know, I 
spoke about these people that work at the processing centers to 
weed out the fraud. We need more people there because I think 
it would help with the fraud aspect as well as with the service 
aspect, giving some kind of integrity to this program.
    One of the other problems that I'm hearing about is that 
right now where placement travel documents--alien cards, re-
entry permits--are being done, the paperwork is being done, 
without looking at the files. So we, in effect, may be giving 
our documents improperly to impostors, enabling the aliens that 
want to travel freely across our borders to do precisely that.
    So I think we need to do more with intelligence; we need to 
do, I think, better coordination between service and 
enforcement from the perspective of having some kind of 
integrity. I know that the gentleman to my left, Mr. 
Papademetriou, was talking about spinning it off as a separate 
entity, the service side. But we've got to coordinate both 
activities, in my belief, so that there's integrity. The idea 
that we would give out alien cards without looking at the files 
to make certain that the person getting the card is the person 
who should be getting the card and we're issuing the documents 
makes no sense, just as it makes no sense that US-VISIT doesn't 
fingerprint and photograph people from the visa waiver 
countries. So the folks we know nothing about we continue to 
know nothing about.
    So there has to be a strategy where we coordinate service 
with enforcement, but I think enforcement is really critical, 
especially now that we're fighting a war on terror.
    Mr. King. Thank you, Mr. Cutler, and that was a point that 
needed to be emphasized.
    A direct question to Mr. Bonner, and that is, I believe the 
President gave his guest-worker speech on January 6th. What was 
the impact on illegal border crossings? Was there any impact 
there at the number of illegal border crossings on our Southern 
border after the President's January 6th speech, or just prior 
to it, as we anticipated that speech?
    Mr. Bonner. The last numbers I have seen took us up through 
the middle of last month, and in certain parts of the country, 
notably our Border Patrol's San Diego sector, apprehensions 
were up 35 percent; in Tucson, they were up 31 percent. So, 
yes, there was a dramatic increase.
    Mr. King. And when you convert that percentage into 
numbers, what--how many numbers is that?
    Mr. Bonner. Off the top of my head, I don't remember. Bear 
in mind, the most significant number is the number of people 
who get by us, and we have never tracked that, unfortunately. 
But those are those 8 to 16 million--whatever the number is--
million people living in your State and other States throughout 
this country. We're simply not effective at stopping illegal 
immigration.
    Mr. King. Thank you, Mr. Bonner.
    Thank you, Mr. Chair.
    Mr. Hostettler. I thank the gentleman.
    The Chair will now extend for a second round of 
questioning. Mr. Danahey, this question is for you. In this 
testimony, written testimony, Mr. Cutler suggests that there 
are too few special agents to effectively enforce the 
immigration laws of the United States. Do you agree with his 
contention? And has FLEOA examined how many agents the ICE 
would need to effectively enforce the immigration laws in the 
interior? And if so, how many?
    Mr. Danahey. Sir, we are looking at between 1,500 and 2,000 
additional INS agents in order to be a starting point to see if 
that would impact the enforcement of the laws.
    Mr. Hostettler. To see if it would impact the starting 
point. All right. Very good.
    My question is to you, Mr. Bonner. Now, you made an 
interesting statement earlier. It could be an unfortunate 
statement in the results that happen as a result of the policy 
that we've had in place for many years that would result in 
this potentially happening. But the discussion has been made 
about the billions of dollars that would be necessary to remove 
illegal aliens who are currently in the country, but in its 
1997 executive summary, the U.S. Commission on Immigration 
Reform underscored the importance of worksite enforcement, 
finding that ``Reducing the employment magnet is the linchpin 
of a comprehensive strategy to deter unlawful migration.''
    You made a statement earlier that a vigorous employer 
sanctions program would result in a lot of people on the 
streets and local police would pick them up for vagrancy. So it 
would not necessarily be 50,000 ICE agents in the interior to 
find out where all these people are living, in their homes, in 
their apartments, and that sort of thing. But if we got rid 
of--according to the Commission, if we got rid of that 
linchpin, or if we created that linchpin, I guess, then a lot 
of this would--the linchpin, by its very definition, would 
cause a crumbling of this problem of illegal immigration, would 
it not?
    Mr. Bonner. Absolutely. And what I stated earlier is that 
most people would freely leave. They would go back to their 
country of origin. They would not simply sit around on the 
streets. I believe that this is the converse of the ``if you 
build it, they will come'' theory. If you tear down that 
stadium, they will leave. If you take away the job magnet, 
they'll go home.
    Mr. Hostettler. Mr. Danahey, that being the case, if you 
agree with Mr. Bonner, these extra 2,000 agents, would you 
suggest that we focus on employer sanctions, that we focus in 
that area to best leverage the capability that we would have if 
we had another 1,000 or 2,000 agents in ICE?
    Mr. Danahey. I think that would be part of it, sir. We also 
have the students coming into the country. We also just have 
people coming into the country. And I think those are also 
issues that we have to address.
    Mr. Hostettler. And when you say students with regard to 
illegal immigration, you mean students that come here legally 
and have been processed legally but overstay their visa, 
violate the terms of their visa, their stay here?
    Mr. Danahey. Yes, or they'll come in and they just don't go 
to school.
    Mr. Hostettler. Okay. Very good.
    Mr. Cutler, in your testimony you discuss the immigration 
application process. How common, in your opinion, is fraud in 
the immigration process, in the application process, I should 
say?
    Mr. Cutler. Fraud is rampant. I did marriage fraud 
investigations. I was also an examiner in the unit that 
interviewed people when they got married to determine if they 
were living together.
    I think that if we simply look at the idea of employer 
sanctions, by itself it won't solve the problem. And fraud is 
the reason that it won't. The people that want to work 
illegally in the United States--or work in the United States 
legally will become involved in fraud schemes in order to get 
the requisite documentation that will enable them to work. So 
that the guy that knows that he can't get a job because he's an 
illegal alien may well not leave, but he may well go to a 
marriage arranger and get residency based on a fraudulent 
marriage.
    So we really--again, this goes back to what I'm saying. You 
need to have a coordinated effort, a multi-pronged approach, 
where you go after each vulnerability in turn. And I think 
2,000 more agents would be fine, but I don't think it goes far 
enough. And I think we need better coordination now that we've 
merged--we're in the process of merging Customs and 
Immigration.
    For example, I understand they're no longer teaching 
Spanish language to the new agents at the academy. Now, a large 
percentage of the illegal alien population is solely Spanish-
speaking. So we need to do more with language training. We need 
to--and not just Spanish, I think especially in this day and 
age we need strategic languages. But we need to approach this 
looking at the overall problem. You know, this whole thing is 
like a sealed balloon. If you push one end, it's going to bulge 
at the other. If you say we're not going to hire illegal 
aliens, yes, a lot of folks may well pack up and go home. But 
the more resourceful people and the criminals are going to say, 
okay, what do I have to do now that they've thrown this other 
hurdle in my path, whether it's marriage fraud, whether it's 
fraud of getting labor certification that they're not entitled 
to. Where the rubber meets the road is where the agent goes out 
and knocks on a door and makes the inquiries and makes the 
arrests. So we need to look at fraud. We need to look at how 
many agents we're assigning to the various task forces, whether 
it's the Organized Crime Drug Enforcement Task Force, where I 
spent many of my years, whether it's the Joint Terrorism Task 
Force. The point is the work is there that needs to be done, 
but it's labor-intensive and we really need those agents in the 
field from within the interior.
    Mr. Hostettler. Thank you. Excellent point, Mr. Cutler.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much.
    Let me continue, Mr. Papademetriou. You did not finish. I 
wanted you to continue giving us some very important 
instructions, and the reason is this is a budget hearing. We've 
got to quantify where there are weaknesses in the budget as it 
is making its way through the legislative process in the House 
and the Senate.
    I've already heard from Mr. Bonner, who has gone on record 
to suggest that he could use 1,000 more Border Patrol agents. 
The question, of course, is how we would use them, and that's 
the philosophical question. But I think the real issue, if we 
begin to part the waters on this budget, it's whether or not 
we've got enough in each budget line item, how we translate 
this to the appropriations process.
    So you were beginning to relay to me a very realistic 
scenario, and that is the amount of money to remove people. And 
I categorize it somewhere between 8 to 14 million, and I think 
those numbers are questions. But you began with investigation, 
jail time, and why don't we just pick up where you left off.
    Mr. Papademetriou. Thank you.
    Ms. Jackson Lee. And if you've got a figure in hand, you 
need to share that with us as well. You've already qualified 
what you think--how you think you came to it.
    Mr. Papademetriou. Right. The figure that is an easy figure 
to get to is how long it would take, simply on the basis that 
400 days in a year times 500 people removed per day is 200,000, 
50 years to do 10 million illegals.
    Now, I don't know anything about what's going to happen, in 
other words, at which point momentum shifts and some of the 
things that my colleagues here may or may begin to happen.
    In terms of numbers, if you need a number that will 
basically tell you whether the CIS needs an extra $200 million 
from Government funds, or 300 or 150, I think you should--with 
all due respect, you should ask Mr. Aguirre to come here and 
propose a 3-year plan to you and what it would cost to bring 
down the backlog in adjudications to something that will be 
much more acceptable, perhaps a million rather than 6 million, 
and then hold him and the Administration accountable for that.
    Ms. Jackson Lee. Let me--as you well know, we are looking 
at the US-VISIT program, and let me quality my statement on the 
record by saying that I've had the privilege of visiting the 
Houston Intercontinental Airport, and the people who are 
utilizing the US-VISIT program are doing a very good job. I've 
had the pleasure of visiting the Miami Airport as a Member of 
the Homeland Security Committee, both visiting to look at the 
US-VISIT--the implementators of this program are finding it 
easy to adapt to and are working very hard on it.
    My understanding is that $340 million has now been 
allocated for the US-VISIT program, which the judgment is still 
out. And let me just throw this back to you. What could we do 
in benefits and really impacting on immigration reform 
utilizing those dollars maybe in a more effective way than what 
we now have?
    Let me give my complaint on the US-VISIT, and then if you 
would answer, and that is, we're collecting data. We're taking 
pictures, we're taking fingerprints, we're matching, but we're 
collecting data. And I think the question is the utilization of 
that data and whether we can effectively be preventive that way 
or maybe some other ways which I'm very, very enthusiastic 
about, and that is the point of leaving the particular nation, 
the particular country that you're leaving, effectiveness on 
that end, which I think Mr. Bonner would hold to on the 19 that 
we had come in here on the tragedy of 9/11. Effectiveness in 
holding them back before they even got here might have worked 
better than what we even try to do on that border.
    So would you comment on utilizing the $340 million 
allocated to US-VISIT for some other purposes?
    Mr. Papademetriou. Thank you. Let me start with your very 
last comment. There's a basic principle in enforcement that 
basically says we can defend ourselves better the further away 
the person who wishes to come here illegally or wishes us harm 
is from physical borders. So your point about trying to do more 
and more things away from the border including before people 
get on airplanes or other conveyance vehicles is an extremely 
important one.
    Three hundred and fifth million is a lot of money. If you 
multiply that by 3 years, you will do substantial damage. You 
will make significant inroads into any backlogs that we have, 
particularly if they're accompanied by systemic changes in the 
way that we do this.
    Everybody seems to be focusing on employer sanctions, and 
in a sense your question allows me to go there for a second. 
Let me just put a very simple proposition here. Employer 
sanctions were invented in Europe. Europe has enforcement 
resources, whether it is at their labor department, at the 
border, or elsewhere, that are multi-pulse on a per capita 
basis, multi-pulse, 5, 10, 20 times as much as what we invest 
in them. Their illegal immigration, net illegal immigration, 
goes up at roughly the same amount as the U.S.--half a million 
people. Germany's underground economy grows at an estimated--
that's government estimates--5 to 7 percent per year, fueled 
primarily by unauthorized immigrants.
    So if we think even for a moment that enforcement is the 
answer, I would respectfully submit that enforcement may well 
be part of an answer and may be a valid part of an answer, if 
it is part of a comprehensive answer that includes doing smart 
things, such, again, as defending our borders before people get 
to them, such as spending money to give benefits to people that 
have paid for them and have earned them, et cetera, et cetera, 
et cetera.
    Sanctions is not a panacea. We have seen this since the 
time that we actually put that law on the books in 1986.
    Ms. Jackson Lee. Thank you very much.
    Thank you, Mr. Chairman. Let me just say, in conclusion, 
Mr. Chairman, I hope that--I'm not sure out of this hearing 
whether we'll have an opportunity for collaboration. You have 
your viewpoints about enforcement and other issues, but this is 
a hearing on the budget. The Budget Committee is meeting, and I 
know that I'm going to be attempting to impact them. I would 
only say to you on the record that where we can write a joint 
letter, where there is agreement on some of the issues, I would 
encourage us to do so, and I'd like our staff to get together 
and to do that. I know that you would have an opportunity to 
write a single letter, because there will be issues of 
disagreement. But I can't imagine that we are not interested 
maybe in some common ground on providing resources. There were 
some inspector issues that I think were being made, a training 
issue with Mr. Cutler, language issues, resources there. And we 
might, if you will, scrutinize the budget and be able to find 
ways of joining in a joint letter on some of these and then 
we'll be free to express ourselves differently on an individual 
basis.
    Mr. Hostettler. I thank the----
    Ms. Jackson Lee. Or either as the Chairman and the Ranking 
Member, you certainly have that privilege.
    Mr. Hostettler. I thank the gentlelady, and I agree 
wholeheartedly with what you are saying that the budget 
allocates a large sum of money in overall discretionary 
spending. In the appropriations process, we can look and ask of 
the appropriators and our colleagues to look at these issues 
that we have found today, especially as a result of your 
questioning with regard to increasing the number of Border 
Patrol agents and ICE agents that would be necessary. And so I 
look forward to working with you on this very--these very 
important issues, especially as we get closer to the 
appropriations process.
    Ms. Jackson Lee. Very good. I'm going to be contacting the 
budgeteers, but I welcome you to do that, but I look forward to 
working with you on the appropriations process.
    Thank you, Mr. Chairman.
    Mr. Hostettler. Thank you.
    Ms. Jackson Lee. I thank the witnesses very much.
    Mr. Hostettler. The Chair now recognizes the gentleman from 
Iowa for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Bonner, you made a reference to, I believe, the safety 
of the lives of American citizens in your testimony, and I 
didn't--I didn't catch the early part of that and the details, 
so I'd just ask you this question: Is there any data out there 
that you're aware of, or anyone on the panel, for that matter, 
that can let us know how many American citizens die each year 
at the hands of illegal aliens?
    Mr. Bonner. I don't know that there is such data. We know 
that our prisons are full of criminal aliens who have committed 
all manner of crimes against our people, but I don't know that 
anyone, be it Department of Justice or even the States, break 
it down and say that this murder was committed by an illegal 
alien. But I'm sure that it's a very substantial number.
    Mr. King. Thank you.
    Anyone else on the panel want to take a shot at that? Mr. 
Cutler?
    Mr. Cutler. Back in the last 1980's, early 1990's, I was 
the INS rep at the Unified Intelligence Division at DEA. We 
found that 60 percent of the people arrested by DEA in New York 
were foreign-born, 30 percent nationwide.
    Now, I don't know exactly how many people die every year 
because of drug trafficking and related crimes, but that number 
is significant. I would imagine it goes into the tens of 
thousands nationwide. So it certainly--I think it's a proper 
statement to make, that we lose more people each and every year 
because of criminal activities committed by aliens operating 
within our borders than we lost of 9/11. It would be a multiple 
of the many--of the number of people that were lost.
    Mr. King. And it would be also your opinion that we could 
extrapolate a number, provided it was qualified by those--some 
of those statistics that you've given us?
    Mr. Cutler. Yeah, you know, it's the whole problem of 
properly analyzing data, and--but I think you could certainly 
come up with an approximation.
    Mr. King. Thank you, Mr. Cutler.
    Mr. Papademetriou. I only deal with the numbers that I 
know, sir. I do not know this number.
    Mr. King. Thank you.
    Also, Mr. Smith, asked the question: What is the most 
important thing we can do? And Mr. Bonner's response was turn 
off the jobs magnet, and I think there was at least significant 
concurrence across the balance of the panel on that. And some 
of those things we might--we talked about were employer 
sanctions, internal enforcement, adding to the resources of 
those kind of things. And I'm going to ask you a question here.
    We have a program that's been enacted by Congress called 
the SAVE program, System for Advanced Verification of 
Employment, and it started out a five-State voluntary pilot 
program, and now Congress has, through bipartisan action, 
enacted the SAVE program to now cover all 50 States. In fact, 
the enactment is in this following December.
    At that point, an employer will be able to enter in a 
Social Security number, I assume a green card number or other 
type of work permit identifier, and verify they have an 
individual employee as here to work legally.
    Now, when that happens, when it's 50 States and it's all 
enacted--and we may have a kink or two to get out of that, but 
at that point, I'm going to ask you about what you think the 
impact of turning off the jobs magnet if we would then enact 
legislation that would remove the Federal deductibility for tax 
purposes of wages and benefits paid to illegals and then gave 
the assistance of the Internal Revenue Service at your service 
to help enforce our internal domestic laws, what would be the 
impact then on turning off the jobs magnet and voluntary 
deportation, so to speak, if we dried up that job market by 
letting the IRS help enforce this as well as our Border Patrol 
and our internal security? Mr. Bonner first.
    Mr. Bonner. I think it's a start, but as I understand the 
SAVE program, it's voluntary, so that would have to change. I 
mean----
    Mr. King. Excuse me, Mr. Bonner. It's with that assumption 
that it would still be voluntary but an employer could verify 
that employee to be--with a positive verification that they are 
legal, and then they would simply lose the tax deductibility of 
the wages and benefits paid. So it might be voluntary, but they 
could be audited by the IRS and have to pay then the interest, 
penalty, and principal on tax avoidance.
    Mr. Bonner. I think that that measure, while it might be a 
start, would not really go far enough to discourage people from 
hiring illegal immigrants. I think that more needs to be done 
in that respect. I think you need INS enforcement agents, 
special agents, criminal investigators, call them what you 
will, going around ensuring compliance much the way the IRS 
enforces the tax code, selective enforcement but it makes 
everybody else sit up and take notice that, you know, it's not 
a good thing to be out there violating these laws because Joe 
down the street lost his business because he was hiring illegal 
aliens.
    Mr. King. Thank you, Mr. Bonner. Before I move this to Mr. 
Danahey, I would add that we're looking at at least a $40 
billion revenue incentive there by some numbers that we have.
    So, Mr. Danahey, your opinion?
    Mr. Danahey. Sir, that might increase the numbers that just 
look for employers that aren't going to bother taking those 
benefits out. Also, that's going to put an additional burden on 
the agents of the Internal Revenue Service, because they'll be 
working with the same numbers that they are to perform their 
current mission.
    Mr. King. Thank you.
    Mr. Cutler?
    Mr. Cutler. I think it's a step in the right direction, but 
I think that we also need to coordinate with the Labor 
Department, and I think also, as I had suggested when I made my 
remarks, I believe that we should be hiring compliance 
officers. You might want to think about hiring retired law 
enforcement folks because they can hit the ground running a 
little bit more quickly than somebody coming into this cold, 
whether it's retired annuitants or retired police officers. But 
I think that the idea of having compliance folks who don't 
carry guns, don't get the same 6(c) retirement program, which 
is costly, the hazardous duty retirement program, could become 
a force multiplier. But the only cautionary note that I still 
have to sound is that if we make it much more difficult for 
illegal aliens to seek employment and be successful at it, they 
will go into areas of fraud. So we have to understand that that 
balloon is going to get squeezed on one end, it's certainly 
going to be bulging at the other end. You know, the thing comes 
back again to interior enforcement and coordinating so that 
we're coming at it from more than one direction.
    Mr. King. Thank you, Mr. Cutler, and since Mr. 
Papademetriou deals only with facts and I'm out of time, I'm 
going to yield back to the Chairman. Thank you. [Laughter.]
    Mr. Hostettler. I thank the gentleman.
    This hearing room has got to be turned over to another 
hearing at 12 noon, and so we are going to have to stop at 
this. But I very much appreciate the gentlemen for your 
attendance today and for your contribution to this discussion.
    Before I close, I would just like to tell specifically Mr. 
Bonner and Mr. Danahey, every Member of this Subcommittee, as 
well as the Congress as a whole, very much appreciates the work 
that you do and that the members of your various agencies to 
enforce the laws as Congress has passed. And we appreciate 
that. We understand the limitation of resources that you have. 
We understand from time to time your frustration, but we very 
much thank you for your service and we hope that help is on the 
way to help you do more good things.
    So with that, I----
    Ms. Jackson Lee. Mr. Chairman, if you would yield, I just 
want to add my appreciation as well to the two gentlemen, but 
also to the many, many agents that are out there on the front 
lines. We appreciate the work that they do, and since I have 
seen Mr. Cutler on a number of occasions, your 30 years is much 
appreciated, and you were the INS agent, but let me say that 
your fellow colleagues are still doing the very best that they 
can do, and we appreciate it.
    Mr. Cutler. I am proud of all of them, and I appreciate the 
kind remarks.
    Mr. Hostettler. The business before the Subcommittee being 
complete, we are adjourned.
    [Whereupon, at 11:50 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 response to questions submitted by rep. sheila jackson lee to michael 
  t. dougherty, director of operations, u.s. immigration and customs 
           enforcement, u.s. department of homeland security
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

response to questions submitted by rep. sheila jackson lee to daniel b. 
   smith, principal deputy assistant secretary of state for consular 
                   affairs, u.s. department of state
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Note: Rep. Lamar Smith presented post-hearing questions to 
the Honorable Eduardo Aguirre, Jr. A reply to those questions 
had not been received by the Subcommittee on Immigration, 
Border Security, and Claims at the time this hearing was 
printed.

                                 <all>

</pre></body></html>
